APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Seventh Circuit, J.K.J. v. Polk
Cty., Nos. 18-1498, 18-1499, 18-2170,
18-2177 (May 15, 2020) ............................... App-1
Appendix B
Opinion, United States Court of Appeals
for the Seventh Circuit, J.K.J. v. Polk
Cty., Nos. 18-1498, 18-1499, 18-2170,
18-2177 (June 26, 2019) .......................... App-111
Appendix C
Order, United States Court of Appeals for
the Seventh Circuit, J.K.J. v. Polk Cty.,
Nos.
18-1498,
18-1499,
18-2170,
18-2177 (Sept. 16, 2019) .......................... App-174
Appendix D
Opinion and Order, United States
District
Court
for
the
Western
District of Wisconsin, J.K.J. v. Polk Cty.,
Nos.
15-cv-428-wmc,
15-cv-433-wmc
(Feb. 5, 2018) ........................................... App-175
Appendix E
Relevant Statutes .................................... App-199
Wis. Stat. § 940.225 .......................... App-199

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
Nos. 18-1498, 18-1499, 18-2170 & 18-2177
________________
J.K.J. and M.J.J.,
v.

Plaintiffs-Appellees,

POLK COUNTY AND DARRYL L. CHRISTENSEN,
Defendants-Appellants.
________________
Argued: Dec. 5, 2019
Decided: May 15, 2020
________________
Before: Wood, Chief Judge, and Bauer, Easterbrook,
Kanne, Rovner, Sykes, Hamilton, Barrett, Brennan,
Scudder, and St. Eve, Circuit Judges.
________________
OPINION
________________
SCUDDER, Circuit Judge. While confined in the
Polk County Jail, two female inmates, J.K.J. and
M.J.J., endured repeated sexual assaults at the hands
of correctional officer Darryl Christensen. The two
women brought suit in federal court against
Christensen and Polk County. A trial ensued, and the
jury heard evidence of Christensen’s horrific
misconduct over a three-year period. The County’s

App-2
written policy prohibited sexual contact between
inmates and guards but failed to address the
prevention and detection of such conduct. Nor did the
County provide any meaningful training on the topic.
What is more, toward the beginning of the relevant
period, the County learned that another guard made
predatory sexual advances toward a different female
inmate. The trial evidence showed that the County
imposed minor discipline on the guard but from there
took no institutional response—no review of its policy,
no training for guards, no communication with
inmates on how to report such abuse, no nothing. In
the end, the jury returned verdicts for J.K.J. and
M.J.J.
The case against Christensen was open and shut.
But a divided panel of this court overturned the jury’s
verdict against Polk County, determining that the
trial evidence failed to meet the standard for
municipal liability under Monell v. Department of
Social Services, 436 U.S. 658 (1978). We decided to
rehear the case en banc and now affirm the jury’s
verdicts against both Christensen and Polk County.
While the standard for municipal liability is
demanding—designed to ensure that a municipality
like Polk County is liable only for its own
constitutional torts and not those of employees like
Christensen—the evidence was sufficient to support
the verdict against the County.
I
J.K.J. and M.J.J. sued Christensen and Polk
County under 42 U.S.C. § 1983, alleging that the
defendants violated the Eighth and Fourteenth
Amendments by acting with deliberate indifference to

App-3
a serious risk of harm to their safety and well-being.
They also brought a negligence claim under Wisconsin
law against the County. The district court
consolidated the cases for trial. The five-day trial
ended with the jury finding both defendants liable on
all claims, and we recount the facts in the light most
favorable to that verdict. See Martin v. Milwaukee
County, 904 F.3d 544, 547 n.1 (7th Cir. 2018).
A
J.K.J. and M.J.J. suffered from addictions and
committed crimes that landed them in the Polk
County Jail intermittently between 2011 and 2014.
Located in northwest Wisconsin, the institution
houses up to 160 inmates, including a small number
of women, and employs about 27 correctional officers.
Christensen worked for 19 years as one of the guards
tasked with protecting the inmates—a duty he
severely betrayed.
J.K.J. and M.J.J.’s experiences with Christensen
were unique but shared a basic pattern. Christensen
began by commenting on their appearances—remarks
like “nice ass” and “you’re looking good”—with the
verbal harassment then escalating to explicit sexual
overtures. In time came physical contact, which began
with Christensen groping and kissing the women and
from there advanced to oral sex and digital
penetration and eventually to intercourse. J.K.J. could
not pinpoint the total number of times Christensen
assaulted her but, by way of example, stated that,
during a two-month period in the summer of 2012, he
insisted on sexual contact every time he was on duty.
For her part, M.J.J. estimated that Christensen

App-4
engaged in sexual contact with her 25 to 75 times.
These events spanned about three years.
Christensen took steps to conceal his misconduct
within the jail. While making inappropriate sexual
comments in front of others, he always made sure to
take J.K.J. and M.J.J. to hidden areas to engage in the
physical contact. Christensen also instructed both
women not to tell anyone of the encounters because, if
word got out, he would lose his job and family. For the
most part, the women heeded his admonishment and
kept the abuse to themselves during their
incarceration. J.K.J. and M.J.J. explained their
silence in terms familiar to many victims of sexual
harassment and assault—shame, doubt anyone would
believe them, and fear of retaliation.
But the truth eventually came out. Another
county’s investigator called Polk County to report an
allegation that Christensen had sexual contact with
an inmate. Polk County responded by commencing an
internal investigation, and Christensen resigned upon
being confronted. A criminal investigation followed
and led the Wisconsin Department of Justice to J.K.J.
and M.J.J. After expressing initial reluctance to talk,
both women eventually felt safe enough to trust the
investigators with their stories. Christensen later
pleaded guilty to criminal charges and is now serving
a 30-year sentence.
B
Christensen’s conduct was not the only evidence
of sexual misconduct at the Polk County Jail that the
jury heard. In 2012, toward the beginning of
Christensen’s assaults of J.K.J. and M.J.J.,
complaints surfaced that correctional officer Allen

App-5
Jorgenson had an inappropriate relationship with a
female inmate known as N.S. Sergeant Steven
Schaefer brought the complaints to Captain Scott
Nargis, the day-to-day head (effectively the warden) of
the jail. Schaefer reported that Jorgenson had touched
N.S. on her waist and rear end, adding that the
complaints did not come as a surprise because “[w]e
have all heard complaints about [Jorgenson’s]
inappropriate comments to both inmates and staff.”
Captain Nargis responded by partnering with
Deputy Sheriff Steven Moe to investigate the
contentions. Although Jorgenson and N.S. denied any
wrongdoing, Nargis and Moe believed lines had been
crossed. Indeed, the investigation revealed that
Jorgenson not only flirted with female inmates, but
also focused video cameras on the female housing pod
for an inordinate amount of time, and fostered an
inappropriate relationship with N.S. But Moe testified
that he initially did not believe Jorgenson had a sexual
relationship with N.S.
Based on those findings, Moe and Captain Nargis
decided that the right response was to issue a written
reprimand to Jorgenson. As part of doing so they
assured Jorgenson that the reprimand was not a
“major deal” and he could move on from it. “After
having confronted Allen,” Moe testified, “we felt that
it was important that we recognize and support Allen’s
prior work history. He was a good employee. He was a
go-to employee. We appreciated his efforts and his
work, so we wanted to salvage him as an employee.”
But the issue reawakened when N.S. sent Captain
Nargis a letter, dated January 19, 2012, explaining
that she had lied in denying the allegations about

App-6
Jorgenson. At J.K.J. and M.J.J.’s trial, the district
court admitted N.S.’s letter not for its truth, but for
the non-hearsay purpose of informing the jury of
allegations of sexual misconduct that Polk County
received during the relevant period.
N.S. began her letter by saying “I’m sorry for
lying” and “I would like to tell the truth about the
allegations made against Allen Jorgenson” because
“[t]here are many things [Jorgenson] has said & done
that have been inappropriate in a sexual manner
towards me” and other inmates. Before detailing her
own account, N.S. emphasized that “I did not tell the
truth [earlier] because [Jorgenson] has told me to keep
quiet & said he didn’t wanna get in trouble.” From
there N.S. described the following misconduct that
“started during my last stay here from 10-27-10 til 76-11 & is continuing through my incarceration now”:
•
•
•

•
•

Jorgenson “always makes comments about
seeing us in the shower. He always calls it [a]
‘nice show.’”
He has asked me “what the color of the day
was”—a question about the color of “my
underclothes.”
“He has told me he wants me to ride topless in
his boat, [and] he has wanted me to lift my
shirt for him while I’ve been here [in the jail]
both times.”
“Many times he’s leaned over the cart to look
down my shirt.”
“Recently he has started touching me.”
“Everyone knows he’s doing these things” and
“[w]hen he walks me back from the nurses
office, visiting anywhere he shoves me &

App-7
pushes me” and “very recently … he grabbed
me around my waist & kept his hand there til
the K-Pod door opened then he slapped my
butt.”
• “[W]hen giving me meds, he’ll look to see if the
camera is on us. If not he comes around the
cart & touches my back & butt as I go back in.
One time the camera was on our direction, he
said dam[n], I was gonna go in for the kill.
Whatever that meant.”
N.S. closed her letter by underscoring that
“another reason I did not tell the truth [in the initial
investigation] is because I don’t want problems with
[Jorgenson] or any of the other jailers who will be mad
@ me for confirming these accusations.” She also
explained that she was not candid with her fellow
inmates either because “I didn’t want Allen
[Jorgenson] in trouble or mad @ me, making it hell for
me here.”
Upon receiving N.S.’s letter, Deputy Sheriff Moe
and Captain Nargis reopened the prior investigation
to take a fresh look at Jorgenson’s conduct. Sergeant
Schaefer also got involved, spoke with N.S. to verify
her report, and concluded that she may have been
telling the truth at that point. Moe, too, acknowledged
at trial that, upon receiving N.S.’s letter, he found it
“more likely” that Jorgenson had inappropriately or
even illegally touched her.
From there, however, Polk County chose not to
revisit its prior disciplinary decision and determined
that Jorgenson’s conduct still merited only the prior
written reprimand. The jail took no further action in
response to N.S.’s new allegations. Jorgenson later

App-8
resigned after an unrelated investigation regarding
his female co-workers.
Sexual harassment had appeared in the jail in
other ways too. Christensen testified that he
witnessed at least two other jailers, including Allen
Jorgenson, make sexual comments to inmates. And
then there was the issue of “tier talk,” a term that
Captain Nargis agreed reflected “not necessarily
flattering talk amongst co-workers in the tier.” By way
of example, Captain Nargis confirmed hearing that
Christensen had made inappropriate sexual
comments about women in general and, on one
occasion, about an inmate’s breasts. Nargis even
acknowledged that “on occasion” he too participated in
tier talk, in an effort to be viewed as part of the group
and a trusted leader of the officers.
C
What Polk County had done (and not done) to
prevent the sexual abuse of inmates was a key focus
at trial. The County established written policies
against the sexual harassment and assault of inmates.
Policy I-100 of the jail’s Policy and Procedures Manual
listed inmates’ rights and stated that they were never
to be subjected to “verbal, physical, emotional,
psychological or sexual harassment” by staff. Any
harassing officer was “subject to disciplinary charges
and/or termination.”
Another of the Manual’s provisions, Policy C-202,
stated that jail employees were prohibited from
fraternizing with inmates, including “[b]eing in an
intimate social or physical relationship with a
prisoner.” In July 2012, Polk County updated the
Manual to include some language from the Prison

App-9
Rape Elimination Act, a federal statute enacted in
2003 to deter the sexual assault of prisoners. The new
language instructed that any staff member or inmate
“who knows or reasonably suspects” sexual
misconduct was to inform the “Jail Administrator” or,
if the complainant was an inmate, she could inform a
staff member, and went on to describe how such
reports would be handled. The section noted that
“Wisconsin State Statutes make it a criminal offense
for correctional staff members to have sexual
intercourse or contact with an individual confined in a
correctional
institution.”
See
Wis.
Stat.
§ 940.225(2)(h).
The 12-page Inmate’s Handbook also mentioned
sexual misconduct, providing: “[e]very inmate has the
right to be safe from sexual abuse and harassment. No
one has the right to pressure you to engage in sexual
acts. If you are being pressured[,] threatened, or
extorted for sex, you should report this to staff
immediately.” As the plaintiffs’ expert would later
describe it, however, this information appeared in
“very small font; one paragraph in the middle not even
headlined, not even with a title on it.” Inmates
received the Handbook during the intake process and
were told to read it. At no point, though, did the jail
provide the inmates with any further information on
how to report sexual misconduct.
Aside from these written policies, Polk County
Jail staff received no training (in any sense of the
word) focused on the sexual harassment or assault of
female inmates. Few though they are, the details are
important. Consider Polk County’s program that
required officers to read a specified policy each day

App-10
from the jail’s Policy and Procedures Manual and then
to initial a piece of paper and write the policy’s title as
proof they did so. For his part, Christensen told the
jury that most of the time he just went through the
motions of writing down a policy’s title and signing
without reviewing anything. Even more, the trial
record contained no evidence showing that Captain
Nargis or anyone from the County dedicated any
portion of any live training session to reviewing the
jail’s written policies or underscoring the necessity of
reporting any known or suspected sexual misconduct.
Any in-person training that occurred was hidden
among the jail’s general training and completely silent
on preventing and detecting the sexual assault of
female inmates. There was, for example, a countywide (but not jail-specific) training on sexual
harassment that addressed how employees should
maintain proper co-worker relationships but which
Sergeant Schaefer clarified was “not anything
regarding inmates.” The jury also heard evidence
about the jailers’ training on the vague topic of
maintaining distance from inmates, with no testimony
to suggest that training ever touched the topic of
sexual assault. Sergeant Schaefer, who helped oversee
the training of new officers, expressly admitted that
much. He recalled being taught in “jail school” that he
should not “become too close” with inmates or share
personal information with them, though he explicitly
denied any memory of being told that it was improper
for jail officers to have sexual relationships with
inmates. Those vague cautions were repeated to him
during on-the-job training in the Polk County Jail.
And when Sergeant Schaefer trained others, he gave
the same admonishments. While Schaefer agreed that

App-11
having sex with an inmate would qualify as being “too
familiar,” he did not testify that he ever addressed this
topic in any way, including in any training session.
Beyond learning that training on sexual abuse
was nearly nonexistent, the jury heard affirmative
evidence revealing the County’s dismissive attitude
about preventing and detecting it. The prime example
came in the “tizzy email.” On February 21, 2014, near
the end of Christensen’s abuse of J.K.J. and M.J.J.,
Captain Nargis sent an email to many staff members
summarizing the contents of a training held the day
before, which included the Prison Rape Elimination
Act as one of its several topics. Nargis wrote that it
“[s]eems that everyone is in a tizzy to train their staff
on PREA.” Nargis testified that he used the word
“tizzy” to mean “that there’s a bit of a scramble for, in
this particular case, time and attention that seemed to
be misplaced.” His email went on to state that,
although “[t]here is no requirement for [the jail] to be
compliant with everything that [PREA] calls for,” the
training would “hit the basics.”
For their part, J.K.J. and M.J.J. presented
evidence on the inadequacy of Polk County’s policies
and training. They did so through the testimony of
Jeffrey Eiser, an expert on jail operations. Eiser
explained that Congress enacted PREA in response to
an “evident” and “prevalent” problem with sexual
assault and abuse in jails. He added that PREA’s
threefold objectives are “to prevent sexual abuse and
harassment, to detect it, and then to respond to it.”
But Eiser’s review of Polk County’s policies left him of
the conviction that the jail had sufficiently covered
only the third base—responding to sexual abuse

App-12
complaints—but otherwise inadequately addressed
prevention and detection.
Eiser did not stop there. He then offered concrete
examples of ways Polk County could improve its
policies. To prevent abuse, a policy could make clear
that the institution operates under a zero-tolerance
policy on sexual abuse and harassment. It likewise
could designate a PREA coordinator, train staff on
what to look for and how to report abuse as well as
how to make inmates feel comfortable coming forward,
take added care with job assignments within the
facility, and ensure that all inmates understand their
right to be free from sexual abuse and harassment.
Similarly, Eiser testified that, to detect sexual
misconduct, a policy could make sure that the inmates
understand what abuse entails, since they may come
from life experiences that have blurred the lines of
abnormal and normal relationships. Eiser added that
a sound policy also would provide a safe, confidential
way for inmates to report abuse (through, for example,
the use of a locked dropbox), instead of putting
inmates in the position of having to hand a grievance
to an officer who may be friends with the abuser. Polk
County’s policy lacked all of these features.
D
The jury returned a verdict in favor of J.K.J. and
M.J.J. on their claims against both Christensen and
Polk County. The case proceeded to the damages
phase, and the jury then heard testimony about the
impact the defendants’ conduct has had on the
women’s lives. The jury translated that evidence into
compensatory damages awards of $2 million each for
J.K.J. and M.J.J. The jury further determined that

App-13
Christensen’s conduct warranted his paying punitive
damages of $3.75 million to each woman.
Both defendants challenged the jury’s verdicts in
post-trial motions. They moved under Rule 59 for a
new trial based on errors that they contended the
district court made. Polk County also moved under
Rule 50 for judgment as a matter of law, arguing that
the trial evidence was legally insufficient to prove
J.K.J. and M.J.J.’s § 1983 claims and that it was
immune from liability on the state-law negligence
claim. The district court agreed on the latter point and
dismissed the negligence claim, but otherwise left
intact the jury’s verdicts on the constitutional claims
and denied the request for a new trial.
Having presided over the trial, Judge Conley
determined that the evidence sufficed to allow the jury
to find from the “tier talk” alone that “jail officials not
only turned a blind eye, and perhaps even fostered, a
culture where inappropriate sexual comments were
accepted as the norm.” Highlighting the showing
J.K.J. and M.J.J. made of both Captain Nargis’s
learning in 2012 of Allen Jorgenson’s sexual
misconduct and his dismissive handling of PREA
training in February 2014, Judge Conley explained
that the jury had ample evidence from which to
conclude that the County “downplayed the importance
of preventing sexual assault and harassment within
the jail.” Considered in its entirety, Judge Conley
continued, the evidence supported the jury’s finding
by a preponderance of the evidence that “if the County
had provided adequate notice and training to
correctional officers and inmates on what constitutes
sexual harassment and abuse, and how to report it,

App-14
plaintiffs [J.K.J. and M.J.J.] may not have been
sexually assaulted and harassed” from 2011 to 2014.
This appeal followed.
II
Christensen gives us no good reason to upset the
jury’s verdict against him. To establish that his
conduct violated their Eighth Amendment rights,
J.K.J. and M.J.J. had to prove that Christensen acted
with deliberate indifference to an excessive risk to
their health or safety. See Farmer v. Brennan, 511
U.S. 825, 837 (1994); Sinn v. Lemmon, 911 F.3d 412,
419 (7th Cir. 2018). It was more than reasonable for
the jury to conclude that the trial evidence met that
standard. To say that the sexual assaults he
committed against J.K.J. and M.J.J. objectively
imposed serious risk to their safety would be an
understatement. And the evidence was equally
sufficient to show that Christensen knew of that
danger. Indeed, he admitted at trial that he knew he
was putting the plaintiffs at risk and that his conduct
not only violated prison policy but was criminal.
Christensen’s only defense was to try to somehow
persuade the jury that J.K.J. and M.J.J. consented to
the sexual relations. The effort failed and now on
appeal he contends that the district court erred in not
giving the jury a special instruction on his consent
defense. Our review of the trial transcript shows that
the district court completely and accurately instructed
the jury on the elements of the Eighth Amendment
claim. No further explanation was necessary to tell the
jury how to consider the consent issue. If the jury had
bought Christensen’s story that J.K.J. and M.J.J. were
willing participants (and, for that matter, even

App-15
capable of being willing participants under the
circumstances), it would have found that the women
had not met their evidentiary burdens of proving that
he acted with deliberate indifference to their safety
and well-being. But the jury reached no such
conclusion. The instructions were sufficient.
Christensen’s last challenge is to the damages
awards. He finds them problematic because the jury
gave the same amounts to both women. To be sure, the
sexual abuse had unique effects on J.K.J. and M.J.J.,
who each came to Polk County Jail from distinct lives
and suffered their own personal tragedies. But that
does not mean that they necessitated different
compensatory damages amounts, particularly given
the psychology expert’s recommendation of identical
courses of treatment for both women. Nor was the
jury’s punitive damages award so great as to be
unreasonable or outside the bounds of due process.
The judgment against Christensen is easily
affirmed.
III
A
We now turn to the more difficult question of Polk
County’s liability. The County raises a few issues on
appeal but only one merits discussion—whether the
trial evidence was sufficient to sustain the jury’s
verdict. Polk County is not automatically on the hook
for Christensen’s unconstitutional acts just because it
employed him. Under the familiar holding of Monell v.
Department of Social Services, local governments like
Polk County can be held responsible for constitutional
violations only when they themselves cause the
deprivation of rights. 436 U.S. 658, 691-92 (1978).

App-16
Time and again the Supreme Court has reinforced the
strict prohibition against allowing principles of
vicarious liability to establish municipal liability
under § 1983. See id. at 694-95; see also Bd. of
Comm’rs of Bryan County v. Brown, 520 U.S. 397, 403
(1997) (collecting cases and reinforcing that the
doctrine of respondeat superior does not apply under
§ 1983).
Monell liability is difficult to establish precisely
because of the care the law has taken to avoid holding
a municipality responsible for an employee’s
misconduct. A primary guardrail is the threshold
requirement of a plaintiff showing that a municipal
policy or custom caused the constitutional injury. See
Monell, 436 U.S. at 690-91. “Locating a ‘policy,’” the
Supreme Court has emphasized, “ensures that a
municipality is held liable only for those deprivations
resulting from the decisions of its duly constituted
legislative body or of those officials whose acts may
fairly be said to be those of the municipality.” Bryan
County, 520 U.S. at 403-04; see also Glisson v. Indiana
Dep’t of Corrs., 849 F.3d 372, 381 (7th Cir. 2017) (“The
critical question under Monell remains this: is the
action about which the plaintiff is complaining one of
the institution itself, or is it merely one undertaken by
a subordinate actor?”). A municipal action can take the
form of an express policy (embodied, for example, in a
policy statement, regulation, or decision officially
adopted by municipal decisionmakers), an informal
but established municipal custom, or even the action
of a policymaker authorized to act for the
municipality. See Glisson, 849 F.3d at 379.

App-17
More is required before Monell liability can
attach, however. “The plaintiff must also demonstrate
that, through its deliberate conduct, the municipality
was the ‘moving force’ behind the injury alleged.”
Bryan County, 520 U.S. at 404. The plaintiff, in short,
“must show that the municipal action was taken with
the requisite degree of culpability and must
demonstrate a direct causal link between the
municipal action and the deprivation of federal
rights.” Id.; see also Monell, 436 U.S. at 694
(explaining that only when a municipality’s policy or
custom “inflicts the injury” is the entity responsible
under § 1983).
The most straightforward Monell claims are those
in which a plaintiff alleges that an affirmative
municipal action is itself unconstitutional. See Bryan
County, 520 U.S. at 404-05. In those cases, inferences
of culpability and causation are easy, for they follow
directly from the municipality’s intentional decision to
adopt the unconstitutional policy or custom or to take
particular action. See id. at 405. Consider, for
example, a city with a policy authorizing its employees
to take some unconstitutional act in connection with
traffic stops after midnight. Deliberate conduct is
easily inferred from the intentional adoption of the
offending policy. And if a victim of the
unconstitutional act emerges as a Monell plaintiff,
there will be little doubt that it was the city’s express
instruction—not the employee’s independent choice—
that caused the injury.
Here, however, J.K.J. and M.J.J. do not claim that
Polk County took affirmative action to harm them. To
the contrary, their theory of Monell liability roots itself

App-18
in inaction—in gaps in the County’s sexual abuse
policy and its failure to properly train the jailers in the
face of obvious and known risks to female inmates.
These failures to act, J.K.J. and M.J.J. contend, were
deliberate and together caused their constitutional
injuries. The Supreme Court has recognized that
Monell liability can arise from such decisions because
a “city’s ‘policy of inaction’ in light of notice that its
program will cause constitutional violations ‘is the
functional equivalent of a decision by the city itself to
violate the Constitution.’” Connick v. Thompson, 563
U.S. 61, 61-62 (2011) (quoting City of Canton v. Harris,
489 U.S. 378, 395 (1989) (O’Connor, J., concurring in
part and dissenting in part)); see also Glisson, 849
F.3d at 382 (“[I]n situations that call for procedures,
rules or regulations, the failure to make policy itself
may be actionable.”).
But the path to Monell liability based on inaction
is steeper because, unlike in a case of affirmative
municipal action, a failure to do something could be
inadvertent and the connection between inaction and
a resulting injury is more tenuous. For these reasons,
“[w]here a plaintiff claims that the municipality has
not directly inflicted an injury, but nonetheless has
caused an employee to do so, rigorous standards of
culpability and causation must be applied to ensure
that the municipality is not held liable solely for the
actions of its employee.” Bryan County, 520 U.S. at
405.
Rigorous though these standards may be, they are
not insurmountable. The question before us is
whether the evidence presented to the jury was legally
sufficient to support the verdict against Polk County.

App-19
The law affords great respect to jury verdicts. As a
court of review, our role is limited to policing the
evidentiary threshold necessary as a legal matter to
meet Monell’s demands. In doing so, we do not reweigh
evidence, assess the credibility of any trial witness, or
otherwise attempt to usurp the jury’s role as
factfinder. See Ruiz-Cortez v. City of Chicago, 931 F.3d
592, 601 (7th Cir. 2019) (“In our Rule 50 review, we
give the nonmovant ‘the benefit of every inference’
while refraining from weighing for ourselves the
credibility of evidence and testimony.”). To the
contrary, we must affirm unless there is “no legally
sufficient evidentiary basis for a reasonable jury to
find for the non-moving party.” Woodward v. Corr.
Med. Servs. of Ill., Inc., 368 F.3d 917, 926 (7th Cir.
2004).
Against this standard of review, and ever mindful
of Monell’s exacting liability requirements, we turn to
the evidence J.K.J. and M.J.J. put before the jury here.
B
All agree that Polk County’s written policies
categorically prohibited sexual contact with inmates
and required responses to alleged violations. But
J.K.J. and M.J.J. presented evidence that the policy
contained material gaps. The jury heard expert
testimony from Jeffrey Eiser about the importance of
a policy that does not wait for reports of sexual abuse
to trigger an institutional response, but instead
contains measures both to prevent the wrongdoing in
the first instance and to detect it if it does occur. Eiser
spotlighted for the jury that Polk County’s policy,
although addressing incident response, fell far short
on prevention and detection.

App-20
Eiser then explained that any number of policy
measures could have filled the gaps at little or no cost
to Polk County. Consider the need to detect sexual
abuse. The importance of a safe and confidential
reporting channel—even something as simple as a
lockbox available to inmates—cannot be overstated.
Under the County’s policy, an inmate seeking to report
abuse is left to inform one of 27 employees in a small
jail that she suffered a sexual assault at the hands of
his coworker. Given the perceived comradery among
the male guards and acceptance of sexual harassment
at the jail’s highest levels (inferred perhaps foremost
from the “tier talk”), the jury could have found that
this was not a viable reporting option and indeed
reflected a meaningful policy gap. Put most simply,
the jury could have credited Eiser’s expert testimony
as part of finding that Polk County’s policy deficiency
affirmatively deterred the reporting and detection of
sexual abuse of female inmates.
The policy gaps only widen when the focus turns
to the County’s sexual abuse training. Training is
important because it can educate and sensitize guards
as well as shape and reinforce institutional values,
bringing to life words that otherwise exist only on
paper. The trial evidence showed that the County’s
training on preventing and detecting the sexual
harassment and abuse of inmates was all but
nonexistent. The training consisted almost exclusively
of informing guards of the easy and evident—that the
jail’s policies prohibited sexual contact with inmates.
The only training even addressing the sexual assault
of inmates by guards came in a single session on the
Prison Rape Elimination Act in 2014, well after much
of Darryl Christensen’s abuse of J.K.J. and M.J.J. had

App-21
occurred, and which he did not even attend. And even
then the jury—ever mindful of Captain Nargis’s
dismissive “tizzy email”—could have found that the
County itself hardly took the PREA training seriously.
What was missing stands out. The jury heard no
evidence of the County informing guards of the
inherent vulnerability the confinement setting
presents to female inmates, educating jailers on the
symptoms of an inmate suffering from the trauma of
abuse, requiring officers to report each other’s
misconduct, or taking any time to otherwise instruct
guards on matters of prevention and detection,
whatever form that might have taken.
The trial evidence makes the bottom line plain:
the jury could have found that Polk County’s sexual
abuse prevention program was entirely lacking. The
policy stated nothing but the obvious—do not sexually
abuse inmates. The County then exacerbated the gap
by failing to use training as the means of making the
policy prohibition a reality (or, at the very least,
mitigating risk) within the institution. The jury could
have tallied these gaps as part of finding the
conscious, deliberate municipal inaction upon which to
rest Monell liability.
C
Identifying municipal action—or, as it were,
inaction—is only part of the requisite inquiry under
Monell. The Supreme Court has made plain that a
failure to act amounts to municipal action for Monell
purposes only if the County has notice that its
program will cause constitutional violations. See
Connick, 563 U.S. at 61-62. Demonstrating that notice
is essential to an ultimate finding and requires a

App-22
“known or obvious” risk that constitutional violations
will occur. Bryan County, 520 U.S. at 410.
In many Monell cases notice requires proof of a
prior pattern of similar constitutional violations. See
id. at 62. This case presents no such pattern. The
district court declined to instruct the jury on the
theory because it found insufficient evidence of
previous instances of sexual assault known to the
County. In so concluding, however, the district court
recognized that J.K.J. and M.J.J. had available
another path to show Polk County had the requisite
notice.
The alternative path to Monell liability comes
from a door the Supreme Court opened in City of
Canton v. Harris, 489 U.S. 378 (1989). The Court
observed that there may, as here, be circumstances in
which “the need for more or different training is so
obvious, and the inadequacy so likely to result in the
violation of constitutional rights” that a factfinder
could find deliberate indifference to the need for
training. Id. at 390. “In that event, the failure to
provide proper training may fairly be said to represent
a policy for which the city is responsible, and for which
the city may be held liable if it actually causes injury.”
Id. Put another way, a risk of constitutional violations
can be so high and the need for training so obvious
that the municipality’s failure to act can reflect
deliberate indifference and allow an inference of
institutional culpability, even in the absence of a
similar prior constitutional violation.
The Court did not leave the liability point in any
way abstract. To the contrary, it gave the express
example of “city policymakers [who] know to a moral

App-23
certainty that their police officers will be required to
arrest fleeing felons.” Id. at 390 n.10. “The city,” the
Court continued, “has armed its officers with firearms,
in part to allow them to accomplish the task.” Id. The
Court concluded that under those circumstances, “the
need to train officers in the constitutional limitations
on the use of deadly force can be said to be ‘so obvious,’
that failure to do so could properly be characterized as
‘deliberate indifference’ to constitutional rights.” Id.
(internal citation omitted).
Drawing upon this precise example from City of
Canton, the Court has since reinforced that this
doorway to Monell liability remains ajar. In Bryan
County, the Court confirmed that City of Canton “did
not foreclose the possibility that evidence of a single
violation of federal rights, accompanied by a showing
that a municipality has failed to train its employees to
handle recurring situations presenting an obvious
potential for such a violation, could trigger municipal
liability.” 520 F.3d at 409. The Court explained that
“in a narrow range of circumstances,” deliberate
indifference could be found when the violation of
rights is a “highly predictable consequence” of a failure
to provide officers what they need to confront
“recurring” situations. Id. And even more recently, in
Connick v. Thompson, the Court renewed its prior
observations that City of Canton “sought not to
foreclose the possibility, however rare, that the
unconstitutional consequences of failing to train could
be so patently obvious that a city could be liable under
§ 1983 without proof of a pre-existing pattern of
violations.” 563 U.S. at 64.

App-24
Though the Supreme Court has yet to confront a
case that presents a viable Monell claim based on a
municipality’s failure to act in absence of a pattern,
our court has done so twice. Our en banc decision in
Glisson v. Indiana Department of Corrections relied
upon City of Canton to hold that an institution could
be liable for failing to adopt protocols for the
coordinated and comprehensive treatment of
chronically ill inmates. See 849 F.3d at 382. The
inaction came at a time when the institution “had
notice of the problems posed by a total lack of
coordination,” but then “despite that knowledge, did
nothing for more than seven years to address that
risk.” Id. In reasoning fully applicable here, we
concluded that a jury could find that the prison knew
for certain that its health providers “would be
confronted with patients with chronic illnesses, and
that the need to establish protocols for the coordinated
care of chronic illnesses is obvious,” just like it is
obvious that police officers would encounter situations
where they would need protocols on the use of
excessive force. Id.
And in Woodward v. Correctional Medical
Services of Illinois, Inc., we upheld a jury’s Monell
verdict against a jail’s healthcare provider for an
inmate’s suicide. See 368 F.3d at 929. The training on
suicide prevention—a requirement under the Eighth
Amendment—was so inadequate and so widely
ignored that the contractor was on notice that a
constitutional violation was a “highly predictable
consequence of [its] failure to act.” Id. at 929 (citing
Bryan County, 520 U.S. at 409). The trial evidence
allowed the jury to infer that policymakers “noticed
what was going on and by failing to do anything must

App-25
have encouraged or at least condoned” the misconduct
that caused the inmate’s death. Id. at 927. It did not
matter that no one had been hurt before, as the law
allowed no “one free suicide” pass. Id. at 929.
These teachings from the Supreme Court and our
court make plain that Monell liability based on a
failure to act, at its core, follows from a showing of
constitutional violations caused by a municipality’s
deliberate indifference to the risk of such violations.
Sometimes the notice will come from a pattern of past
similar violations; other times it will come from
evidence of a risk so obvious that it compels municipal
action. But at all times and in all Monell cases based
on this theory, the Supreme Court has directed the
focus on the presence and proof of “a known or
obvious” risk.
D
The jury had ample evidence to find that Polk
County’s policy failures—both the prevention and
detection gaps in its written policies and the absence
of training—occurred in the face of an obvious and
known risk that its male guards would sexually
assault female inmates.
Start with the County’s affirmative obligation to
protect its inmates: “[W]hen the State takes a person
into its custody and holds [her] there against [her]
will, the Constitution imposes upon it a corresponding
duty to assume some responsibility for [her] safety and
general well-being.” DeShaney v. Winnebago County
Depʹt of Soc. Servs., 489 U.S. 189, 199-200 (1989). Just
as the healthcare contractor in Woodward shouldered
a constitutional duty to protect inmates from suicide,
Polk County bore the constitutional responsibility to

App-26
protect its inmates from sexual assault. This
requirement comes from the Eighth Amendment,
because “[b]eing violently assaulted in prison is simply
not part of the penalty that criminal offenders pay for
their offenses against society.” Farmer, 511 U.S. at
834.
Now consider the delicate setting for J.K.J. and
M.J.J. They were confined in circumstances where
they depended on male guards for nearly everything
in their lives—their safety as well as their access to
food, medical care, recreation, and even contact with
family members. With this authority and control for
the guards came power and, in turn, access and
opportunity to abuse it. It is difficult to conceive of any
setting where the power dynamic could be more
imbalanced than that between a male guard and a
female inmate. The jury knew that from common
sense—the reality was as obvious as obvious could
be—and they heard the point reinforced and
underscored through the testimony of J.K.J., M.J.J.,
and their expert, Jeffrey Eiser. As J.K.J. aptly
explained to the jury, “there’s a male figure standing
in front of me in a uniform with a badge that has
authority to do whatever he wants to me.” The
confinement setting is a tinderbox for sexual abuse.
But there was more. J.K.J. and M.J.J. presented
evidence that the County was aware of sexual
misconduct happening within its jail, rendering the
risk to female inmates far from hypothetical. The jury
learned that Captain Nargis knew of sexual comments
male guards made about female inmates. This was
especially consequential because Nargis was
responsible for creating and implementing the jail’s

App-27
policies and standards, and his actions therefore could
be attributed to the County for the purpose of Monell
liability. See Gernetzke v. Kenosha Unified Sch. Dist.
No. 1, 274 F.3d 464, 468 (7th Cir. 2001) (“The question
is whether the promulgator, or the actor, as the case
may be—in other words, the decisionmaker—was at
the apex of authority for the action in question.”); see
also Pembaur v. City of Cincinnati, 475 U.S. 469, 481
(1986) (employing similar reasoning). Captain Nargis
even admitted to himself participating in “tier talk,”
jailhouse chatter that the jury easily could have found
amounted to sexually inappropriate banter—in a
word, harassment. The tier talk bespoke volumes
about the jail’s culture—the exact point the district
court underscored as part of rejecting Polk County’s
Rule 50 motion challenging the jury’s verdict. A
reasonable jury could have viewed the jail’s
denigrating culture as confirming the undeniable risk
that a guard would grow too comfortable, lose his
better angels, and step over the clear line marked in
Polk County’s written policies.
If the County had looked the other way until this
point, the notice became undeniable when Captain
Nargis learned of Allen Jorgenson’s sexual misconduct
against inmate N.S. Recall the timing. Nargis learned
of Jorgenson’s reported wrongdoing no later than
January 2012. It was then that N.S. wrote her letter
explaining the predatory and escalating nature of
Jorgenson’s sexual pursuit of her within the jail.
Recall, too, the details: N.S. informed Nargis that
Jorgenson’s conduct began with watching her (and
other female inmates) shower, grew to requests to
expose her body for him, and in time intensified to

App-28
forcibly touching her in a sexual manner—all the
while ordering her to “keep quiet.”
A reasonable jury could have viewed the County’s
learning of Jorgenson’s sexual exploitation of N.S. as
sounding an institutional alarm, making it “highly
predictable,” if not certain, that a male guard would
sexually assault a female inmate if the County did not
act. Bryan County, 520 U.S. at 409. By that point the
risk was not only obvious, but blatantly so. To be
certain, the accusations of Jorgenson’s reprehensible
conduct fell short of rape. But it would be naive in the
extreme to dismiss the misconduct as no more than
boorish behavior or, more to it, providing no
incremental notice of an obvious risk.
The jury was not compelled to see Jorgenson’s
conduct as jailhouse horseplay, as guards somehow
just being guards, or anything of the sort. The
evidence allowed the opposite conclusion: the jury was
entitled to conclude that, separate and apart from
whatever discipline should befall Jorgenson, the
County had a plain example of predatory sexual
behavior staring it in the face. It took no imagination
for the jury to see parallels between Jorgenson’s
escalating actions, cut short as they were, and
Christensen’s early abuse of J.K.J. and M.J.J. See
Cash v. County of Erie, 654 F.3d 324, 337 (2d Cir.
2011) (upholding a Monell jury verdict because
“knowledge that an established practice has proved
insufficient to deter lesser [sexual] misconduct can be
found to serve [as] notice that the practice is also
insufficient to deter more egregious misconduct”).
That Jorgenson’s grooming of N.S. did not end with
rape is no liability shield; it was good fortune. See

App-29
Woodward, 368 F.3d at 929 (“That no one in the past
committed suicide simply shows that [the jail’s
healthcare contractor] was fortunate, not that it
wasn’t deliberately indifferent.”).
And with red lights flashing, Polk County chose
the one unavailable option—doing nothing. It did not
change its sexual abuse policy, institute a training,
inquire of female inmates, or even call a staff meeting.
With the writing on the wall, Polk County deliberately
chose to stand still, or at least a reasonable jury could
have so concluded.
Having taken no action despite the obvious and
known risk of sexual assaults in its jail, Polk County
could not claim a lack of notice, much less surprise,
upon learning that Christensen sexually assaulted
J.K.J. and M.J.J. The County’s written policies were
lacking and its training on the topic was barely
existent. Even if the County somehow harbored a
different perspective, that view became untenable
upon learning of Jorgenson’s misconduct. The jury
could have viewed the allegations of Jorgenson’s
wrongdoing as exposing as false any belief the County
may have had that its barebones written policy and
training were enough to protect its female inmates
from sexual abuse. The County’s inaction following
knowledge that the existing program was not
working—Jorgenson’s sexual misconduct underscored
that reality—was sufficient to demonstrate deliberate
indifference. Or, as the Supreme Court put the same
point in City of Canton, the necessity to act, whether
by different training or new preventative measures,
was “so obvious” and “the [existing] inadequacy so
likely to result in a violation of constitutional rights”

App-30
that a deliberate choice to stay the course could be
seen as a policy for which Polk County bears legal
responsibility. 489 U.S. at 390. We likewise reasoned
in Glisson that “the key is whether there is a conscious
decision not to take action” and the record allowed a
reasonable jury to so find because “the existence of the
INDOC Guidelines [addressing the coordination of
medical care], with which Corizon [as the prison’s
healthcare provider] was admittedly familiar, is
evidence that could persuade a trier of fact that
Corizon consciously chose the approach that it took”—
“not to adopt the recommended polices—not for
Glisson, not for anyone.” 849 F.3d at 380, 381.
All of this is doubly true when coupled with other
evidence of Polk County’s deliberate indifference to
sexual abuse. Remember that the County’s
investigation of Jorgenson ended with the considered
conclusion that a reprimand was adequate discipline.
But even the reprimand came with jail officials
assuring Jorgenson that the censure was “not a big
deal.” The jury could have viewed this slap on the
wrist as confirming the jail’s broken culture, as
explaining why not only the “tier talk” was allowed to
go on—with Captain Nargis himself participating in it
as a way of fitting in and earning the confidence of the
guards under his supervision—but also why Nargis’s
“tizzy email” evinced such a dismissive attitude
toward sexual abuse training. See Cash, 654 F.3d at
338 (holding the jury could infer deliberate
indifference to the risk of inmate sexual assault
because the jail’s issuance of a one-page memorandum
was a “token response” to a prior instance of lesser
sexual misconduct).

App-31
Viewing this evidence all together, the jury could
have found that Polk County did little to reinforce the
dignity and respect owed female (and indeed all)
inmates and instead seemed to enable a culture that
condoned the sexual objectification of the women in its
custody. Through this lens, Christensen’s repeated
sexual assaults of J.K.J. and M.J.J. were not the result
of a “single instance of flawed conduct” but rather
“based on repeated failures to ensure [the inmates’]
safety … as well as a culture that permitted and
condoned violations of policies that were designed to
protect inmates.” Woodward, 368 F.3d at 929. Risk
that started as obvious (from the confinement setting
and power dynamic between male guards and female
inmates) was fully on display (following the Jorgenson
incident) within an institution that scoffed at PREA,
denigrated female inmates, and devoted not a word of
its policies or a minute of any training session to
concrete measures to prevent, detect, and respond to
sexual assault. The jury stood on solid evidentiary
ground seeing the County’s dormancy as more than
oversight, but instead as deliberate inaction.
We recognize that policies can always be more
robust, and training can always be more thorough.
PREA is not a constitutional standard, and jails are
not required to adopt it. Our federal structure leaves
the choices to state and local authorities.
Our conclusion is more limited: the risks to female
inmates in the confinement setting are obvious—
indeed, PREA owes its very existence to that reality—
and N.S.’s report of Jorgenson’s misconduct reinforced
for Polk County that the risks were real and acute in
the jail. Faced with that notice, the County had a legal

App-32
obligation to act—to take reasonable steps to reduce
the obvious and known risks of assaults on inmates.
See Farmer, 511 U.S. at 844-45; Ortiz v. Jordan, 562
U.S. 180, 190 (2011) (reinforcing Farmer’s
requirement of a reasonable response). Just as a
municipality cannot issue firearms to new police
academy graduates, wish them Godspeed on the
streets, and hope the new officers exercise sound
judgment when deciding whether circumstances
warrant the use of lethal force—the precise example
the Supreme Court provided in City of Canton—Polk
County could not, knowing all that it did about the
risk within its jailhouse walls, dispatch male guards
to stand watch over its female inmates equipped with
nothing more than a piece of paper with a flat
instruction not to abuse those under their care. The
jury had enough to conclude that Polk County
deliberately chose a path of inaction when that option
was off the table.
E
Much of the same evidence proving Polk County
deliberately indifferent to the constitutional
consequences of its inaction likewise illustrates that
its indifference was the moving force behind J.K.J.
and M.J.J.’s injuries. “The high degree of
predictability” that constitutes notice, the Supreme
Court has emphasized, “may also support an inference
of causation—that the municipality’s indifference led
directly to the very consequence that was so
predictable.” Bryan County, 520 U.S. at 409-10.
Having established that the jury could conclude that
the risk of constitutional injury—here, the sexual
assaults—was obvious, it took but a small inferential

App-33
step for the jury to find causation. And inferences were
required, for finding causation is not a mechanical
exercise like working a math problem and getting an
answer, but instead requires jurors to view evidence
in its totality, draw on their life experiences and
common sense, and then reach reasonable conclusions
about the effects of particular action and inaction.
The circumstantial evidence paved multiple roads
for the jury to travel to find that Polk County’s
inaction caused J.K.J. and M.J.J.’s constitutional
injuries. The assaults did not end until Christensen
was reported, giving rise to an eminently reasonable
inference that if the County had put in place some of
Eiser’s proposed policies and training to prevent but
especially detect sexual abuse, Christensen’s conduct
would have been exposed sooner, perhaps by one of his
fellow guards. Or it may have been reported by
another inmate or even by the victims themselves.
J.K.J. and M.J.J. testified that they did not feel
comfortable reporting the abuse while they were still
within the jail. N.S. similarly waited before revealing
the full extent of Jorgenson’s conduct because she
worried he would make it “hell” for her there. If Polk
County had different policies or training, its culture
would have changed, including its dismissive and
flippant attitude toward sexual assault, and these
women or someone else may have felt able to report
the abuse at some point during the three-year period
of Christensen’s conduct.
Because any of these inferences from the evidence
would have been reasonable, the jury was entitled to
conclude that if Polk County had taken action in
response to the glaring risk that its female inmates’

App-34
health and safety were in danger, J.K.J. and M.J.J.’s
assaults would have stopped sooner, or never
happened at all.
The County presses a different view. It sees a
guard’s sexual abuse of an inmate as so patently
wrong and so plainly prohibited by Wisconsin law and
the jail’s policy that no amount of training and no
enhancements to the institution’s code of conduct
could have made any difference. And this is especially
so, the County urges, given the lengths to which
Christensen went to hide his conduct. Put most
bluntly, no amount of training, no policy, no
monitoring—nothing, literally nothing—could have
prevented or detected what he did to J.K.J. and M.J.J.,
or so the County would have it.
The County’s narrow fixation on Christensen
exposes its error. Monell liability did not hinge on
predictions about whether Christensen would have
brought himself to stop abusing J.K.J. and M.J.J.
Maybe more robust policies could have fostered a zerotolerance culture in which Christensen would not have
felt free to openly harass female inmates, thereby
opening the door to his escalating abuse. Or they could
have caused Christensen to curb his conduct because
of a greater risk of detection—whether from closer
monitoring, more frequent guard rotations, or a policy
preventing male officers from being alone with female
inmates. But maybe not.
The point need not detain us because the evidence
allowed the jury to conclude that the County’s acting
to institute more robust policies—foremost addressing
prevention and detection—and then training on those
policies would have resulted in another correctional

App-35
officer, an inmate, or even J.K.J. and M.J.J. taking
some step to stop Christensen’s sexual assaults.
The evidence did not require the jury to accept as
inevitable
that
Christensen’s
conduct
was
unpreventable, undetectable, and incapable of giving
rise to Monell liability. Admittedly, “[p]redicting how
a hypothetically well-trained officer would have acted
under the circumstances may not be an easy task for
the factfinder.” City of Canton, 489 U.S. at 391. Nor
was the jury compelled to conclude that the sexual
abuse suffered by J.K.J. and M.J.J. had one and only
one cause. See Whitlock v. Brueggemann, 682 F.3d
567, 583 (7th Cir. 2012) (“[T]here is no rule demanding
that every case have only one proximate cause.”). The
law allowed the jury to consider the evidence in its
entirety, use its common sense, and draw inferences
as part of deciding for itself. Indeed, the Supreme
Court envisioned precisely that approach in City of
Canton, observing that the causation inquiry often
will be complicated but emphasizing that “judge and
jury, doing their respective jobs, will be adequate to
the task.” 489 U.S. at 391.
***
Darryl Christensen’s long-term abuse of J.K.J.
and M.J.J. more than justified the jury’s verdict
against him. And the jury was furnished with
sufficient evidence to hold Polk County liable not on
the basis of Christensen’s horrific acts but rather the
County’s own deliberate choice to stand idly by while
the female inmates under its care were exposed to an
unmistakable risk that they would be sexually
assaulted—a choice that was the moving force behind

App-36
the harm inflicted on J.K.J. and M.J.J. The jury so
concluded, and we AFFIRM.

App-37
HAMILTON, Circuit Judge, concurring. I join
Judge Scudder’s opinion for the court. In light of
comments in the dissenting opinions, it is worth
emphasizing that the Monell claims against the
county are based on much more than whether guards
knew right from wrong or knew that it was a crime to
have sex with inmates. The Monell claims are also
based on the county’s failure to monitor its guards and
its failure to provide effective channels for complaints
so as to discourage such abuse.
To illustrate the point, consider an analogy
involving only greed, rather than lust and a guard’s
horrific abuse of power over inmates. Any bank will
train its tellers that they should not steal and that
theft is a crime. All tellers know that whether they
receive the training or not. Suppose, though, that a
bank’s managers fail to conduct regular audits of
tellers’ cash drawers. Most tellers are honest despite
the lack of oversight, but one gives in to temptation.
Managers later discover that the one teller has been
stealing money for years. The risk of embezzlement,
even by tellers who know the law and the rules, is
obvious. So is the need for audits. The risk and need
are so obvious that the bank’s stockholders could
easily find that its managers (i.e., its policymakers)
were not merely negligent but deliberately indifferent
(i.e., reckless) toward this obvious and known risk,
even if only one teller gave in to the temptation. The
same logic applies here to Christensen, who
repeatedly gave in to the temptation to abuse his
power over inmates.

App-38
EASTERBROOK, Circuit Judge, dissenting in part. I
agree with the majority that the verdict against
Christensen is sound and with Judge Brennan that
the verdict against Polk County is not. Because this
appeal has occasioned so much ink, and my
assessment differs somewhat from that of my
colleagues, I have concluded that it would be helpful
to state briefly why I find the claim against the County
lacking.
The majority recognizes that the County’s stated
policy—no sexual contact between guards and
inmates—satisfies the Constitution. It faults the
County for failing to train guards about that policy.
Yet the Constitution does not require training. See
Connick v. Thompson, 563 U.S. 51 (2011). Nor does the
Constitution require every municipality to implement
current understandings of best practices, such as the
Prison Rape Elimination Act of 2003, 34 U.S.C.
§§ 30301-09 (PREA). The duty is to avoid
unconstitutional policies. We are supposed to assess
the validity of the policies—that is to say, the
policymakers’ decisions—not how well subordinates
implement those policies.
Connick is the only decision in which the Justices
assessed on the merits a contention that a unit of
government violated the Constitution by inadequate
training that failed to avert one particular bad
outcome. It rejected the claim. The reasons the Court
gave are true of the Jail as well. Christensen is the one
and only rapist among the guards; no prior, similar
incidents notified the County about looming problems.
And as soon as supervisors learned of Christensen’s
misconduct, the County ended his employment and

App-39
put him in prison himself. See slip op. 4. This could
well have avoided liability for an employer under Title
VII of the Civil Rights Act of 1964, a statute that
unlike 42 U.S.C. §1983 allows vicarious liability. See
Burlington Industries, Inc. v. Ellerth, 524 U.S. 742
(1998); Faragher v. Boca Raton, 524 U.S. 775 (1998).
Liability under Monell v. New York City Department
of Social Services, 436 U.S. 658 (1978), is supposed to
be harder and depend on the validity of the policy.
One major reason why Connick (and every other
decision by the Supreme Court in which failure to
train was advanced as a theory of liability) found no
municipal liability is that the Court sees knowledge as
the proper goal of training. Canton v. Harris, 489 U.S.
378, 390 n.10 (1989), observed:
[C]ity policymakers know to a moral certainty
that their police officers will be required to
arrest fleeing felons. The city has armed its
officers with firearms, in part to allow them
to accomplish this task. Thus, the need to
train officers in the constitutional limitations
on the use of deadly force, see Tennessee v.
Garner, 471 U.S. 1 (1985), can be said to be
“so obvious,” that failure to do so could
properly be characterized as “deliberate
indifference” to constitutional rights.
In other words, a policy such as “comply with the
Fourth Amendment” is useless to non-lawyers without
information about what compliance entails. Is it
lawful to shoot a fleeing felon? If the answer depends
on ongoing danger, how much danger justifies deadly
force? A city that stops with “obey the Constitution”
lacks a genuine policy.

App-40
Contrast that with Polk County. One statewide
rule, reflected in a criminal law, forbids sexual
intercourse or contact between guards and prisoners.
Wis. Stat. §940.225(2)(h). The Jail reinforces this by
forbidding “an intimate social or physical relationship
with a prisoner”. Another of the Jail’s policies says:
under no circumstances will any inmate be
the object of verbal, physical, emotional,
psychological, or sexual harassment by
facility staff. Any officer engaged in such
actions is subject to disciplinary charges
and/or termination.
I can see a need for explication about “emotional” or
“psychological” harassment, but anyone can
understand the rule against intimate physical
relations between guards and inmates. The Jail made
sure that every guard knew about this rule. What
training is required to get guards to grasp it? The
problem is not a want of comprehension (as in Canton’s
hypothetical) but a want of compliance. Yet
subordinate employees’ failure to comply with a valid
policy is not a ground of liability against a
municipality.
The difference between comprehension and
compliance is vital to understanding when training is
required. Plaintiffs do not argue that training is
essential to guards’ comprehension. It ought to follow
that the County is not liable.
I could imagine the possibility of liability—under
a theory that a policy is irrelevant if it is nothing but
a paper tiger—when evidence shows that training
makes all the difference between a policy that works
and a policy that does not. But plaintiffs have not

App-41
made such an argument. Consider two possibilities
that might have been relevant if the goal were to
expand liability beyond anything the Supreme Court
has yet recognized.
First, was Polk County Jail rife with sexual
crimes committed by guards? Plaintiffs concede that
the answer is no. They acknowledge that there had not
been an instance of improper sexual contact before
Christensen. Plaintiffs also acknowledge that the Polk
County Jail was no worse on related subjects than
other institutions, some of which used the training
programs that the Jail did not. Plaintiffs’ expert
testified that the Jail had a “good” record overall. My
colleagues in the majority refer to “the jail’s broken
culture” (slip op. 28) but do not compare the Jail with
the results achieved by other institutions that require
guards to spend more time in training. If training does
not improve outcomes, its absence cannot spoil an
otherwise valid policy.
Second, does the social science literature, or any
expert evidence in this record, show that more
training achieves better compliance with simple rules
such as “no intimate contact between guards and
inmates”? The plaintiffs did not offer any such
evidence, their expert conceded that there is none, and
my search through scholarly sources did not turn any
up. Unless evidence shows that more training
markedly decreases the prevalence of sexual
misconduct by guards (or by employees at private
firms), liability based on the lack of such training is
just vicarious liability by another name.
Law schools must offer courses in legal ethics,
because education can be vital to understand complex

App-42
doctrines such as the attorney-client privilege and the
rules against conflict of interest. But law schools do
not try to “train” law students not to steal from clients’
trust funds or rape people who come to them in search
of advice. Implementing rules against theft and rape
does not depend on imparting information to would-be
lawyers, so training is not how to achieve compliance.
Threats of criminal prosecution or losing one’s
livelihood offer better prospects of deterring malicious
conduct. Polk County threatened guards with both
kinds of punishment, and it carried through against
Christensen. Those steps show vividly that the Jail
does not tolerate sexual abuse of prisoners—that the
policy is not just a cynical attempt to deflect liability.
I do not see anything in the Constitution that prevents
a county from electing deterrence and incapacitation
as the means of enforcing its policies.
A belief that people can be trained (or perhaps
conditioned) not to commit crimes underlies the
rehabilitation model of criminal punishment. But
many years of scholarly study failed to produce
support for that model, which has been abandoned.
Today punishment for the purpose of rehabilitation is
forbidden, at least in the national courts. See 18
U.S.C. §3582(a); Tapia v. United States, 564 U.S. 319
(2011). Faith in the power of training to reduce crime
is no more appropriate when applied to suits under
§1983.
In sum, plaintiffs have not tried to show that the
rule against guards’ intimate contact with prisoners is
hard to understand (in general, or for the Jail’s guards
in particular). That leaves nothing for a jury to
consider. The suit fails for legal reasons.

App-43
Evidence that earlier violations of the Jail’s policy
were tolerated by slaps on the wrist would be better
proof that the “real policy” differed from the written
one, but only if the toleration were attributable to the
County rather than to subordinates. If policymakers
create a valid rule that is sabotaged by persons lower
in the hierarchy, liability is supposed to fall on those
persons rather than the governmental entity. That is
how Monell differs from respondeat superior.
At all events, in a case based on a theory of
singleincident liability, which is how my colleagues
treat this suit, evidence about laxity concerning lessserious matters is irrelevant. Consider Connick once
again: The Justices recognized that the prosecutor’s
office in Orleans Parish had violated the Brady
doctrine repeatedly but held that this did not show a
toleration of wrongdoing. If that was not enough in
Connick, the Jail’s failure to control lewd talk or do
more in response to one guard’s sexual harassment is
categorically insufficient to make the County liable for
a different guard’s rapes.
The question under Monell is not whether the
County could have done better at inducing compliance
with its rules. With the benefit of hindsight, that’s
always possible. The question is whether the County
had a constitutional policy. If Monell is to be
overruled, and vicarious liability established, that
should be done forthrightly (and by the Supreme
Court), rather than via the roundabout route the
majority has devised.

App-44
BRENNAN, Circuit Judge, with whom BAUER
and SYKES, Circuit Judges, join, dissenting in part.
The majority opinion holds a municipal employer
liable under § 1983 for a failure to train and a failure
to supplement policies because its employee did what
those policies and training expressly forbade him to
do.
Liability is based on the single-incident theory
hypothesized in City of Canton, Ohio v. Harris, 489
U.S. 378, 390 n.10 (1989). The “rare” and “narrow
circumstances” under which that theory applies do not
fit here. Connick v. Thompson, 563 U.S. 51, 63, 64
(2011). Nor does this case meet the stringent fault and
causation requirements set by the Supreme Court to
prove § 1983 liability.
The majority opinion upholds a jury verdict
finding a county liable for a jail guard’s repeated rapes
of two inmates. It does so without any evidence that
Polk County actually and directly caused the
plaintiffs’ terrible injuries, and no affirmative link
between the County’s policies and the guard’s crimes.
It is undisputed that these horrible crimes were
perpetrated without the County’s knowledge. It is also
undisputed that no pattern of similar violations put
the County on notice of a need for specific training that
would have prevented these sexual assaults. Yet the
majority opinion concludes the same evidence that
failed to show notice under pattern liability shows
notice under single incident liability, as well as
causation.
This court’s decision stands alone, unaided by
precedent. The Supreme Court has never ruled that a
Monell claim based on a municipality’s failure to act is

App-45
viable in the absence of a pattern. No federal appellate
court has extended the single-incident exception to the
sexual assault context. Nor has a federal appellate
court applied that exception when the employee’s
compliance with the municipality’s policy and training
would have prevented the injuries. And no federal
appellate court has held that specialized training is
required for an employee to know that rape is wrong.
Because the legally deficient constitutional claim
against the County never should have gone to the jury,
I respectfully dissent in part. 1
I.

Background

The facts as I understand them are described
below, recounting the evidence in a light most
favorable to the verdict against the County, Martin v.
Marinez, 934 F.3d 594, 596 (7th Cir. 2019), and noting
disagreement with how some facts are set forth in the
majority opinion.
M.J.J. and J.K.J. were female inmates at Polk
County Jail at various times between 2011 and 2014,
and guard Darryl Christensen admits he covertly and
repeatedly sexually assaulted them. Plaintiffs
suffered serious injustices and traumatic injuries
because of Christensen. The question is whether Polk
County bears legal responsibility for Christensen’s
actions.

1 The majority opinion is correct that Christensen’s appeal
fails, and this dissent is limited to the question of the County’s
liability.

App-46
A. Trial Evidence
Plaintiffs made four principal allegations against
the County at trial: (1) the jail’s sexual assault policies
and training were inadequate; (2) the jail tolerated
sexually offensive comments by guards; (3) a former
guard’s alleged misconduct shows the jail’s sexual
assault policy was deficient; and (4) the jail
underutilized recommendations under the Prison
Rape Elimination Act, 34 U.S.C. §§ 30301-09. After
considering the evidence in support of these
allegations, the jury reached a verdict against the
County.
1.

Policies and training

The jury considered several County policies
prohibiting sexual contact between guards and
inmates. Two stand out. Policy I-100 forbids any
mistreatment or harassment of inmates, explains
inmates’ rights, and instructs staff that it is never
acceptable for “any inmate [to] be the object of verbal,
physical, emotional, psychological, or sexual
harassment by facility staff.” The policy continues,
“[a]ny officer engaged in such actions is subject to
disciplinary charges and/or termination.” Similarly,
policy C-202 prohibits any “intimate social or physical
relationship with a prisoner.” That policy also informs
jail staff that sexual contact with any inmate is a
criminal offense under Wisconsin law and any officer
that suspects such conduct has a duty to report it. See
Wis. Stat. § 940.225(2)(h) (categorizing sexual contact
and sexual intercourse by a correctional staff member
with an inmate as a Class C felony).

App-47
In language consistent with these policies,
inmates are provided a handbook upon arrival at the
jail that says:
Every inmate has the right to be safe from
sexual abuse and harassment. No one has the
right to pressure you to engage in sexual acts.
If you are being pressured threatened, or
extorted for sex, you should report this to staff
immediately.
Plaintiffs’ opinion witness on prison training
standards, Jeffrey Eiser, testified that the jail’s
policies prohibited sexual contact between inmates
and guards. Eiser also corroborated that the County
trained Christensen that sexual contact with inmates
was a felony and against jail policy. Christensen said
the same. At trial he acknowledged the jail trained
him that sexual contact with inmates is against jail
policies and a felony. Specifically, Christensen
testified:
He knew his assaults violated jail policy;
He was trained his assaults were a crime;
He knew he was putting plaintiffs at risk;
He never forgot that sex with inmates was a
crime; and
• He did not require more training to know his
assaults were a crime.
The jail’s onboarding and continuing education
programs also instruct employees that sexual contact
with prisoners is a crime and never permitted. The
Wisconsin Department of Corrections annually
approved these programs, requiring: (1) eight to ten
weeks of “field training,” during which a new
corrections officer shadows an experienced officer to
•
•
•
•

App-48
learn jail policies and procedures; (2) completion of a
160-hour jail training program to become a certified
corrections officer; (3) 24 hours of continuing
education each year to be recertified; and (4) daily
training, which includes specific training on the jail’s
prohibition against fraternizing with inmates.
The majority opinion expresses concern that “the
trial record … contained no evidence showing that …
anyone from the County dedicated any portion of any
training session to reviewing the jail’s written
policies.” Majority op. at p. 9. But Sergeant Steven
Schaefer of the Polk County’s Sheriff’s department,
who worked at the jail from 2002 until 2015, testified
that “[o]ne of the methods of training within [the] jail
was to have jail staff review policies on a routine
basis.” “[T]raining on policies related to improper
sexual relations or improper relationships with
inmates,” Schaefer continued, were part of that
“routine training,” including policies I-100 and C-202.
Despite Schaefer’s testimony to the contrary,
plaintiffs’ counsel told the jury during closing
argument: “You heard Sergeant Schaefer say, ‘We
never trained on it. We never trained on it. We never
trained on it.’” Plaintiffs’ counsel continued that
misrepresentation in their appeal brief which
declares: “Sergeant Steven Schaefer also testified to
never receiving any training regarding sexual
assault”; and Schaefer “agreed that [he] received no
training on sexual assault at any time.” Appellees’ Br.
at 13.
In addition to the training above, Schaefer
testified “[correctional officers] were all required to
attend” countywide training on sexual harassment,

App-49
and he provided the training to new employees from
time to time. This training, according to Schaefer,
instructed guards on the jail’s numerous prohibitions
on conduct between staff and inmates, including
improper comments, becoming too close or too
familiar, sharing personal information, sexual
relationships, and sexual assaults. Schaefer agreed
that improper relationships between inmates and
guards was “something that the jail as a whole took
very seriously.” Consistent with that concern,
Schaefer testified that “Christensen had dishonored
and disgraced everything the sheriff’s department was
about” and that Christensen’s behavior was “a
betrayal of the [jail’s] ethical standards.”
The majority opinion describes the County’s
training as “vague cautions” and “nearly nonexistent.”
Majority op. at p. 10. It states the jury heard evidence
about jailers’ training on maintaining distance from
inmates, but “no testimony to suggest that training
touched the topic of sexual assault” and that Schaefer
“expressly admitted that much.” Id. It also states that
Schaefer “denied any memory of being told that it was
improper for jail officers to have sexual relationships
with inmates.” Id.
Schaefer testified differently than that. He stated
when he trained new jail officers, he trained them not
to engage in too familiar relationships with inmates,
and that “too familiar” would include an officer having
sex with an inmate. He also agreed the jail’s training
included training on policies about “improper sexual
relations or improper relationships with inmates.”
Schaefer also attested he received training on Polk
County Jail’s policies including C-202 (fraternization

App-50
with inmates) and specifically those provisions
prohibiting physical relationships with prisoners.
2.

Inappropriate speech

Plaintiffs alleged that jail staff routinely made
sexually inappropriate comments about female
inmates. They pointed to Captain Scott Nargis, who
oversaw daily operations of the jail. During Nargis’s
adverse examination at trial, plaintiffs’ counsel asked
if he ever “engaged in tier talk which is not necessarily
flattering talk amongst co-workers,” and Nargis
responded “yes.” Nargis also agreed that he
participated in tier talk “on occasion” to establish trust
among subordinate officers. When Nargis admitted to
“tier talk,” he did so within plaintiffs’ definition (“not
necessarily flattering talk”). Plaintiffs did not present
evidence that tier talk connoted “sexual talk,” that
Nargis’s “tier talk” was sexually explicit, or that
Nargis made comments sexual in nature with, about,
or around inmates or guards. The only reference at
trial to “tier talk” occurred during plaintiffs’ crossexamination of Nargis. 2
The majority opinion accepts plaintiffs’ new,
sexuallycharged definition of “tier talk.” Majority op.
at p. 19 (finding that “tier talk” implied “acceptance of
sexual harassment at the jail’s highest levels”). 3 While
Plaintiffs’ counsel in their appeal brief were less than candid
with this court when they wrote: “Captain Nargis routinely
engaged in sexually explicit ‘tier talk.’” Appellees’ Br. at 14.
2

3 The district court’s order on the County’s Rule 50 motion also
assumes “tier talk” had a sexual implication despite the lack of
any trial evidence or definition that “tier talk” included a sexual
component. See Opinion and Order at 8-9, J.K.J. v. Polk Cty., No.
15-CV-428 (W.D. Wis. Feb. 5, 2018), ECF No. 279.

App-51
this court views the facts in the light most favorable to
the jury’s verdict, it need not draw unreasonable
inferences, see Tindle v. Pulte Home Corp., 607 F.3d
494, 496 (7th Cir. 2010), or define terms differently
than they were used at trial.
The evidence at trial of sexually inappropriate
remarks by jail staff was as follows: (1) J.K.J. testified
two officers overheard Christensen making flirtatious
comments to inmates; (2) Christensen testified he
overheard three guards make sexual comments to
inmates; and (3) Nargis testified that over a twelveyear period Christensen made one sexually
inappropriate comment and “it could have happened”
that Christensen made another.
The specifics of these comments are as follows:
The flirtatious comments overheard by J.K.J. and
Christensen were unreported, unspecific, and
undated. Neither J.K.J. nor Christensen offered
details on the alleged comments or the timeframe in
which they occurred, and there was no evidence the
County had notice of these comments. Nargis testified
that during Christensen’s twelve-year employment,
he did not recall but “it could have happened” that
Christensen commented on a female’s “rear end.”
Nargis also recalled being told that Christensen once
remarked about an inmate’s breasts. The majority
opinion extrapolates from these two instances when it
states: “Captain Nargis confirmed hearing that
Christensen had made inappropriate sexual
comments about women in general.” Majority op. at
p. 7.

App-52
3.

Investigation of former guard

No one disputes that Christensen’s assaults were
unprecedented and hidden from jail officials. Apart
from Christensen, the jail’s history contains only one
other allegation of sexual contact between a jail guard
and an inmate: another inmate saw guard Allen
Jorgeson put his arm around inmate N.S.’s waist and
“pat her on the butt.” This occurred in 2012, two years
before Christensen’s assaults were discovered. 4
Schaefer reported these allegations to Nargis, who in
turn questioned Jorgenson and N.S. individually.
Each denied any improper relationship or contact.
Despite these denials, Nargis requested the assistance
of Chief Deputy Sheriff Steven Moe to further
investigate Jorgenson.
The findings of that investigation revealed that
another inmate believed Jorgenson and N.S. had an
“inappropriate relationship” but “no physical
relationship,” and that Jorgenson allegedly misused a
jail camera to focus on female inmates longer than
necessary. Nargis and Moe did not limit their
investigation to internal inquiries, reaching out to
former inmates as part of their review. Because of
inconsistent witness accounts, including N.S.’s denial,
Nargis and Moe could not confirm that Jorgenson
engaged in any sexual contact with N.S. They did
conclude that Jorgenson’s affiliation with N.S.
violated jail policy. As a result, Jorgenson was issued
a written reprimand. Up until this point, N.S.
continued to deny Jorgenson acted improperly.
4 Christensen’s assaults began in 2011, and the County first
learned of them on October 29, 2014.

App-53
Days after Jorgenson’s reprimand, N.S. recanted
her denials in a letter to Nargis. N.S.’s letter stated
that Jorgenson made sexually harassing gestures and
indecent remarks, and said Jorgenson put his arm
around N.S.’s waist and touched her ”back and butt.”
As a result of this letter Nargis and Moe reopened the
investigation “to take a whole fresh look at the
situation.” After this second review, Nargis and Moe
again could not confirm N.S.’s allegations and decided
the reprimand of Jorgenson remained the proper level
of discipline. At trial, no evidence was submitted that
Nargis or Moe erred in the Jorgenson investigation or
performed their inquiries in bad faith.
Jorgenson
made
sexually
inappropriate
comments to female coworkers, which the County does
not dispute. When staff first notified jail authorities of
Jorgenson’s behavior towards coworkers, an
investigation ensued, leading to Jorgenson’s
resignation. It is undisputed that Jorgenson’s
comments to staff went unreported until the N.S.
investigation. It is also undisputed that in the nine
years preceding trial, 14,100 inmates came though the
jail, and the Jorgenson circumstance was the only
known allegation of an improper relationship between
a guard and an inmate.
The majority opinion recounts N.S.’s letter in
detail. The letter was admitted, however, only for the
limited, non-hearsay purpose of notice. The letter
could not be considered on its merits, which the
majority opinion appears to do. Majority op. at pp. 2627 (“That Jorgenson’s grooming of N.S. did not end
with rape is no liability shield; it was good fortune.”).

App-54
On Schaefer’s testimony about Jorgenson, the
majority opinion states “Schaefer reported that
Jorgensen had touched N.S. on her waist and rear end,
adding that the complaints did not come as a surprise
because ‘[w]e have all heard complaints about
[Jorgenson’s] inappropriate comments to both inmates
and staff.’” Majority op. at p. 4. But Schaefer’s quoted
testimony spoke of improper comments, not improper
touching. As to those comments, Schaefer could not
recall an example of Jorgenson making an improper
comment to an inmate. Schaefer also testified that
none of the Jorgenson comments to staff or inmates
that he knew of rose to a level requiring discipline.
4.

Prison Rape Elimination Act (PREA)

PREA played a large role in plaintiffs’ case. They
argued the jail failed to implement its policy
recommendations, showing a lack of concern for
preventing and detecting sexual assaults. Plaintiffs
claimed Nargis openly “denigrated … PREA
standards.” For this assertion, plaintiffs cited a 2014
email from Nargis to jail staff which stated:
Seems to be that everyone is in a tizzy to train
their staff on PREA. There is no requirement
for use [sic] to be compliant with everything
that the law calls for, but nevertheless it is
federal law. So we’ll hit the basics of PREA
training.
At trial plaintiffs called this the “tizzy” email.
Plaintiffs argued Nargis’s choice of the word “tizzy”
was “mocking” of PREA and “indicat[ed] that he
disliked PREA.” Plaintiffs also claimed the email
never discussed any specific PREA measures, but
merely restated the jail’s current anti-sexual assault

App-55
policies. Plaintiffs argued the “tizzy” email proves that
Nargis and the jail “consciously disregarded” PREA
standards and thus disregarded the risk of sexual
assaults at the jail.
Plaintiffs’ opinion witness Eiser grounded his
testimony on PREA’s recommendations, opining that
the jail’s sexual assault policies and training were
inadequate because they did not fully adopt several
components of PREA. Eiser also testified there is no
empirical data that compliance with PREA yields
better results. And he conceded that PREAcompliance is not mandatory for county jails in
Wisconsin, and that its standards are better viewed as
“best practices.” Eiser agreed the County had a good
record on sexual assaults—even factoring in
Jorgenson’s misconduct—because of the lack of
incidents of sexual contact between guards and
inmates, much less criminal sexual assaults like
Christensen’s.
Plaintiffs agreed that state law, not PREA,
governs county jails in Wisconsin, but they offered no
evidence that the jail’s sexual assault policies or
training fell below state legal or administrative
standards. As for compliance with state law, the
County presented evidence that the Wisconsin
Department of Corrections annually reviews the jail’s
policies, including its policy prohibiting fraternization
with inmates. In each year of plaintiffs’ incarcerations,
that Department found the jail to be in full compliance
with all applicable Wisconsin statutes and
regulations. Language addressing PREA was added to
the jail’s anti-fraternization policy in 2012, with an
accompanying PREA training in 2014.

App-56
II. Municipal Liability and the Law of Monell
Municipal liability under § 1983 as set by the
Supreme Court has traveled a winding route. But that
route has a constant beacon to courts: each case
examines what federal power may be exercised over
state and municipal governments and considers the
Court’s desire to harmonize § 1983 with the structural
limits of federalism. These precedents are dispositive
here and warrant detailed review before their
application. They prescribe a different outcome than
reached by my colleagues in the majority.
The first is Rizzo v. Goode, 423 U.S. 362, 365-66
(1976), in which the Court struck down a district court
order requiring police training reforms for violating
federalism principles. The Court held “there was no
affirmative link between the occurrence of the various
incidents of police misconduct and the adoption of any
plan or policy by petitioners … showing their
authorization or approval of such misconduct.” Id. at
371. The Court also dismissed plaintiffs’ argument
that “even without a showing of direct responsibility
for the actions of a small percentage of the police
force,” the local government’s failure to act in the face
of a pattern is actionable. Id. at 375-76. The Court
distinguished the mere failure to act in the face of a
pattern of incidents from “active conduct,” rejecting
the argument that a pattern alone creates a
“constitutional duty” to develop preventative
procedures to deter speculative abuses. Id. at 372, 37576, 378. The Court also rejected “invocation of the
word ‘pattern’ in a case where … the defendants are
not causally linked to it.” Id. at 375-76.

App-57
Federalism, the Court made clear in Rizzo,
governed its holding. Id. at 377-80. The district court’s
injunctive relief, the Court ruled, had “departed from
the[] precepts” of federalism “[w]hen it injected itself
… into the internal disciplinary affairs of this state
agency.” Id. at 380. “[T]he principles of federalism,”
the Court admonished, “play such an important part
in governing the relationship between federal courts
and state governments … .” Id. And those principles
apply when relief is sought against local governments.
Id.
Rizzo formulated the heightened causation
requirement between a policy and a constitutional
violation now integral to all § 1983 claims. See Polk
Cty. v. Dodson, 454 U.S. 312, 326 (1981) (citing Rizzo,
423 U.S. at 370-77, for the proposition that an official
policy “must be the moving force” of the constitutional
violation). It also constrained federal courts from
“second-guessing
municipal
employee-training
programs” to avoid “implicat[ing] serious questions of
federalism.” Canton, 489 U.S. at 392 (citing Rizzo, 423
U.S. at 378-80).
In Monell v. New York City Dept. of Social Servs.,
436 U.S. 658 (1978), the Court adopted Rizzo’s
federalism-influenced
requirements
and
set
parameters for establishing municipal liability. In
Monell, the Court considered “[w]hether local
governmental officials and/or local independent school
boards are ‘persons’ within the meaning of 42 U.S.C.
§ 1983.” Id. at 662. Based on “[a] fresh analysis of the
debate on the Civil Rights Act of 1871,”id. at 665, the
Court held that the Act “compell[ed] the conclusion
that Congress did intend municipalities and other

App-58
local government units to be included among those
persons to whom § 1983 applies.” Id. at 690. So local
governments could properly be sued as “persons”
within the meaning of § 1983.
Although Monell exposed municipalities to § 1983
lawsuits, the Court circumscribed how that statute
applied to them. In particular, the Court limited
claims against municipalities in two ways by holding
that liability under § 1983 cannot be predicated on a
theory of respondeat superior, and that a
municipality’s own policy or custom must be the
“moving force” behind the constitutional violation. Id.
691-92. The Court interpreted the statute’s use of the
verbs “subject[s], or causes to be subjected” as
requiring a municipality’s direct involvement, as
opposed to liability on a vicarious basis. Id. at 692.
Thus, the court ruled that the “mere right to control
without any control or direction being exercised”
cannot support § 1983 liability. Id. (citing Rizzo, 423
U.S. at 370-71). For those reasons, a local government
is liable under § 1983 only “when execution of a
government’s policy or custom … inflicts the injury.”
Id. at 694. The policy or custom must be the “moving
force” behind, or actual cause of, the constitutional
injury. Id.
The municipality in Monell officially adopted an
unconstitutional policy, so the municipality itself
“unquestionably” caused the constitutional violation.
Id. at 690, 694-95. Monell left unanswered whether
plaintiffs could establish municipal liability by
alleging unofficial policies, especially those of
municipal inaction or inadequate training, such as
here. Over three decades the Court has filled in those

App-59
blanks. Each time the Court has set the requirements
to establish municipal liability for failure to train,
liability has become more difficult to find. These
decisions always steer clear of respondeat superior.
Underlying those decisions, and the requirements
they impose, are the federalism principles articulated
in Rizzo and the Court’s intent to harmonize § 1983
with those principles.
First of the municipal training cases was City of
Oklahoma City v. Tuttle, 471 U.S. 808 (1985). In
Tuttle, seven Justices rejected an instruction that
permitted the jury to infer liability attributable to
inadequate training from a single incident of
unconstitutional activity by a non-policymaking
employee. Id. at 821 (plurality opinion) (“We think this
inference unwarranted … [because it] allows a § 1983
plaintiff to establish municipal liability without
submitting proof of a single action taken by a
municipal policymaker.”); id. at 830 (Brennan, J.,
concurring in part and concurring in the judgment)
(“Under the instruction in question, the jury could
have found the city liable solely because [the officer]’s
actions on the night in question were so excessive and
out of the ordinary. A jury finding of liability based on
this theory would unduly threaten petitioner's
immunity from respondeat superior liability.”).
Four years later, the Court further shaped the
contours of inadequate training liability in Canton.
There, the plaintiff sued the city for failing to
adequately train its police when to summon medical
care for injured detainees. 489 U.S. at 381. On the
question of fault, the Court held that a claim of
inadequate training triggers municipal liability “only

App-60
where the failure to train amounts to deliberate
indifference to the rights of persons with whom
[municipal employees] come into contact.” Id. at 388.
A municipality can be liable under § 1983 “[o]nly
where a failure to train reflects a ‘deliberate’ or
‘conscious’ choice” not to fully train employees. Id. at
389. Such a deliberate choice could be shown when “in
light of the duties assigned to specific officers or
employees the need for more or different training is so
obvious, and the inadequacy so likely to result in the
violation of constitutional rights, that the
policymakers of the city can reasonably be said to have
been deliberately indifferent to the need.” Id. at 390
(emphasis added).
Canton offered two examples of what “so obvious”
means. First, police may “so often violate
constitutional rights that the need for further training
must have been plainly obvious to the city
policymakers.” Id. at 390 n.10. 5 In the second example,
the Court left open the possibility—now known as the
“single-incident theory”—that a pattern of similar
violations might not be necessary to show deliberate
Expounding on this principle, and foreshadowing the Court’s
holdings in Bryan Cty., Okl. v. Brown, 520 U.S. 397, 407-08
(1997), and Connick v. Thompson, 563 U.S. 51, 62 (2011), Justice
O’Connor wrote in concurrence: “[M]unicipal liability for failure
to train may be proper where it can be shown that policymakers
were aware of, and acquiesced in, a pattern of constitutional
violations … .” City of Canton, Ohio v. Harris, 489 U.S. 378, 397
(1989) (O’Connor, J., concurring in part and dissenting in part).
“Allowing an inadequate training claim” without proof of a
pattern “to go to the jury based upon a single incident,” Justice
O’Connor continued, “would only invite jury nullification of
Monell.” Id. at 399.
5

App-61
indifference. To prevail under this theory, a plaintiff
must prove that municipal “policymakers know to a
moral certainty” that its employees will confront a
given situation and fail to train for it. Id.
To illustrate a single incident scenario, the Court
posed the hypothetical of a city that arms its police
force with guns and deploys those officers into the
public without training. As the Court explained, given
the known frequency with which police encounter
fleeing felons plus the “predictability that an officer
will lack specific tools to handle those situations,” “the
need to train officers in the constitutional limitations
on the use of deadly force … can be said to be ‘so
obvious’ that the failure to do so could properly be
characterized
as
‘deliberate
indifference’
to
constitutional rights.” Id. at 390 n.10; see also
Connick, 563 U.S. at 63 (explaining same) (quoting
Bryan Cty., 520 U.S. at 409).
But in either scenario, a plaintiff cannot establish
that a municipality acted with deliberate indifference
for failing to train employees for rare or unforeseen
events. Relying on Rizzo, the Court in Canton stressed
the need for a rigorous fault standard because:
[A] lesser standard of fault would result in de
facto respondeat superior liability on
municipalities … . It would also engage
federal courts in an endless exercise of
second-guessing
municipal
employeetraining programs. This is an exercise we
believe the federal courts are ill suited to
undertake, as well as one that would
implicate serious questions of federalism.
Id. at 392 (citing Rizzo, 423 U.S. at 378-80).

App-62
As for causation, Canton cautioned that just
because “a particular officer may be unsatisfactorily
trained will not alone suffice to fasten liability on the
city, for the officer’s shortcomings may have resulted
from factors other than a faulty training program.” Id.
at 390-91 (citations omitted). “And plainly, adequately
trained officers occasionally make mistakes; the fact
that they do says little about the training program or
the legal basis for holding the city liable.” Id. at 391.
“Neither will it suffice,” the Court stated, “to prove
that an injury or accident could have been avoided if
an officer had had better or more training, sufficient
to equip him to avoid the particular injury-causing
conduct.” Id. Only when a plaintiff “prove[s] that the
deficiency in training actually caused the [employee]’s
indifference” can liability attach. Id. Even more, “the
identified deficiency in a city’s training program must
be closely related to the ultimate injury.” Id. at 391.
In Canton, the Court gave reasons for this
stringent causation standard. A failure-to-train claim
“could be made about almost any encounter resulting
in injury, yet not condemn the adequacy of the
program to enable officers to respond properly to the
usual and recurring situations with which they must
deal.” Id. And “[i]n virtually every instance where a
person has had his or her constitutional rights
violated by a city employee, a § 1983 plaintiff will be
able to point to something the city ‘could have done’ to
prevent the unfortunate incident.” Id. at 392 (quoting
Tuttle, 471 U.S. at 823 (plurality opinion)).
Eight years later, the Court imported Canton’s
failure-totrain principles into the hiring context in Bd.
of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S. 397

App-63
(1997). There a deputy sheriff who caused the
plaintiff’s injury had received no training in proper
pursuit and arrest techniques. Id. at 400-02. The
Court addressed whether the county’s decision to hire
the offending deputy sheriff triggered liability under
Monell: “Where a plaintiff claims … the municipality
has not directly inflicted an injury, but nonetheless
has caused an employee to do so, rigorous standards of
culpability and causation must be applied to ensure
that the municipality is not held liable solely for the
actions of its employee.” Id. at 405 (citing Canton 489
U.S. at 391-92, and Tuttle, 471 U.S. at 824 (plurality
opinion)). And “[w]here a court fails to adhere to
rigorous requirements of culpability and causation,
municipal liability collapses into respondeat superior
liability.” Id. at 415.
“Canton makes clear,” the Court explained in
Bryan County, that “deliberate indifference is a
stringent standard of fault, requiring proof that a
municipal actor disregarded a known or obvious
consequence of his action.” Id. at 410 (internal
quotation marks omitted). A “plaintiff must
demonstrate that a municipal decision reflects
deliberate indifference to the risk that a violation of a
particular constitutional or statutory right will follow
the decision.” Id. at 411 (emphasis added). In other
words, the deprivation of a federally protected right
must be the “plainly obvious consequence” of the
municipality’s decision. Id. Bryan County instructs
courts to focus on the particular constitutional
violation that occurred, not constitutional violations in
general.

App-64
Subject to this particularity requirement, Bryan
County identified three ways a municipality could be
liable for inadequate training. First, “[i]f a program
does not prevent constitutional violations, municipal
decisionmakers may eventually be put on notice that
a new program is called for.” Id. at 407. Second, “the
existence of a pattern of tortious conduct by
inadequately trained employees may tend to show
that the lack of proper training, rather than a onetime negligent administration of the program or
factors peculiar to the officer involved in a particular
incident, is the ‘moving force’ behind the plaintiff's
injury.” Id. at 407-08. And third, the single- incident
theory as laid out in Canton, 489 U.S. at 390 n.10: in
a “narrow range of circumstances, a violation of
federal rights may be a highly predictable
consequence of a failure to equip law enforcement
officers with specific tools to handle recurring
situations.” Bryan Cty., 520 U.S. at 409. In this third
scenario, liability hinges on the likelihood that “a
violation of a specific constitutional or statutory right”
will recur and “the predictability that an officer
lacking specific tools to handle that situation will
violate citizens’ rights.” Id. at 409.
Finally, we come to Connick v. Thompson, 563
U.S. 51 (2011). There, the plaintiff spent 18 years in
prison, including 14 years on death row, because an
assistant district attorney willfully suppressed blood
evidence that exculpated plaintiff. Id. at 55-56. The
plaintiff alleged that violation was caused by the
district attorney’s deliberate indifference to an
obvious need to train prosecutors to avoid violations of
Brady v. Maryland, 373 U.S. 83, 87 (1963), to disclose
evidence favorable to the defense. The jury agreed,

App-65
awarding plaintiff $14 million in damages, and the
district court added more than $1 million in attorney’s
fees and costs. 563 U.S. at 57.
The Supreme Court reversed the jury verdict in
Connick. In fact, in each of the post-Monell cases
discussed—Tuttle, Canton, Bryan County, and
Connick—the Court reversed a jury verdict for the
plaintiff.
Connick reflects the Court’s most recent and most
exhaustive assessment of inadequate training
liability. Because such a claim treads so closely to
vicarious liability, the Court admonished: “A
municipality’s culpability for a deprivation of rights is
at its most tenuous where a claim turns on a failure to
train.” Id. at 61 (citing Tuttle, 471 U.S. at 822-23). The
Court recognized two types of inadequate training
claims: those that require a pattern of similar
constitutional violations, and those that may succeed
without a pattern under single-incident theory. Id. at
71-72.
Per Connick, to prevail under a pattern theory a
plaintiff must prove “[a] pattern of similar
constitutional violations by untrained employees.” Id.
at 62. “[C]ontemporaneous or subsequent conduct
cannot establish a pattern of violations that would
provide ‘notice to the cit[y] and the opportunity to
conform to constitutional dictates … .’” Id. at 63 n.7
(quoting Canton, 489 U.S. at 395). A pattern of
constitutional violations means prior violations
“similar to” the “specific” violation suffered by the
plaintiff. Id. at 62-63, 63 n.7, 67. In Connick, despite
at least four prior Brady violations in the same district
attorney’s office, and that up to four prosecutors may

App-66
have been responsible for the nondisclosure of
favorable evidence that exculpated plaintiff, the Court
held that the plaintiff had failed to establish a pattern
of similar violations.
Because the plaintiff in Connick could not rely on
a pattern of similar Brady violations, the Court
addressed whether he could prevail under the “singleincident” theory hypothesized in Canton. Id. at 63-71.
In Connick, the Court set three requirements to
establish liability under Canton’s single-incident
hypothetical:
First, single-incident liability applies only when
dealing with “untrained employees.” Id. at 61-62, 67;
see also id. at 91 (Ginsburg, J., dissenting) (agreeing
with majority on this requirement).
Second, once it is established that the offending
employee was untrained, a plaintiff alleging singleincident liability must prove “police officers have no
knowledge at all” of the required constitutional
standards. Id. at 67. That means “in the absence of
training,” there must be “no way for novice officers to
obtain the legal knowledge they require.” Id. A
plaintiff meets this requirement when there is “no
reason to assume” the officer is “familiar with the
constitutional constraints” of the prohibited conduct.
Id. at 64. That a policy has “gray areas,” the Court
cautioned, does not mean an employee “will so
obviously make wrong decisions that failing to train
them amounts to ‘a decision by the city itself to violate
the Constitution.’” Id. at 71 (quoting Canton, 489 U.S.
at 395 (O’Connor, J., concurring in part and dissenting
in part)). In those situations, a plaintiff must show it
was “highly predictable” that employees would be

App-67
confounded by those gray areas and make incorrect
decisions as a result. Id.
Third, an absence of formal or specialized training
does not show deliberate indifference because “failureto-train liability is concerned with the substance of the
training, not the particular instructional format.” Id.
at 68. Put more simply, under the single-incident
theory there is not inquiry into the subtleties of
training. Instead, the key question to qualify under
Canton’s hypothetical is whether the municipal
employee is “equipped with the tools to interpret and
apply legal principles.” Id. at 64; Bryan County, 520
U.S. at 409. The question is not whether better or
more training might have prevented the violation.
“[S]howing merely that additional training would
have been helpful in making difficult decisions does
not establish municipal liability.” Connick, 563 U.S. at
68; see also id. at 73-74 (Scalia, J., concurring)
(rejecting liability “under the rubric of failure to train
simply because the municipality does not have a
professional educational program covering the specific
violation in sufficient depth”). Said another way,
“‘proving that an injury or accident could have been
avoided if an employee had had better or more
training, sufficient to equip him to avoid the particular
injury-causing conduct’ will not suffice.” Id. (quoting
Canton, 489 U.S. at 391).
Applying these three requirements, the Court in
Connick contrasted Canton’s hypothetical with an
attorney asked to make a Brady determination. In the
absence of a pattern of similar Brady violations, a
district attorney “is entitled to rely” on prosecutors’
law school or bar exam training, ethical obligations,

App-68
and on-the-job experience, to deal with Brady
decisions. Id. at 66-67. “In light of this regime of legal
training and professional responsibility, recurring
constitutional violations are not the ‘obvious
consequence’ of failing to provide prosecutors with
formal in-house training about how to obey the law.”
Id. at 66. The Court therefore concluded in Connick
that “this case does not fall within the narrow range
of ‘singleincident’ liability hypothesized in Canton.”
Id. at 71-72.
These precedents control the consideration of this
case. The Supreme Court has never held a
municipality liable for a failure to act in the absence
of a pattern of prior similar violations. See Majority op.
at p. 22 (recognizing same). This case does not present
such a claim either, for the reasons that follow.
III. Theories of Liability
The majority opinion holds the County employer
liable for the crimes of its employee Christensen under
the single-incident theory hypothesized in Canton,
specifically for failure to train and for failure to
supplement County policies. Majority op. at 18-23.
Those holdings rest on three conclusions:
1. In the absence of a pattern of prior similar
sexual assaults at the jail, the rapes of J.K.J. and
M.J.J. by Christensen pose one of those “rare” and
“narrow range of circumstances” (Connick, 563 U.S. at
64, 71-72) the Court hypothesized in Canton’s footnote
10, in which the need for training in constitutional
requirements is “so obvious ex ante” (Id. at 72)
(concurrence). Majority op. at pp. 20-30.
2. The jail’s omission of sexual assault prevention
and detection measures in its written policies

App-69
amounted to unconstitutional inaction under Monell.
Majority op. at pp. 18-20.
3. The failure to train about sexual assault
prevention and detection measures, or the omission of
such measures from written policies, caused plaintiff’s
injuries. Majority op. at pp. 30-33.
In reaching these conclusions, the majority
opinion departs from the Supreme Court’s
requirements in Canton, Bryan County, and Connick
and oversteps the culpability and causation rules
governing § 1983 claims, resulting in respondeat
superior liability, an outcome forbidden since Monell.
A. Failure to Train
1.

Single-incident theory

For a failure-to-train claim the standard of
municipal fault is deliberate indifference. Connick,
563 U.S. at 61 (labeling this “a stringent standard of
fault”); Canton, 489 U.S. at 388-89. Only when a
municipality has “actual or constructive notice that a
particular omission in their training program causes
city employees to violate citizens’ constitutional
rights” may the municipality be deemed deliberately
indifferent for retaining that program. Connick, 563
U.S. at 61. “Without notice that a course of training is
deficient in a particular respect, decisionmakers can
hardly be said to have deliberately chosen a training
program that will cause violations of constitutional
rights.” Id. at 62 (emphasis added).
The Court has recognized two ways to establish
notice. The first requires a prior pattern of similar
constitutional violations to prove deliberate
indifference, the second does not. See Connick, 563

App-70
U.S. at 62-63. Per Connick, the second—the “singleincident theory”—is distinct from and serves as an
exception to the pattern theory. Id. at 62-63; 71-72.
These two theories share the same objective of
discerning whether “the need for further training” was
“so obvious.” Canton, 489 U.S. at 390 n.10. Bryan
County phrased this question as whether “a municipal
actor disregarded a known or obvious consequence of
his action.” 520 U.S. at 410 (describing Canton’s
standard of fault); see also Connick, 563 U.S. at 61
(quoting same). Either way, the key term is “obvious.”
See Farmer v. Brennan, 511 U.S. 825, 841 (1994)
(describing Canton’s application of deliberate
indifference as an “obviousness test”).
Under the pattern theory, the obviousness of a
risk is determined from “[a] pattern of similar
constitutional violations by untrained employees.”
Connick, 563 U.S. at 62. Under the single-incident
theory, the question is whether the risk is “obvious in
the abstract.” Bryan County, 520 U.S. at 410 (applying
Canton’s standard of fault) (internal quotation marks
omitted). The majority opinion says “[t]he Court did
not leave the [single-incident] liability point in any
way abstract.” Majority op. at p. 21. The Court in
Bryan County said the opposite. When evaluating “the
risk from a particular glaring omission in a training
regimen” the question is whether the risk is “obvious
in the abstract.” Bryan County, 520 U.S. at 410
(internal quotation marks omitted). Under either
theory an objective test is applied. Farmer, 511 U.S. at
841 (“It would be hard to describe the Canton
understanding of deliberate indifference, permitting
liability to be premised on obviousness or constructive
notice, as anything but objective.”).

App-71
The majority opinion recognizes that this case
does not present a pattern of misconduct which gave
notice to the County that its training program would
cause constitutional violations. Majority op. at p. 20.
Nevertheless, it concludes the need to supplement the
County’s sexual assault training was “so obvious” that
the failure to do so amounted to deliberate indifference
under Canton’s single-incident theory. Majority op. at
p. 27. I respectfully part ways with my colleagues in
the majority that the requirements to establish singleincident liability have been met here.
As noted above, to illustrate “so obvious” notice of
a need for training under the single-incident theory,
Canton hypothesized a city deploying armed officers,
untrained on the constitutional limits of the use of
deadly force, to capture fleeing felons. 489 U.S. at 390
n.10. In Connick, the Court distilled Canton’s
hypothetical into three single-incident liability
requirements. None of these are met here.
First, single-incident liability applies only when
dealing with “untrained employees.” Connick, 563
U.S. at 61-62, 67; id. at 91 (Ginsburg, J., dissenting)
(agreeing with the majority that failure-to-train
liability attaches “only when the failure” involves
“untrained employees”). It is undisputed that the jail
trained Christensen that sexual contact with inmates
was against jail policies and a felony, so this
prerequisite is not met.
To meet Connick’s second requirement there must
be “no reason to assume” the County’s jail guards were
“familiar with the constitutional constraints” of the
prohibited conduct. Connick, 563 U.S. at 64. But
Christensen testified to five ways he was familiar with

App-72
the policy prohibiting sexual contact: (1) he knew his
conduct violated jail policy; (2) he was trained his
conduct was a crime; (3) he knew he was putting
plaintiffs at risk; (4) he never forgot that sex with
inmates was a crime; and (5) he did not require more
training to know his conduct was a crime. Unlike the
nuanced and compound legal standards imposed by
deadly force limits (Canton) and Brady’s evidentiary
obligations (Connick), even the majority opinion
recognizes this requirement cannot be met, as it
characterizes the jail’s zero-tolerance abuse policy as
“categorical[],” a “clear line,” as well as an “obvious”
and “easy and evident” constitutional parameter.
Majority op. at pp. 18-19, 25. The record does not show
that County guards, let alone Christensen, had “no
knowledge at all” of the relevant constitutional
standard. Connick, 563 U.S. at 67.
On this second requirement, plaintiffs must prove
the County’s jail guards “ha[d] no knowledge at all” of
the relevant constitutional standard, id. at 67, here, a
blanket prohibition against sexual assault. That
means a court must find there is “no way for novice
[guards] to obtain the legal knowledge they require”
unless they are trained. Id. at 64. The majority opinion
concludes that without training “male guards would
sexually assault female inmates.” Majority op. at p.
24. This conclusion assumes that jails present an
“opportunity to abuse” and male guards will
“obvious[ly]” exploit that opportunity unless trained
otherwise. Id. As the majority opinion puts it: “It is
difficult to conceive of any setting where the power
dynamic could be more imbalanced than that between
a male guard and female inmate,” so it is “obvious as

App-73
obvious could be” that male guards will “sexual[ly]
abuse” female inmates. Id. 6
An opportunity in which abuse may be committed
does not establish deliberate indifference. At most it
establishes negligence, which “will not suffice” to
establish § 1983 liability. Bryan County, 520 U.S. at
407. The record does not support the assumption that,
unless trained to refrain from sexual assaults, every
male guard at Polk County Jail posed a risk to the
bodily integrity of female inmates. Nor can it be
assumed that absent training, male guards would
have “obviously” violated behavioral norms and
commit sex crimes. 7 For these reasons, Connick’s
second requirement also is not met.
The majority opinion’s conclusion that the “power dynamic” of
confinement places municipalities on notice of the risk of sexual
assaults is unlikely to prove workable for district courts. If the
unalterable nature of confinement places municipalities on
perpetual notice sufficient to establish § 1983 liability, how do
courts determine if a municipality failed to act in the face of that
obviousness?
6

The majority opinion’s conclusion of obviousness also rests on
a theory rejected by other federal appellate courts. Whitson v.
Stone Cty. Jail, 602 F.3d 920, 927 (8th Cir. 2010) (“We … could
scarcely hold as a matter of course that every male guard is a risk
to the bodily integrity of a female inmate whenever the two are
left alone. Absent evidence to the contrary, we assume that jailers
will not violate models of social decorum or otherwise commit a
punishable offense.”); Barney v. Pulsipher, 143 F.3d 1299, 131011 (10th Cir. 1998) (refusing to find that the defendants knew of
a substantial risk of assault based on the proposition that every
male guard is a risk to the bodily integrity of a female inmate
whenever the two are left alone because in the record there was
no evidence of sexual misconduct in the offending jailer’s
background nor was there evidence of previous incidents of
sexual misconduct by jailers generally); Hovater v. Robinson, 1
7

App-74
Third, “failure-to-train liability is concerned with
the substance of the training, not the particular
instructional format.” Id. at 68. Under Connick, this
poses the question whether Christensen was
“equipped with the tools to interpret and apply legal
principles.” Id. at 64. The majority opinion frames the
applicable principle as “do not sexually abuse
inmates,” calling it an “easy and evident” constraint.
Majority op. at pp. 19-20. Christensen thought so too,
testifying he knew his assaults were crimes that put
plaintiffs at risk, and that more training would not
have altered that knowledge. Despite Christensen’s
avowals, the majority opinion holds the County liable
for Christensen’s conduct because its sexual assault
training failed to educate and sensitize guards to the
following:
•
•
•
•
•

the dignity and respect owed female inmates;
the inherent vulnerability the confinement
setting presents to female inmates;
the symptoms of an inmate suffering from the
trauma of abuse;
report[ing] each other’s misconduct; and
matters of prevention and detection.

Majority op. at pp. 19-20, 28.
This scrutiny of existing policies and training goes
too far, violating the third requirement of Connick.
The single-incident liability inquiry under Connick
stops after the question of whether Christensen knew
his conduct was a crime. It does not ask whether better
F.3d 1063, 1066-68 (10th Cir. 1993) (“[T]here is no evidence in
the present case of an obvious risk that male detention officers
will sexually assault female inmates if they are left alone.”).

App-75
or more training might have prevented his crimes. On
this exact question the Court in Connick stated:
“’[P]rov[ing] that an injury … could have been avoided
if an [employee] had had better or more training,
sufficient to equip him to avoid the particular injurycausing conduct’ will not suffice.” Id. at 68 (quoting
Canton, 489 U.S. at 391). See also Connick, 563 U.S.
at 73-74 (Scalia, J., concurring) (rejecting liability
“under the rubric of failure to train simply because the
municipality does not have a professional educational
program covering the specific violation in sufficient
depth”); id. at 78 (Scalia, J., concurring) (“[A] badfaith, knowing violation, could not possibly be
attributed to lack of training. …”)
This third requirement ends where it does for
good reasons. As the Court ruled in Canton, a
municipality cannot act with deliberate indifference
for failing to train employees for rare or unforeseen
events. A less than rigorous fault standard “result[s]
in de facto respondeat superior liability on
municipalities—a result we rejected in Monell.”
Canton, 489 U.S. at 392 (citing Monell, 436 U.S. at
693-94; Rizzo, 423 U.S. at 378-80). That result also
intrudes upon the federalism interests that the Monell
failure-to-train cases strongly reinforce. In Canton,
the Court noted how “[i]n virtually every instance
where a person has had his or her constitutional rights
violated by a city employee, a § 1983 plaintiff will be
able to point to something the city ‘could have done’ to
prevent the unfortunate incident.” Id. at 392 (quoting
Tuttle, 471 U.S. at 823 (plurality opinion)). While the
education and sensitization steps the majority opinion
lists fit into that category, the stringent fault
requirements of Canton do not demand them.

App-76
None of the three requirements in Connick are
met here to satisfy Canton’s single-incident
hypothetical.
The single-incident theory fails here for two other
reasons. Bryan County requires a “direct causal link”
link between Christensen’s crimes and an ineffective
training regimen. 520 U.S. at 404. See also Tuttle, 471
U.S. at 823 (requiring “affirmative link”); Rizzo, 423
U.S. at 371 (same). The record here shows no such
link. Before the discovery of Christensen’s crimes,
there were no prior instances of similar sexual
assaults; Eiser agreed the jail, including the
Jorgenson incident, had a “good” record on sexual
assaults. And Eiser testified that no empirical data
shows compliance with PREA would have yielded a
better result. These same facts, however, persuade a
majority of my colleagues that the need for more or
better sexual assault training was “so obvious.” To the
contrary, the record shows the County’s training
“equipped [Christensen] with the tools” to understand
its uncomplicated zero-tolerance assault policy,
Connick’s third requirement. 563 U.S. at 64.
Christensen chose repeatedly to disregard that policy
and, hiding his actions, assault the plaintiffs.
To establish single incident liability, a plaintiff
also must prove that municipal “policymakers know to
a moral certainty” that its employees will confront a
given situation and fail to train for it. Canton, 489 U.S.
at 390 n.10. Here, the County had not previously faced
the circumstance of a guard raping inmates. Even so,
the jail had a zero-tolerance sexual assault policy and
trained its guards on it. In Connick, the Court ruled
that “[a] district attorney is entitled to rely on

App-77
prosecutors’ professional training and ethical
obligations in the absence of specific reason, such as a
pattern of violations, to believe that those tools are
insufficient to prevent future constitutional
violations.” 563 U.S. at 67. Connick also requires
similarity among violations. See id. at 62-63.
Following Connick’s reasoning, the County was also
entitled to rely on its policies and training given the
absence of any sexual assaults similar to
Christensen’s at the jail. See Majority op. at p. 26. (“To
be certain, the accusations of Jorgenson’s
reprehensible conduct fell short of rape.”).
2.

The “Obvious” Contradiction

All agree this case turns on notice. The majority
opinion states at p. 20: “The Supreme Court has made
plain that a failure to act amounts to municipal action
for Monell purposes only if the County has notice that
its program will cause constitutional violations. See
Connick, 563 U.S. at 61-62.” Canton in footnote 10
provides that the need to train officers on
constitutional limits “can be said to be ‘so obvious’ that
failure to do so could properly be characterized as
‘deliberate indifference’ to constitutional rights.” 489
U.S. at 390 n.10. The evidence the majority opinion
relies on to conclude notice falls outside the sphere of
single-incident liability.
The majority opinion concludes repeatedly and
with certainty that the jail posed an obvious risk that
male guards would sexually assault female inmates.
Majority op. at p. 24 (“obvious and known risk”), id.
(“the reality was as obvious as obvious can be”), id. at
p. 27 (“obvious and known risk of sexual assaults in its
jail”), and id. at p. 30 (“the risk of constitutional

App-78
injury—here, the sexual assaults—was obvious”). In
support of this conclusion it reviews “evidence that the
County was aware of sexual misconduct happening
within its jail.” Id. at p. 25. That notice evidence falls
into four categories: (1) Nargis’s tier talk (Id. at pp. 19,
25, and 28); (2) the “tizzy” email (id. at pp. 19 and 28);
(3) infrequent, undated, and mostly unreported
inappropriate comments by four guards over a twelveyear period (id. at p. 25); and (4) information gleaned
from the Jorgenson investigation (id. at pp. 25-28). On
this evidence the majority opinion holds that the
County disregarded obvious notice of risk and the need
for “different policies or training” and “more robust
policies.” Id. at pp. 31-32.
But in its consideration of and conclusion based
on this evidence, the majority opinion embraces a
contradiction. The identical four categories of evidence
served as plaintiffs’ evidence of notice in the district
court. As in every appeal, we are limited by the record.
The district court expressly ruled “that plaintiffs
failed to put forth sufficient evidence to support
finding a pattern of constitutional violations known to
policymakers.” Opinion and Order at 7, J.K.J. v. Polk
Cty., No. 15- CV-428, 2018 WL 708390 (W.D. Wis. Feb.
5, 2018), ECF No. 279. And plaintiffs have not
challenged that holding on appeal. Appellees’ Br. at 45
n.10 (“Plaintiffs do not argue on appeal that deliberate
indifference is established here due to a pattern of
similar past incidents.”).
These four categories of evidence fail as “so
obvious” notice under a pattern theory, as found by the
district court. Nevertheless, in the majority opinion
the same four categories provide “so obvious” notice

App-79
under a single-incident theory. The majority opinion
turns the single-incident theory on its head, using the
same facts to produce the opposite conclusion. On this
same record, the need for more training and better
policies is simultaneously “not at all obvious” and “so
obvious.” The lack of a pattern deprived the County of
notice of a need, but the same evidence now provides
notice of such a need. For example, the majority
opinion allows Jorgenson’s misconduct to provide
“incremental notice of an obvious risk.” Majority op. at
p. 26. Unexplained is why—if four categories of
evidence did not provide that notice, as the district
court held—one category could. 8
If the response is that the “so obvious” notice
necessary for single-incident liability differs from the
“so obvious” notice for pattern liability, no authority so
provides. Nor would it. The same evidence is not being
considered as of different times, or in a different sense.
Pattern and single incident theories of liability differ
in their requirements, but they share the identical
objective of notice. Under either theory, a
municipality’s policymakers must have notice of
omissions before being deemed deliberately
indifferent. Connick, 563 U.S. at 61-62; Bryan Cty.,
520 U.S. at 410; Canton, 489 U.S. at 390 n.10.
Evidence that falls short under one theory falls short
under the other as well.

8 Also unexplained is how notice of an “obvious risk” could be
“incremental.” Incremental denotes gradual, or progressive, the
opposite of a “so obvious” need necessary for deliberate
indifference under a “single incident” theory. Canton, 489 U.S. at
390 n.10.

App-80
Do not construe my dissent as concluding that the
four categories of evidence listed above are always
irrelevant. Those categories would be relevant under
other avenues of liability, such as implied policy or
pattern theories. But the single-incident theory
requires that the need for training be obvious without
consideration of prior violations. See Connick, 563
U.S. at 63 n.7 (rejecting contemporaneous or
subsequent evidence to prove notice). When
evaluating “the risk from a particular glaring omission
in a training regimen” the question is whether the risk
is “obvious in the abstract.” Bryan County, 520 U.S. at
410 (internal quotation marks omitted). That is for
good reason. Single incident liability exists for a
limited circumstance in which a municipality faced no
prior instances of similar constitutional violations. See
Connick, 563 U.S. at 64 (explaining that with the
single-incident exception “[t]he Court [in Canton]
sought not to foreclose the possibility, however rare,
… that a city could be liable under § 1983 without
proof of a preexisting pattern of violations”). The
single-incident theory is a way to show liability,
without evidence of past constitutional violations.
Here, the district court concluded that those same
categories of evidence failed to provide notice under a
pattern theory, and an implied policy theory of
liability is not before us. So the four categories cannot
be considered here.
There is only one way out of this contradiction. If
notice is no longer required, what remains is liability
without notice: respondeat superior. Monell and
Supreme Court precedents forbid that result. Because
the “so obvious” standard from the Canton footnote 10

App-81
hypothetical cannot be satisfied here, the plaintiffs’
constitutional claim is legally deficient.
B. Failure to Supplement Policies
The second basis on which the majority opinion
concludes liability—that a failure to supplement
County policies amounted to unconstitutional inaction
under Monell—also relies on Canton’s single-incident
theory. For a number of reasons, that approach cannot
be squared with the Court’s admonitions in Canton,
Bryan County, and Connick either.
Canton’s single-incident hypothetical expressly
considers only “the need to train” officers. 489 U.S. at
390 n.10. The Court has never extended singleincident liability outside failure to train. See Connick,
563 U.S. at 64 (limiting single-incident theory to “the
obvious need for specific … training”); Bryan County,
520 U.S. at 410 (limiting single-incident theory to “a
particular glaring omission in a training regimen”).
The claim at issue involves something different—
purported gaps in the County’s sexual assault express
policies—not failure to train.
As
just
noted,
the
majority
opinion’s
unconstitutional inaction holding relies exclusively on
the same four categories of evidence that failed to
provide “obvious” notice of a need for more action. Cf.
Connick, 563 U.S. at 61, 63, 71 (requiring “obvious”
notice to establish single-incident liability); Bryan
County, 520 U.S. at 410 (same); Canton, 489 U.S. at
390 n.10 (requiring “so obvious” and “plainly obvious”
notice). So appears the contradiction: the same
evidence the district court found did not provide
notice, a finding left unchallenged on appeal, gives
notice in the majority opinion of a need for more

App-82
action. The need for additional policies is
simultaneously “not at all obvious” and “so obvious.”
The majority opinion concludes that the County’s
zero-tolerance sexual assault policies contained
“material gaps” because those policies did not include
information about preventing and detecting sexual
assaults. Majority op. at pp. 18-19. To prove deliberate
indifference, plaintiffs must show it was “highly
predictable” that, absent supplements to its zerotolerance assault policies, male Polk County Jail
guards would inflict the particular constitutional
injuries suffered by plaintiffs. Bryan Cty., 520 U.S. at
411. This means plaintiffs must show that those
guards lacked the tools to know that sexual assault is
a crime and violated County policies. See id. But as
explained above, there were no prior instances of rape
at the jail and plaintiffs’ own opinion witness agreed
the jail had a “good” record on sexual assaults. As with
all of its guards, the County gave Christensen the tools
to stop himself; he chose not to.
The majority opinion instead grounds fault solely
on three generalized risks:
•
•
•

That “[t]he confinement setting is a tinderbox
for sexual abuse.”
That any “guard would grow too comfortable,
lose his better angels, and step over the clear
line marked in Polk County’s written policies.”
That it was “’highly predictable,’ if not certain,
that a male guard would sexually assault a
female inmate if the County did not act.”

App-83
Majority op. at pp. 24-26 (emphases added). 9 Absent
from these generalizations is any mention of how
purported gaps in County policies amounted to
deliberate
indifference.
Left
unexplained
is
specifically how the decision to rely on policies that,
until Christensen, produced “good” results on the
particular risk of sexual assaults amounted to
deliberate indifference. It cannot be said a situation
that has never occurred is likely to recur. See Bryan
County, 520 U.S. at 409 (basing predictability on “[t]he
likelihood that the situation will recur“).
The deliberate indifference standard in Canton
has an important corollary. Under the single incident
theory, Canton requires employers “know to a moral
certainty” that their employees will face a “difficult
choice of the sort that training or supervision will
make less difficult.” Walker v. City of New York, 974
F.2d 293, 297 (2d Cir. 1992) (citing Canton, 489 U.S.
at 390 n.10). Case law has referred to this as the
“difficult decision” or “difficult choice” requirement.
However phrased, it is not a “difficult choice” or a
“difficult decision” for a guard not to rape an inmate.
Such a decision is mandated by the law, written
policies and training here, as well as any moral code.
Just so, Christensen had no “difficult choice.” He was
instructed by the written policies, training, and the
law not to sexually assault, but he willfully and
surreptitiously ignored that training and instruction.
For all these reasons, this case does not fit within the
9 If such a generalized risk suffices to trigger notice here, the
same generalized risk could apply for jail fights, medical
attention, and other aspects of confinement.

App-84
narrow and rare single-incident exception to the
pattern requirement for municipal liability.
C. Causation
To recover from the County under § 1983,
plaintiffs also must prove “a direct causal link between
the municipal action and the deprivation of federal
rights.” Bryan County, 520 U.S. at 404. A municipality
cannot be liable “unless deliberate action attributable
to the municipality directly caused a deprivation of
federal rights.” Id. at 415. Even if training or a policy
omission was in some manner deficient, “the identified
deficiency … must be closely related to the ultimate
injury” such that “the deficiency … actually caused the
police officers’ indifference.” Canton, 489 U.S. at 391.
Said slightly differently, “a municipality can be liable
under § 1983 only where its policies are the moving
force behind the constitutional violation.” Id. at 389
(citations, internal brackets, and quotation marks
omitted). These causation requirements are
“stringent” and “rigorous” to prevent expansions of
constitutional tort liability and the use of federal
courts to restructure municipal institutions. See
Bryan County, 520 U.S. at 415 (holding a lesser
causation standard embroils “serious federalism
concerns” and permits “municipal liability [to]
collapse[] into respondeat superior liability.”).
This case presents a glaring causation problem:
When Christensen assaulted the plaintiffs, he
knowingly and willfully acted in defiance of his
training and County policies. No evidence shows that
Christensen decided to assault plaintiffs for any
reason related to inadequate training or policies. The
majority opinion cites no “affirmative link” between

App-85
the occurrence of Christensen’s crimes and the
County’s alleged inaction. Tuttle, 471 U.S. at 823
(plurality opinion) (“At the very least there must be an
affirmative link between the policy and the particular
constitutional violation alleged.”); Rizzo, 423 U.S. at
371 (rejecting liability because “there was no
affirmative link between the occurrence of the various
incidents of police misconduct and the adoption of any
plan or policy”). Without an affirmative link, the
causation requirement is not met.
The majority opinion rests its conclusion of
causation on the obviousness of a risk: “‘The high
degree of predictability’ that constitutes notice … ‘may
also support an inference of causation …’” Majority op.
at p. 30 (citing Bryan County, 520 U.S. at 409-10).
Because the risk of constitutional injury was obvious,
the majority opinion decides, only a “small inferential
step” therefrom is necessary to find causation.
Majority op. at p. 30. But there must be a foundation
from which to take that step. That is missing here.
First, Connick emphasizes the notice a
municipality’s policymakers must have of the
omissions in their training program causing
municipal employees to violate a citizen’s
constitutional rights before the municipality may be
deemed deliberately indifferent. 563 U.S. at 61-62.
“Without notice that a course of training is deficient in
a particular respect, decisionmakers can hardly be
said to have deliberately chosen a training program
that will cause violations of constitutional rights.” Id.
at 62.
But the district court ruled, and it is unchallenged
on appeal, that the misconduct evidence did not

App-86
constitute a pattern of constitutional violations. The
lack of a pattern deprived the County of notice of a
need for additional training and policies.
Nevertheless, the majority opinion relies on that same
evidence to conclude obviousness and notice. But it
cannot be both ways; notice of a risk cannot
simultaneously be not present and present. Respect
for the district court’s finding on an issue not appealed
should control, and not form the foundation for a
conclusion of causation.
Second is the type of causation found. Certainly,
the absence of supplemental training and policies may
increase the likelihood that a guard might assault an
inmate. The inquiry here, though, is whether male
Polk County Jail guards posed a risk to female
inmates such that reliance on the County’s existing
policies and training would result in guard-on-inmate
rape. Bryan County, 520 U.S. at 411. The district court
did not perform this “legal inquiry,” id., for failure to
train or unconstitutional inaction liability, and what
remains is just a conclusion of potential causation.
But liability under § 1983 requires actual
causation of an injury. Bryan County, 520 U.S. at 40405; Canton, 489 U.S. at 389; Monell, 436 U.S. at 692
(holding the “mere right to control without any control
or direction having been exercised” will not support
§ 1983 liability (citing Rizzo, 423 U.S. at 370-71));
Rizzo, 423 U.S. at 372, 375-76, 378 (distinguishing the
mere failure to act from “active conduct”). “Proving
that an injury or accident could have been avoided if
an employee had had better or more training,
sufficient to equip him to avoid the particular injurycausing conduct will not suffice.” Connick, 563 U.S. at

App-87
68 (quoting Canton, 489 U.S. at 391 (internal
quotation marks and brackets omitted)). The question
is not whether the inaction potentially caused
plaintiffs’ injuries; it is whether the inaction “actually”
(Canton, 489 U.S. at 391) and “directly” (Bryan
County, 520 U.S. at 415) caused the injuries. Here, no
evidence shows that County inaction actually and
directly caused plaintiffs’ injuries.
Third, the majority opinion permits a finding of
liability in jail and prison settings based not on proof
of causation, but a presumption of negligence. Male
jail guards have exclusive “authority and control” over
“nearly everything in [inmates’] lives.” Majority op. at
p. 24. “With this authority and control … c[o]me[s]
power and, in turn, access opportunity to abuse it.” Id.
Under this “delicate setting,” “the risk of
constitutional injury” “was as obvious as obvious could
be.” Id. at pp. 23, 28. “The jury knew that from
common sense[,]” so “it took but a small inferential
step for the jury to find causation.” Id. at 28.
Far
from
Monell’s
“rigorous”
causation
requirements, the majority opinion’s reasoning echoes
res ipsa loquitur, presuming negligence from
Christensen’s crimes. See Tuttle, 471 U.S. at 831 n.6
(Brennan, J., concurring) (admonishing application of
res ipsa loquitur doctrine in municipal liability
claims). Res ipsa loquitur applies when “the facts of
the occurrence warrant the inference of negligence”
and “the defendant [has] exclusive control of all the
things used in an operation which might probably
have caused injury.” Jesionowski v. Bos. & M. R. R.,
329 U.S. 452, 456 (1947) (emphases added) (citation
and quotation marks omitted). Compare the elements

App-88
of res ipsa loquitur with the majority opinion’s
reasoning: The jail’s “authority and control” through
“male guards” over “nearly everything in [inmates’]
lives,” supports an inference of causation. Majority op.
at p. 24. Instead of causation or deliberate
indifference, negligence is presumed. Monell requires
more: deliberate indifference and moving force
causation, not “simple or even heightened negligence.”
Bryan County, 520 U.S. at 407.
Plaintiffs’ appalling injuries were not caused by a
lack of specific training and policy language about
sexual assault prevention and detection. They were
caused by a miscreant guard’s hidden, willful, and
criminal defiance. There is no evidence that
Christensen made the decision to assault plaintiffs for
any reason related to inadequate training or policies.
For example, no evidence shows that Christensen
calculatedly exploited training and policy gaps. Nor
does any evidence show that such gaps emboldened,
let alone caused, Christensen to commit rapes. The
record shows that when Christensen assaulted
plaintiffs he knew he was acting contrary to his
training and in violation of County policies. From this
undisputed evidence, any reasonable fact finder would
have to conclude that Christensen’s bad-faith conduct,
in conflicting with his employer’s policies and training,
caused plaintiffs’ injuries. Christensen, not the
County, was the “moving force” that caused plaintiffs’
injuries. Monell, 436 U.S. at 691-92.
IV. Federalism
The majority opinion encroaches on the
federalism principles that the Supreme Court’s Monell
cases hold so essential.

App-89
Monell’s policy requirement was intended to
balance § 1983’s remedial purpose with the principle
that the power exercised by federal courts must not be
so broad as to upend the delicate balance of powers
among federal, state, and local governments. See
Michael J. Gerhardt, The Monell Legacy: Balancing
Federalism Concerns and Municipal Accountability
under Section 1983, 62 S. Cal. L. Rev. 539 (1989). The
majority opinion upsets that balance. It extends
federal civil liability by allowing a federal statute to
dictate municipal liability, impermissibly infringing
on state and local independence and self-governance.
It also defines notice of constitutional violations so
broadly that liability may now arise in any
confinement setting, without limit.
The Supreme Court has emphasized the
important federalism interests implicated by
municipal liability cases involving failure to train, like
this one. Allowing § 1983 cases to advance against
municipalities for failure to train or inaction “on a
lesser standard of fault would result in de facto
respondeat superior liability on municipalities—a
result [] rejected in Monell.” Canton, 489 U.S. at 392
(citation omitted). “This is an exercise … federal
courts are ill suited to undertake, as well as one that
would implicate serious questions of federalism.”
Canton, 489 U.S. at 392 (citing Rizzo, 423 U.S. at 37880).
The Court sounded the same warning in Bryan
County:
Where a court fails to adhere to rigorous
requirements of culpability and causation,
municipal liability collapses into respondeat

App-90
superior liability. As [] recognized in Monell
and [] repeatedly reaffirmed [since], Congress
did not intend municipalities to be held liable
unless deliberate action attributable to the
municipality directly caused a deprivation of
federal rights. A failure to apply stringent
culpability and causation requirements
raises serious federalism concerns, in that it
risks constitutionalizing … requirements
that States have themselves elected not to
impose.
520 U.S. at 415 (citing Canton, 489 U.S. at 392).
Connick raised the same cautionary flag:
“[Section 1983] does not provide plaintiffs or courts
carte blanche to micromanage local governments
throughout the United States.” 536 U.S. at 68. While
Justice Scalia joined the Connick opinion in full, his
concurrence explained that the dissent’s “theory of
deliberate indifference would repeal the law of
Monell.” 536 U.S. at 73 (Scalia, J., concurring):
[W]e do not have de facto respondeat superior
liability, for each such violation under the
rubric of failure to train simply because the
municipality does not have a professional
educational program covering the specific
violation in sufficient depth. …
These restrictions are indispensable because
without them, failure to train would become
a talismanic incantation producing municipal
liability in virtually every instance where a
person has had his or her constitutional
rights violated by a city employee—which is
what Monell rejects. Worse, it would engage

App-91
the federal courts in an endless exercise of
second-guessing
municipal
employeetraining programs, thereby diminishing the
autonomy of state and local governments.
Id at 73-74 (quotes, citations, and footnotes omitted).
This case presents the infringement warned of in
Canton, Bryan County, and Connick by allowing a
federal statute to dictate a municipality’s liability
without proof of fault or causation.
The majority opinion declares the County was
deficient in preventing and detecting sexual assaults.
This standard is drawn directly from the trial
testimony of plaintiff’s opinion witness, Eiser, that the
jail had inadequately addressed the prevention and
detection of sexual assaults of inmates. Eiser testified
PREA “set[s] the standard for jails very clearly.”
According to Eiser, the PREA standard has three
components: prevention, detection, and training. The
prevention and detection components are lifted
directly from the text of PREA. 10 The changes he
recommended to allow for easier reporting of sexual
assaults—including the lockbox for inmate complaints
mentioned in the majority opinion—are all teachings
of PREA. Eiser further testified the jail had addressed
only one of the PREA components in its policy, and
what should occur if a facility cannot meet all the
PREA components.

10 At 34 U.S.C. § 30302 PREA provides: “The purposes of this
chapter are to—(6) increase the accountability of prison officials
who fail to detect, prevent, reduce, and punish prison rape.”
(emphasis added).

App-92
Per the majority opinion “PREA is not a
constitutional standard, and jails are not required to
adopt it.” Majority op. at p. 29. Yet, it concludes that
the county’s liability rests on Eiser’s testimony that
the municipality failed to prevent and detect the
sexual assaults by a guard of two inmates. Strikingly,
an opinion witness who advanced a standard the
majority opinion says is not required now sets the
fault standard in this circuit, even though that
witness agreed the County had a “good” record on
sexual assaults.
What type of action must municipalities take to
satisfy this new standard and avoid liability? The
majority opinion says “reasonable steps to reduce the
obvious and known risks of assaults on inmates.” Id.
at p. 29. But what those reasonable steps should be
requires notice, which the County did not have. Recall,
the district court concluded that the four categories of
evidence, including the Jorgenson incident, did not
collectively make a risk of rape known to the County.
Per the majority opinion, the only direction given to
courts and municipal policymakers on those
reasonable steps are the detection and protection
measures of PREA. If Wisconsin municipal jails
should be held to the PREA standard, that decision
should be made by the people of Wisconsin through
their legislature, or by the Wisconsin Department of
Corrections through administrative rulemaking.
Instead, PREA’s adoption effectively comes by way of
this court.
This case presents another federalism concern:
One of the mechanisms by which the majority opinion
concludes the jail was on notice of policy and training

App-93
gaps applies to all confinement settings. As the Court
explained in Bryan County, establishing that a
municipality acted with “deliberate indifference …
require[es] proof that a municipal actor disregarded a
known or obvious consequence of his action.” Id. at 410
(internal quotation marks omitted). The Court
specifically rejected fault based on generalized risk.
Id. But the majority opinion permits fault based on
such a generalized risk by defining “obvious” so
expansively as to render the term effectively without
meaning.
Because the majority finds the risk of sexual
assault is “obvious” in all confinement settings
involving male guards and female inmates, Majority
op. at p. 24, and inaction in the face of that “obvious”
risk establishes deliberate indifference, any
municipality in the Seventh Circuit operating a
confinement setting with male guards and female
inmates may now be subject to liability and federal
oversight if it does not enact new policies or training.
This formulation, founded on an incurable standard of
notice, is unworkable. Regardless of what steps a
municipality takes, it is on notice of the risk of sexual
assaults so long as male guards supervise female
inmates in a confinement setting. And even if a
municipality enacts policies to prevent sexual assaults
and trains employees on those policies (like Polk
County), it is deliberately indifferent unless it enacts
additional policies and training programs.
This formulation also gives no guidance to district
courts or municipal policymakers as to what training
is or is not required to avoid a constitutional
deprivation. This creates liability potentially

App-94
unlimited in scope; if it has limits, those contours are
ill-defined, and certain to confound and divide courts
and policymakers. And in creating potentially
unlimited liability, this court disregards each of the
warnings and cautions on this topic passed to us from
the Supreme Court and repeated above.
For these reasons, our law interpreting § 1983
should follow the Court’s lead and avoid intrusion into
an area of traditional state authority such as this. See,
e.g., Fla. Dep’t of Revenue v. Piccadilly Cafeterias, Inc.,
554 U.S. 33, 50 (2008) (holding the “federalism canon
… obliges us to construe [a statute]’s exemption
narrowly”); BFP v. Resolution Trust Corp., 511 U.S.
531, 544 (1994) (refusing to interpret a statute “[t]o
displace traditional state regulation” unless
Congress’s intent to do so was clear from the statute
(citing Gregory v. Ashcroft, 501 U.S. 452, 460-61
(1991)); Gregory, 501 U.S. at 468 (“By its terms, the
Fourteenth Amendment contemplates interference
with state authority: ‘No State shall … deny to any
person within its jurisdiction the equal protection of
the laws.’ … But this Court has never held that the
Amendment may be applied in complete disregard for
a State’s constitutional powers.” (quoting U.S. Const.
amend. XIV § 1)).
The majority opinion heralds federal involvement
in what historically has been an area of state and local
decision-making. Subsidiarity should be respected,
especially with the Supreme Court repeatedly and
specifically noting important federalism interests in
precisely this type of case.

App-95
V. Rule 50 and the Jury Verdict
Courts are the gatekeepers for the questions a
jury may properly answer. In permitting a jury to
determine whether a municipality is liable under
§ 1983, courts are constrained by the Supreme Court
cases relayed above in II., the parameters of failure to
train liability as explained in III., and the federalism
principles noted in IV.
Federal Rule of Civil Procedure 50 sets the
standard and procedure courts are to employ in this
role. “Judgment as a matter of law is proper ‘if a
reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue.’”
Lawson v. Sun Microsystems, Inc., 791 F.3d 754, 761
(7th Cir. 2015) (quoting Fed. R. Civ. P. 50(a)(1)).
This court reviews de novo a district court’s ruling
on a post-trial motion for judgment as a matter of law
under Rule 50. Andy Mohr Truck Center, Inc. v. Volvo
Trucks N.A., 869 F.3d 598, 602 (7th Cir. 2017) (citation
omitted). The evidence is viewed in the light most
favorable to the verdict. Empress Casino Joliet Corp.
v. Balmoral Racing Club, Inc., 831 F.3d 815, 822 (7th
Cir. 2016). This standard applies regardless of
whether the verdict under review was for the plaintiff
or the defendant and regardless of the case’s
underlying legal issues. Schandelmeier-Bartels v.
Chicago Park Dist., 634 F.3d 372, 376 (7th Cir. 2011).
The showing required for judgment as a matter of
law under Rule 50 has been equated with a grant of
summary judgment under Federal Rule of Civil
Procedure 56. The Advisory Committee Note to the
1991 amendments to Rule 50 explains that, in part,
those amendments are intended to call attention to

App-96
the similarity between judgment as a matter of law
under Rule 50 and summary judgment under Rule 56.
The Supreme Court has also “noted that the ‘genuine
issue’ summary judgment standard is ‘very close’ to
the ‘reasonable jury’ directed verdict standard … .”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 251
(1986); see also Miller v. Fisher, 381 F. App’x 594, 596
(7th Cir. 2010) (“The standard [for reviewing a Rule 50
motion] mirrors our appellate analysis of a motion for
summary judgment.”).
When considering whether a claim survives a
motion for judgment as a matter of law, courts decide
whether the claim is legally sufficient. See Fed. R. Civ.
P. 50(a)(1) (stating a judge may grant judgment as a
matter of law if the movant shows “a reasonable jury
would not have a legally sufficient evidentiary basis to
find for the party on that issue”). This question differs
from the factual finding asked of and made by a jury.
District courts must determine the controlling law and
exercise “responsibility to assure the fidelity of [their]
judgment to the controlling law, a responsibility
imposed by the Due Process Clause of the Fifth
Amendment.” Fed. R. Civ. P. 50 advisory committee’s
note to 1991 amendment (citation omitted). That note
provides good guidance: “In ruling on such a [Rule 50]
motion, the court should disregard any jury
determination for which there is no legally sufficient
evidentiary basis enabling a reasonable jury to make
it.” Id.
The constitutional claim against the County never
should have reached the jury. Summary judgment
should have been granted to the County because the

App-97
claim was legally deficient, as shown above. 11 The
legal deficiency of the claim, more than the lack of
evidence, should have led to its demise. If summary
judgment had not been granted on the claim,
judgment as a matter of law should have been granted
to the County.
If this court had reversed the district court’s
denial of the County’s motion for judgment as a matter
of law, it certainly would not have “taken a case from
the jury.” Rather, it would have exercised its proper
role by deciding that the jury never should have
considered the claim against the County in the first
place. Putting to the side the understandable
sympathy factor—the desire to make someone pay for
the assaults these plaintiffs endured—the County
should not be held liable on plaintiffs’ legally deficient
constitutional claim. Liability standards exist to
govern behavior. Every tort case has a standard for
fault and for causation. The court’s role is to preclude
a finding of liability if there is no legal basis and no
causal link to hold the defendant at fault. Otherwise
courts fail to ensure that the law is properly applied.
A jury’s verdict must be respected, but the jury can
only be posed a question the law allows. This jury was
asked a question it should not have been.
This case presents the downside of the mantra “let
a questionable claim go to the jury.” A claim that
should have been denied at summary judgment, or
resolved after the evidence was presented, or even
post-trial, took on inertia. Rule 50 exists to prevent
11 The County moved for summary judgment on plaintiffs’ §
1983 claims on this issue (Dist. Ct. D.E. 54), which the district
court denied. (Dist. Ct. D.E. 160 at 30).

App-98
that. The Supreme Court and federal appellate courts
consistently overturn verdicts that rest on incorrect
legal grounds. As noted above, the Court’s failure-totrain decisions that control here each reversed a jury
verdict for the plaintiff: Tuttle, 415 U.S. at 813;
Canton, 489 U.S. at 391; Bryan Cty., 520 U.S. at 400;
and Connick, 563 U.S. at 57.
In addition to these reversals, in the last twenty
years this court has overturned jury verdicts, for
plaintiffs and for defendants, in at least twelve cases
when a prisoner inmate sued under § 1983. 12 In about
Martin v. Milwaukee Cty., 904 F.3d 544 (7th Cir. 2018)
(reversed jury verdict for plaintiff on a prison sexual assault
claim because rape not within scope of employment); Ruiz-Cortez
v. City of Chicago, 931 F.3d 592 (7th Cir. 2019) (vacated jury
verdict for defendant on a Brady violation claim, ordered a new
trial on that claim, and affirmed summary judgment for town on
Monell claim); Nelson v. City of Chicago, 810 F.3d 1061 (7th Cir.
2016) (reversed jury verdict for plaintiff on an unlawful search
and seizure claim and ordered a new trial); Barber v. City of
Chicago, 725 F.3d 702 (7th Cir. 2013) (reversed jury verdict for
defendant on claims of arrest without probable cause and
excessive force and ordered a new trial); Phillips v. Cmty. Ins.
Corp., 678 F.3d 513 (7th Cir. 2012) (reversed jury verdict for
defendants on a claim of excessive force and remanded to enter
judgment for plaintiff); Duran v. Town of Cicero, 653 F.3d 632
(7th Cir. 2011) (reversed denial of defendant’s new trial motion
on claims of excessive force, false arrest, and equal protection
violations against police officers and town); Fox v. Hayes, 600
F.3d 819 (7th Cir. 2010) (reversed jury verdict for plaintiffs due
process claim after plaintiffs won on false arrest, malicious
prosecution, violation of due process, and state law claims
because plaintiff’s state law theory was the same as violation of
due process claim); Watkins v. Kasper, 599 F.3d 791 (7th Cir.
2010) (reversed jury verdict for incarcerated plaintiff’s exercise of
free speech claim because inmate’s speech was inconsistent with
legitimate penological interests); Thomas v. Cook Cty. Sheriff’s
12

App-99
the same time frame this court has twice overturned a
jury’s finding of an unconstitutional policy in Monell
cases. See Thomas v. Cook Cty. Sheriff’s Dept., 604
F.3d 293, 298 (7th Cir. 2010) (concluding insufficient
evidence existed to hold sheriff liable because causal
connection between his policies and death was
tenuous in light of jury’s finding that individual
correctional
officers
deliberately
disregarded
plaintiff’s medical needs); Palmquist v. Selvik, 111
F.3d 1332, 1347 (7th Cir. 1997) (holding municipality
was not deliberately indifferent for failure to train
because the lack of training was not sufficiently
obvious and any inadequacy was not sufficiently likely
to result in a constitutional violation). Because the
constitutional claim against the County had no legal
basis, judgment as a matter of law should have been
granted.
VI. Other Case Law
The majority opinion expands municipal liability
under § 1983 beyond the boundaries established by
federal appellate courts, including that of this circuit:

Dep't, 604 F.3d 293 (7th Cir. 2009) (reversed jury verdict for
plaintiff’s wrongful death action against sheriff under Monell and
remanded to enter judgment in sheriff’s favor); Campbell v.
Miller, 499 F.3d 711 (7th Cir. 2007) (reversed jury verdict for
defendant officer because no jury could find his public strip
search of the plaintiff in a driveway was reasonable); Riccardo v.
Rausch, 375 F.3d 521 (7th Cir. 2004) (reversed jury verdict for
incarcerated plaintiff on a failure to protect claim); Campbell v.
Peters, 256 F.3d 695 (7th Cir. 2001) (reversed jury verdict for
incarcerated prisoner on qualified immunity grounds).

App-100
•
•

•

No federal appellate court has ever extended
the single-incident exception to the sexual
assault context;
No federal appellate court has ever extended
the single-incident exception when the
employee’s compliance with the municipality’s
policy and training would have prevented the
injuries; and
Specialized training is not required to know
that rape is wrong.

A. Single-Incident
Assaults

Liability

for

Sexual

The other federal appellate courts to have ruled
on this issue have rejected the “so obvious” singleincident exception in the sexual assault context: 13
Eighth Circuit: Parrish v. Ball, 594 F.3d 993, 999
(8th Cir. 2010) (rejecting plaintiff’s single-incident
theory because “tell[ing] officers to not sexually
assault detainees [] is not so obvious that not doing so
would result in an officer actually sexually assaulting
a female detainee"); S.J. v. Kansas City Missouri Pub.
Sch. Dist., 294 F.3d 1025, 1029 (8th Cir. 2002)
(rejecting plaintiff’s single-incident claim after finding
there is no patently obvious need for public schools or
principals to train volunteers not to commit sexual
abuse); Andrews v. Fowler, 98 F.3d 1069, 1077 (8th
Cir. 1996) (rejecting plaintiff’s single-incident theory
after determining there is no “patently obvious need
13 The majority opinion is also at odds with this court’s order in
Johnson v. Cook Cty., 526 F. App’x 692 (7th Cir. 2013), in which
this court rejected single- incident liability and affirmed the
dismissal of an inmate’s Monell claim after the inmate was
sexually assaulted by a Cook County Jail employee. Id. at 697.

App-101
for the city to specifically train officers not to rape
young women”).
Ninth Circuit: Flores v. Cty. of Los Angeles, 758
F.3d 1154, 1160 (9th Cir. 2014) (rejecting plaintiff’s
single-incident theory of liability because “[t]here is []
every reason to assume that police academy
applicants are familiar with the criminal prohibition
on sexual assault, as everyone is presumed to know
the law”).
Tenth Circuit: Schneider v. City of Grand
Junction Police Dep’t, 717 F.3d 760, 774 (10th Cir.
2013) (rejecting plaintiff’s single-incident claim
because “[s]pecific or extensive training hardly seems
necessary for a jailer to know that sexually assaulting
inmates is inappropriate behavior’’ (quoting Barney v.
Pulsipher, 143 F.3d 1299, 1308 (10th Cir. 1998));
Barney v. Pulsipher, 143 F.3d at 1308 (“[T]his case
does not fall within the narrow range of circumstances
justifying a finding of deliberate indifference absent a
pattern of violations … [because] we are not persuaded
that a plainly obvious consequence of a deficient
training program would be the sexual assault of
inmates.”).
Eleventh Circuit: Floyd v. Waiters, 133 F.3d 786,
796 (11th Cir. 1998), vacated on other grounds by 525
U.S. 802 (1998), reinstated by 171 F.3d 1264 (11th Cir.
1999) (board of education was “entitled to rely on the
common sense of its” security guards not to sexually
harass and rape underage girls.).
The only federal appellate case arguably to the
contrary may be Cash v. Cty. of Erie, 654 F.3d 324,
337-38 (2d Cir. 2011). But Cash does not apply a
single-incident theory analysis or even cite to Canton’s

App-102
single-incident hypothetical. Cash itself states it is not
a failure-to-train case: “the deliberate indifference
concern in this case … is not with a failure to train
prison guards to distinguish between permissible and
impermissible sexual contact with prisoners. Nor is it
with providing sufficient supervision to ensure that
guards make correct choices in this respect.” Id. at
336. Cash also based its conclusion of liability on a
generalized risk rather than a particularized inquiry
(violating Bryan County, 520 U.S. at 410-13), and it
ignored the requirement of similar prior violations
(violating Connick, 563 U.S. at 62-63).
A failure to supervise case, Cash holds:
“[K]nowledge that an established practice has proved
insufficient to deter lesser [sexual] misconduct can be
found to serve notice that the practice is also
insufficient to deter more egregious misconduct.” 654
F.3d at 337. See Majority op. at p. 26 (quoting same).
But that holding offers no help. Here, unlike Cash, the
district court ruled that plaintiffs’ pattern evidence of
lesser misconduct failed to show notice of an obvious
need for revised policies and training. Plaintiffs did
not appeal that ruling. And unlike the majority
opinion here, Cash does not deem it obvious that
without training male guards will rape female
inmates. To the extent the majority opinion may read
Cash differently, district courts in the Second Circuit
have not followed suit. 14
14 Recall, to prove deliberate indifference under the singleincident theory of liability, Canton requires employers “know to
a moral certainty” that their employees will face a “difficult
choice of the sort that training or supervision will make less
difficult.” Walker v. City of New York, 974 F.2d 293, 297 (2d Cir.

App-103
B. Failure to Comply with Policies and
Training
A federal appellate court also has never extended
the single-incident exception when the employee’s
compliance with the municipality’s policy and training
would have prevented the injuries:
Fifth Circuit: Pena v. City of Rio Grande City, 879
F.3d 613, 624 (5th Cir. 2018) (determining single
incident theory should be limited to “cases in which
the government actor was provided no training
whatsoever”); Estate of Davis ex rel. McCully v. City of
N. Richland Hills, 406 F.3d 375, 377-78, 385-86 (5th
Cir. 2005) (concluding single-incident exception did
not apply when training occurred).

1992). District courts in the Second Circuit after Cash have not
concluded that sexual assault qualifies as a “difficult decision.”
See, e.g., R.A. v. City of New York, 206 F. Supp. 3d 799, 803
(E.D.N.Y. 2016) (“The complaints against Defendant … show a
conscious decision by Defendant … to commit sexual assault,
which does not present a ‘difficult choice’ [that] further training
would prevent.” (quoting Walker, 974 F.2d at 297 (citations
omitted)); Noonan v. City of New York, 2015 WL 3948836, at *4
(S.D.N.Y. June 26, 2015) (decision to commit a sexual assault
cannot reasonably be seen as posing the type of “difficult choice”
contemplated by the Second Circuit in Walker.); Doe v. City of
New York, 2013 WL 796014, at *4 (S.D.N.Y. Mar. 4, 2013)
(“Plaintiff has not plausibly alleged that either [officer]’s decision
to rape her or [second officer]’s decision to aid and abet that rape
was a ‘difficult choice of the sort that training or supervision will
make less difficult.’” (quoting Walker, 974 F.2d at 298)); Castilla
v. City of New York, 2012 WL 5510910, at *6 (S.D.N.Y. Nov. 14,
2012) (“It beggars common sense to posit that [the officer] faced
a difficult choice as to whether or not to coerce sex from [plaintiff]
and that training would have alleviated that conundrum.”).

App-104
Ninth Circuit: Jason v. Tanner, 938 F.3d 191, 199
(5th Cir. 2019) (rejecting single-incident theory
because prison had trained about sling-blade misuse,
“albeit training that didn’t prevent th[e] attack,” and
“this was the first and only sling-blade attack in a
presumably otherwise incident-free program”).
Tenth Circuit: Waller v. City & Cty. of Denver, 932
F.3d 1277, 1288 (10th Cir. 2019) (rejecting singleincident theory because “[t]his case does not involve
technical knowledge or ambiguous ‘gray areas’ in the
law that would make it ‘highly predictable’ that a
deputy sheriff … would need ‘additional specified
training’ to … put [him] on notice that [he] may not
violently assault a restrained detainee”); Keith v.
Koerner, 843 F.3d 833, 839-40 (10th Cir. 2016)
(rejecting failure-to-train liability because jailer
received training about the impropriety of and
potential consequences for engaging in sexual
misconduct); Schneider, 717 F.3d at 774 (10th Cir.
2013) (rejecting failure-totrain liability where the
offending officer “was, in fact, instructed against
relationships with women he met on duty. …”); Porro
v. Barnes, 624 F.3d 1322, 1328-29 (10th Cir. 2010)
(county jail’s policy of training jailers to use stun guns
and failure to enforce federal policy that banned use of
stun guns on immigration detainees did not
demonstrate deliberate indifference).
On first glance, the only federal appellate court
case on the other side of this question might be Allen
v. Muskogee, 119 F.3d 837 (10th Cir. 1997), in which a
divided panel reversed summary judgment granted to
a city on an excessive force claim and held that failure
to train officers how to deal with armed and mentally

App-105
ill persons fits within the Canton single-incident
exception. Id. at 844. But in Allen the officer was
trained to do the wrong thing, not left untrained. Id.
Unlike Allen, no one disputes that had Christensen
followed his training or the jail’s policies, the injuries
to plaintiffs never would have occurred.
These cases instruct that single-incident liability
should not be extended to cases involving a rogue
officer not complying with uncomplicated and
constitutionally sound policies and training.
Christensen admitted at trial that the County trained
him on the illegality of sexual contact between guards
and inmates. Christensen also admitted he did not
require more training to know his conduct was a
crime. Even plaintiff’s opinion witness Eiser conceded
at trial that no proof exists that better or more
training could have dissuaded Christensen from his
predatory and assaultive behavior.
C. No Need for Specialized Training
The third requirement from Connick is that the
degree of training received by municipal employees is
not relevant to establishing liability under Canton’s
single-incident hypothetical. 563 U.S. at 68. Per
Connick, courts should be “concerned with the
substance of the training, not the particular
instructional format.” Id. To rule to the contrary would
“provide plaintiffs or courts carte blanche to
micromanage local governments.” Id. This would
“‘engage the federal courts in an endless exercise of
second-guessing
municipal
employee-training
programs,’ thereby diminishing the autonomy of state
and local governments.” Connick, 536 U.S. at 75

App-106
(Scalia, J. concurring) (quoting Canton, 489 U.S. at
392).
Applying Connick, the inquiry is whether the Polk
County Jail trained its guards not to commit sexual
assault, not the amount or particulars of that training.
Connick, 563 U.S. at 68. Nevertheless, the majority
opinion is replete with conclusions on the nature,
quantity, and timing of the training: what language
was and was not included in Polk County’s written
policies; what topics were and were not discussed in
training sessions; when the training did and did not
occur; and how the training should have been done, in
contrast to how it was done. 15 The majority opinion
Majority op. at p. 2 (“Nor did the County provide any
meaningful training on the topic [of sexual assault].”), id. (finding
relevant that no further training occurred after Jorgenson
incident); id. at p. 9 (“no training (in any sense of the word)
focused on the sexual harassment or assault”); id. at pp. 10-11
(quoting email that training would “hit the basics” but no
requirement jail would be compliant with everything PREA calls
for); id. at p. 10 (finding relevant what topics Sergeant Schaefer
did and did not train officers on); id. at p. 11 (noting plaintiffs’
evidence on “inadequacy of Polk County’s policies and training”);
id. (recounting Eiser’s testimony on insufficiency of training); id.
at p. 19 (“[T]he County’s training on preventing and detecting the
sexual harassment and abuse of inmates was all but
nonexistent”); id. (“The training consisted almost exclusively of
informing guards of the easy and evident.”) id. (noting single
session on PREA); id. at p. 20 (stating jury could have found jail’s
“sexual abuse prevention program was entirely lacking”); id.
(stating County “exacerbated the gap by failing to use training as
the means of making the policy prohibition a reality”); id. at p. 27
(identifying failure to institute a training session after Jorgenson
incident); id. at p. 31 (stating County should have “put in place
some of Eiser’s proposed policies and training to prevent but
especially detect sexual abuse”); id. (“If Polk County had different
15

App-107
equates its conclusion of insufficient training with no
training. But that decides the amount, type, and
frequency of training. After Connick, 563 U.S. at 68,
that is not the court’s inquiry.
The County’s policies and training—that guards
are not to sexually assault inmates—admits of no
nuance, separating it from the deadly force training of
Canton and the Brady prosecutorial obligations of
Connick. The training here is imperative and
declarative: a jailer may not have sexual contact with
an inmate, and if the jailer does, the jailer will be fired
and prosecuted for a felony under Wisconsin law. That
is not a gray area, confounding correctional officials,
nor did Christensen so testify. In fact, he admitted
exactly the opposite: he knew what he was doing was
criminal, and that no more training would have
altered that. Christensen, not the County, committed
the legally and morally violative decisions here.
Federal appellate courts to have addressed this
issue have held that specialized training is not
required for an employee to know that sexual assault
is wrong:
Eighth Circuit: McGuire v. Cooper, 952 F.3d 918,
2020 WL 1069461 at *3 (8th Cir. 2020) (concluding
reasonable supervisor would not know that a failure
to specifically train a deputy not to sexually assault a
woman would cause that deputy to engage in that
behavior); Parrish, 594 F.3d at 999 (“[W]e do not
believe that there is a patently obvious need to train
an officer not to sexually assault women.”); Andrews,
policies or training, … these women or someone else may have
felt able to report the abuse … .”).

App-108
98 F.3d at 1077 (“In light of the regular law
enforcement duties of a police officer, we cannot
conclude that there was a patently obvious need for
the city to specifically train officers not to rape young
women.”).
Ninth Circuit: Flores, 758 F.3d at 1160 (“We agree
with our sister circuits that ‘[i]n light of the regular
law enforcement duties of a police officer’ there is not
‘a patently obvious need for the city [ ] specifically [to]
train officers not to rape young women.’” (quoting
Andrews, 98 F.3d at 1077)).
Tenth Circuit: Schneider, 717 F.3d at 773-74
(rejecting failure-to-train liability because “[s]pecific
or extensive training hardly seems necessary for a
jailer to know that sexually assaulting inmates is
inappropriate behavior” (quoting Barney, 143 F.3d at
1308)); Barney, 143 F.3d at 1308 (same).
Eleventh Circuit: Sewell v. Town of Lake
Hamilton, 117 F.3d 488, 490 (11th Cir. 1997)
(reversing jury verdict against town and rejecting
failure-to-train liability because it is obvious that a
police officer should not “barter arrests for sexual
favors”).
The majority opinion’s expansion of § 1983
liability becomes even more apparent when one
considers how many of the decisions listed above
would have come out the opposite way under the
majority opinion’s rule.
D. Seventh Circuit
For support the majority opinion cites to two
decisions of this court: Woodward v. Corr. Med. Servs.
of Ill., Inc., 368 F.3d 917 (7th Cir. 2004), and Glisson

App-109
v. Indiana Dep’t of Corr., 849 F.3d 372 (7th Cir. 2017)
(en banc). Neither assists here.
In Woodward, this court affirmed a judgment
under Monell when a contractor repeatedly failed to
act in the face of known violations. 368 F.3d at 930.
But unlike here, in Woodward the contractor violated
an express policy and willfully ignored its own policies.
368 F.3d at 926. Woodward was not a failure-to-train
case, and it did not grapple with the requirements of
Canton and Connick; indeed, it mentions neither case.
Woodward also found “a direct link” between the
policy at issue and the constitutional deprivation, an
inmate’s suicide. 368 F.3d at 929. That requirement
comes from Bryan County. 520 U.S. at 404. As noted
above such a link is absent here.
The majority opinion also cites Glisson as a
pathway for J.K.J. and M.J.J. to make their case to a
jury. Glisson held that an inmate healthcare provider
could be liable under § 1983 for failing to establish any
protocol for the coordinated care of inmates with
chronic illnesses. 849 F.3d at 380. But Glisson
involved a failure to enact a policy, not a failure to
train employees. Id. at 382. In Glisson, this court
concluded that the contractor had deliberately chosen
not to have any policy as to the coordination of care,
even though the contractor had actual knowledge that
would result in deprivation of rights. Id. at 382. That
is not the case here. No one disputes the jail had
express zero-tolerance sexual assault policies and
trained its guards about those policies. And, actual
knowledge of sexual assaults is absent here. Even
more, to align with Glisson, sexual assaults by male

App-110
guards would have to be as obvious as not coordinating
care for sick people, which was not shown here.
VII. Conclusion
A lone correctional officer covertly committed
terrible sexual assaults against two jail inmates. That
employee is now behind bars for 30 years and has
millions of dollars of civil judgments against him. At
issue is whether his public employer is also liable for
those crimes.
Under the majority opinion, a single subordinate
employee may secretly override municipal policy and
create a new policy under which that public employer
is accountable. That is vicarious liability, a collapse
into respondeat superior against which the Supreme
Court has repeatedly warned for 60 years. By stepping
out and recognizing fault and causation on these facts,
this decision departs from Supreme Court precedents,
imports a negligence standard into the law of
deliberate indifference, permits federal encroachment
into an area of traditional state authority, and splits
with other federal circuits. On these facts and under
the controlling law, the employee, not the employer,
should be held responsible for these plaintiffs’ injuries.
Therefore, I respectfully dissent in part.

App-111
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
Nos. 18-1498, 18-1499, 18-2170 & 18-2177
________________
J.K.J. and M.J.J.,
v.

Plaintiffs-Appellees,

POLK COUNTY AND DARRYL L. CHRISTENSEN,
Defendants-Appellants.
________________
Argued: Nov. 9, 2018
Decided: June 26, 2019
________________
Before: Bauer, Brennan,
and Scudder, Circuit Judges.
________________
OPINION
________________
BRENNAN, Circuit Judge. Darryl Christensen, a
Polk County, Wisconsin Jail corrections officer,
sexually assaulted plaintiffs J.K.J. and M.J.J. over
three years during their incarcerations. Plaintiffs
sued Christensen and the county under 42 U.S.C.
§ 1983, alleging Eighth and Fourteenth Amendment
claims, in addition to a state law negligence claim
against the county. After trial, the jury found
Christensen and the county liable for J.K.J. and
M.J.J.’s injuries and awarded each $2 million in

App-112
compensatory damages. The jury also levied punitive
damages against Christensen, awarding $3,750,000 to
each plaintiff. Both defendants moved for new trials,
and the county also moved for judgment as a matter of
law. The district court denied those requests and
defendants now appeal the judgments entered against
them.
We see no reason to disturb the jury’s verdict
against Christensen and so affirm the denial of his
request for a new trial. His assaults were predatory
and knowingly criminal. But to impose liability
against the county for Christensen’s crimes, there
must be evidence of an offending county policy,
culpability, and causation. These are demanding
standards. Christensen’s acts were reprehensible, but
the evidence shows no connection between the
assaults and any county policy. We therefore reverse
and remand for entry of judgment in favor of the
county.
I.

BACKGROUND

A. Christensen’s Sexual Assaults
M.J.J. and J.K.J. were inmates at Polk County
Jail at various times between 2011 and 2014.
Christensen admits he engaged in sexual acts with the
women individually. To hide his offenses, Christensen
planned his encounters to occur when no one was
present and in locations where he controlled access.
He also urged plaintiffs not to discuss or report his
sexual advances because he would lose his job and
family if caught. Plaintiffs complied with
Christensen’s secrecy directive and his assaults were
kept hidden from jail officials.

App-113
Polk County authorities discovered Christensen’s
assaults against M.J.J. and J.K.J. after a former
inmate reported her own sexual encounters with
Christensen to an investigator in a neighboring
county. When notified of the former inmate’s
allegations, county authorities initiated an internal
investigation and confronted Christensen, who
immediately resigned. The investigation continued,
which led to the discovery of Christensen’s abuse of
plaintiffs, and ultimately to his prosecution. He
eventually pleaded guilty to several counts of sexual
assault and is serving a 30‐year prison sentence.
B. Trial Evidence
Plaintiffs sued the county and Christensen in
separate actions and the cases were consolidated for
jury trial. Plaintiffs alleged that defendants were
deliberately indifferent to a serious risk of sexual
assault in violation of their Eighth and Fourteenth
Amendment rights, and that the county violated state
law by negligently supervising Christensen.
At trial, Christensen admitted his offenses but
challenged the harms plaintiffs suffered. He argued
plaintiffs consented to his overtures and that their
encounters were the product of “voluntary attraction.”
Although not stated directly, his position implied that
any award of damages should correspond to plaintiffs’
level of consent. Plaintiffs denied consenting to
Christensen’s advances and offered expert testimony
showing their mental trauma from his assaults.
Against the county, plaintiffs made four principal
allegations: (1) the jail’s sexual assault policies and
training were inadequate; (2) the jail customarily
tolerated sexually offensive comments by guards; (3)

App-114
the investigation of a former guard revealed the jail’s
sexual assault policy was inadequate and that the jail
minimized sexual abuse; and (4) the jail failed to
widely implement recommendations under the Prison
Rape Elimination Act (PREA), 34 U.S.C. §§ 30301-09.
The sum of these allegations, plaintiffs argued, prove
the county was deliberately indifferent to a known risk
of sexual assault by jail staff. The county disagreed,
arguing that the trial evidence did not support the
jury’s liability finding and damages awards. These
claims were heavily contested, and we recount the
evidence noting those facts the county disputed.
Although we summarize the trial evidence, on appeal
we view the facts in the light most favorable to the
jury’s verdict. See Lindsey v. Macias, 907 F.3d 517, 518
n.1 (7th Cir. 2018).
1.

Policies and training

Plaintiffs alleged the jail had no policy either to
prevent or detect sexual assaults, and that its policies
on sexual misconduct were “practically nonexistent.”
At trial, the county produced several policies
prohibiting sexual contact between guards and
inmates, and two stand out.
Policy I‐100 forbids any mistreatment or
harassment of inmates, explaining inmates’ rights
and informing them that it is never acceptable for “any
inmate [to] be the object of verbal, physical, emotional,
psychological, or sexual harassment by facility staff.”
The policy continues, “[a]ny officer engaged in such
actions is subject to disciplinary charges and/or
termination.” Inmates are also provided a handbook
when booked into the jail that says:

App-115
Every inmate has the right to be safe from
sexual abuse and harassment. No one has the
right to pressure you to engage in sexual acts.
If you are being pressured threatened, or
extorted for sex, you should report this to staff
immediately.
Likewise, Policy C‐202 prohibits any “intimate
social or physical relationship with a prisoner.” It also
informs jail staff that sexual contact with any inmate
is a criminal offense under Wisconsin law, and any
officer that suspects such conduct has a duty to report
it. See Wis. Stat. § 940.225(2)(h) (categorizing sexual
contact and sexual intercourse by a correctional staff
member with an inmate as a Class C felony).
Plaintiffs also claimed the county never trained
officers to avoid sexual assaults. But the jail’s
onboarding and continuing education programs
instruct employees that sexual contact with prisoners
is a crime and never permitted. The Wisconsin
Department of Corrections (DOC) approved these
programs annually, requiring: (1) eight to ten weeks
of “field training,” during which a new corrections
officer shadows an experienced officer to learn jail
policies and procedures; (2) completion of a 160‐hour
jail training program to become a certified corrections
officer; (3) 24 hours of continuing education each year
to be recertified; and (4) daily training, which includes
specific training on the jail’s prohibition against
fraternizing with inmates.
At trial, Christensen acknowledged the jail
trained him that sexual contact with inmates is a
felony and against jail policies. Specifically,
Christensen testified:

App-116
He knew his conduct violated jail policy;
He was trained his conduct was a crime;
He knew he was putting plaintiffs at risk;
He never forgot that sex with inmates was a
crime; and
• He agreed he did not require more training to
know his conduct was a crime.
Plaintiffs’ expert witness on prison training
standards, Jeffrey Eiser, testified that the jail’s
policies prohibited sexual contact between inmates
and guards. Eiser also corroborated that the county
trained Christensen that sexual contact with inmates
was a felony and against jail policy.
•
•
•
•

To support their contention that the jail never
trained its staff, plaintiffs relied on two witnesses. The
first, Lynelle Manning, was a jailer with the county for
about 20 months. Manning testified that although she
was never officially certified as a correctional officer,
she received “formal training” by the jail and
shadowed a senior officer for weeks. She also received
and read the jail’s policy and inmate booking manuals,
which contain the jail’s prohibition of sexual contact
between guards and inmates. Manning also testified
that during her employment she never heard sexually
charged conversations between jail staff and inmates.
Plaintiffs’ second witness, Sergeant Steven
Schaefer of the county’s sheriff’s department, worked
at the jail from 2002 until 2015. Schaefer testified “we
were all required to attend” countywide training on
sexual harassment. He provided the training to new
employees from time to time. According to Schaefer,
that training instructed on the jail’s numerous
prohibitions between staff and inmates, including

App-117
improper comments, becoming too close or too
familiar, sharing personal information, and sexual
relationships. He also agreed that improper
relationships between inmates and guards were
“something that the jail as a whole took very
seriously.” Notwithstanding Schaefer’s testimony,
plaintiffs’ counsel told the jury during closing
argument: “You heard Sergeant Schaefer say, ‘We
never trained on it. We never trained on it. We never
trained on it.’”
2.

Inappropriate speech

Next, plaintiffs alleged that jail staff routinely
made sexually inappropriate comments about female
inmates without repercussions.
According to plaintiffs, Captain Scott Nargis, who
oversaw daily operations of the jail, was the reason
that sexually offensive speech was accepted at the jail.
During adverse examination, plaintiffs’ counsel asked
Nargis if he ever “engaged in tier talk which is not
necessarily flattering talk amongst co‐workers”;
Nargis answered “yes.” Nargis also agreed that he
participated in tier talk “on occasion” to establish trust
among subordinate officers. Plaintiffs never asked
Nargis on the witness stand if he himself made sexual
comments. Nor did plaintiffs present evidence that
tier talk connoted “sexual talk,” that Nargis’s “tier
talk” was sexually explicit, or that Nargis made
comments sexual in nature with, about, or around
inmates or guards.
Evidence to suggest Nargis knew about offensive
comments by jail staff was scarce and unclear as to
timing. Nargis testified that during Christensen’s
twelve‐year employment, he once heard Christensen

App-118
comment on a female’s “rear end.” He did not recall
whether that comment was made about an inmate.
Nargis also recalled being told that Christensen once
remarked about an inmate’s breasts.
Evidence of inappropriate sexual comments by
other jail staff was also sparse and unspecific. J.K.J.
testified she believed two other corrections officers
once overheard Christensen making flirtatious
comments to inmates. Christensen also testified to
overhearing a jail guard, Allen Jorgenson, and two
other guards make suggestive comments to inmates.
But J.K.J. and Christensen offered no specifics on the
alleged comments, and there was no evidence these
incidents were reported to the county or any jail
supervisor.
3.

Investigation of former guard

At trial, plaintiffs introduced one other allegation
of sexual contact between a jail guard, Jorgenson, and
an inmate, N.S.: another inmate saw Jorgeson put his
arm around N.S.’s waist and “pat her on the butt.”
This occurred in 2012, two years before the discovery
of Christensen’s violations. 1 Sergeant Steven Schaefer
reported these allegations to Nargis, who in turn
questioned Jorgenson and N.S. individually. Each
denied any improper relationship or contact. Despite
these denials, Nargis requested the assistance of chief
deputy sheriff Steven Moe to further investigate
Jorgenson.
To plaintiffs, the Jorgenson investigation proves
the county “minimized” and ignored allegations of a
1 Although Christensen’s assaults began in 2011, the county
first learned of his assaults on October 29, 2014.

App-119
guard assaulting an inmate. At trial, the jury
considered the findings of the Jorgenson investigation,
including Jorgenson’s interactions with N.S. Another
inmate believed Jorgenson and N.S. had an
“inappropriate relationship” but “no physical
relationship.” It was also reported that Jorgenson
misused a jail camera to focus on inmates longer than
necessary. In addition to an internal investigation,
Nargis and Moe reached out to former inmates as part
of their review. Because of inconsistent witness
accounts, Nargis and Moe could not confirm that
Jorgenson engaged in any sexual contact with N.S.
Still, Nargis and Moe concluded that Jorgenson’s
affiliation with N.S. violated jail policy. As a result,
Jorgenson was issued a written reprimand for
“foster[ing] a friendship relationship” by giving
“undue, unfair, or simply too much attention” to N.S.,
who continued to deny any improper actions or
relationship up to the point of Jorgenson’s reprimand.
After Jorgenson was written up, N.S. recanted her
denials in a letter to Nargis. In response, Nargis and
Moe reopened the investigation “to take a whole fresh
look at the situation.” N.S.’s letter detailed that
Jorgensen made sexually harassing gestures and
crude and indecent remarks, and asserted allegations
of Jorgeson putting his arm around N.S.’s waist and
touching her “back and butt.” After this second review,
Nargis and Moe could not confirm these allegations
and decided the reprimand remained the appropriate
level of discipline. At trial, no evidence was submitted
that Nargis or Moe erred in the Jorgenson
investigation or performed their inquiries in bad faith.
In closing, plaintiffs’ counsel argued to the jury that
the “jail knew that one of their trusted friends was

App-120
committing sexual assault against at least one inmate,
N.S.” but considered it “no big deal.”
Jorgenson also made inappropriate remarks, of
which inmates and staff were aware. But there was no
evidence Jorgenson’s improper comments were
reported to Nargis, Moe, or any county policymaker
before the N.S. investigations. On that point, the
county argued the N.S. allegations prompted
complaints by various female coworkers, who claimed
Jorgenson made inappropriate comments to them as
well. Those coworker complaints led to a human
resources investigation that resulted in Jorgenson
resigning.
4.

Prison Rape Elimination Act (PREA)

The county’s sexual assault policies were
inadequate to prevent and detect assaults, and the
county deliberately avoided opportunities to reduce
sexual assault risks, according to plaintiffs. Both
arguments were based on the county’s purported
underutilization of policy recommendations from
PREA.
Again, plaintiffs zeroed in on Nargis. They
claimed the jail intentionally shunned PREA because
Nargis openly “denigrated … PREA standards,” citing
a 2014 email from Nargis to jail staff about PREA
training:
Seems to be that everyone is in a tizzy to train
their staff on PREA. There is no requirement
for use [sic] to be compliant with everything
that the law calls for, but nevertheless it is
federal law. So we’ll hit the basics of PREA
training.

App-121
At trial, plaintiffs termed this “the tizzy email.”
To plaintiffs, Nargis’s choice of the word “tizzy” was
“mocking” PREA and “indicat[ed] that he disliked
PREA.” They also claimed the email never discussed
any specific PREA measures. Rather, it merely
restated the jail’s current antisexual assault policies.
Plaintiffs argued “the tizzy email” proves that Nargis
and the jail “consciously disregarded” PREA
standards, and by extension, disregarded the risk of
sexual assaults at the jail.
Plaintiffs’ expert Eiser opined that the jail’s
sexual assault policies and training were inadequate
because they did not fully adopt certain components of
PREA. Eiser conceded compliance with PREA is not
mandatory for county jails in Wisconsin, and that
PREA standards are better viewed as optional “best
practices.” Eiser also testified there is no empirical
data that compliance with the proposed best practices
would yield a better result. Plaintiffs agree that state
law, not PREA, governs county jails in Wisconsin, but
did not offer evidence that the jail’s sexual assault
policies or training fell below state legal or
administrative standards.
As for compliance with state law, the county
argued the DOC annually reviews the jail’s policies,
including its policy prohibiting fraternization with
inmates. In each year of plaintiffs’ incarcerations, the
DOC found the jail to be in full compliance with all
applicable Wisconsin statutes and regulations.
Language addressing PREA was added to the jail’s
anti‐fraternization policy in 2012, with an
accompanying PREA training in 2014. The county also
noted that in the past nine years, during which the jail

App-122
housed 14,100 inmates, Jorgenson’s circumstance was
the only known improper relationship between a
guard and an inmate.
C. Verdict and Post-Verdict Motions
The district court bifurcated the trial into liability
and damages phases. At the close of the liability
phase, during the jury instruction conference, the
court found the evidence failed to show a pattern of
constitutional
violations
known
to
county
policymakers. As a result, the court excluded this
basis of liability from the jury instructions, leaving
plaintiffs to argue that the “risk of the inadequacy of
the training, supervision, and/or adoption of policies
[was] plainly obvious.” The court also rejected a jury
instruction as to whether plaintiffs consented to
Christensen’s sexual contact and thus reduced
plaintiffs’ harm.
After a five‐day trial, the jury found for plaintiffs
on all claims and awarded each plaintiff $2 million in
compensatory damages against the county and
Christensen. The jury also awarded $3,750,000 to
each plaintiff in punitive damages against
Christensen.
After the verdict, Christensen moved for a new
trial under Fed. R. Civ. P. 59. Christensen argued
there was insufficient proof that he harmed plaintiffs
or was aware of the substantial risk of harm his
actions imposed. The district court rejected these
arguments, relying on plaintiffs’ testimony that they
never consented to Christensen’s advances.
The county also moved for judgment as a matter
of law under Rule 50(b) and for a new trial under Rule
59. This resulted in partial yet hollow success for the

App-123
county—the district court granted judgment to the
county on plaintiffs’ state law negligence claims, but
denied the county judgment on plaintiffs’ § 1983
claims, as well as a new trial.
The district court rejected the county’s contention
that plaintiffs failed to prove it was culpable for and
the cause of Christensen’s violations, as required for
liability under Monell v. New York City Dep’t of Soc.
Servs, 436 U.S. 658 (1978). Although the court noted
the evidence against the county was “not
overwhelming,” it concluded three subjects supported
the verdict: (1) jail supervisor Nargis “generally
acknowledged his awareness of tier talk” at the jail;
(2) Nargis was aware of sexual comments by
correctional officers to inmates and female employees
through the Jorgenson investigation, in addition to
two comments made by Christensen; and (3) the
county held only one PREA training session. For the
district court, this was sufficient evidence for the jury
to find “that Nargis and others within the [county] …
acted with deliberate indifference to the need for
better training, supervision and policies.” So the
verdict against the county remained intact. 2

On plaintiffs’ state law claims of negligent training and
supervision, the district court concluded the county was entitled
to immunity under WIS. STAT. § 893.80(4). Opinion and Order
at 3-6, J.K.J. v. Polk Cty., No. 15-CV-428 (W.D. Wis. Feb. 5, 2018),
ECF No. 279. Plaintiffs do not appeal this decision, nor do they
appeal the district court’s liability phase ruling that plaintiffs
failed to offer proof of a pattern of prior constitutional violations
known to policymakers.
2

App-124
II. DISCUSSION
The county and Christensen both argue the
district court improperly denied them judgment as a
matter of law or a new trial under Rules 50 and 59. At
the outset, we note Christensen never filed a postverdict motion for judgment as a matter of law under
Rule 50. Without such a motion, he forfeited his
request for judgment under that rule, and our review
is limited to his request for a new trial under Rule 59.
See Unitherm Food Sys., Inc. v. Swift-Eckrich, Inc.,
546 U.S. 394, 400-01, 404-05 (2006); accord Collins v.
Lochard, 792 F.3d 828, 831 (7th Cir. 2015).
A district court may enter judgment as a matter
of law under Rule 50 when it “finds that a reasonable
jury would not have a legally sufficient evidentiary
basis” to support its verdict. Fed. R .Civ. P. 50(a)(1);
see also Rule 50(b). We review the denial of a Rule 50
motion de novo and proceed “on the basis of the
evidence the jury actually had before it.” Houskins v.
Sheahan, 549 F.3d 480, 493 (7th Cir. 2008) (internal
citation omitted) (denying Monell claim). We will
overturn a jury verdict if it is clear plaintiffs failed to
present enough evidence to support their claims. Id.
(citing Filipovich v. K & R Express Sys., Inc., 391 F.3d
859, 863 (7th Cir. 2004)). “Our job is to assure that the
jury had a legally sufficient evidentiary basis for its
verdict.” Filipovich, 391 F.3d at 863.
Under Rule 59, a district court may order a new
trial “for any reason for which a new trial has
heretofore been granted in an action at law in federal
court.” Fed. R. Civ. P. 59(a)(1)(A). A new trial is
appropriate if the jury’s verdict is against the manifest
weight of the evidence or if the trial was in some way

App-125
unfair to the moving party. Martinez v. City of
Chicago, 900 F.3d 838, 844 (7th Cir. 2018) (citation
and quotation marks omitted). We will not disturb a
district court’s Rule 59 decision except under
exceptional circumstances showing a clear abuse of
discretion. Id.
First, we consider whether the district court
improperly refused to grant the county’s motion for
judgment as a matter of law. Later, we turn to
Christensen’s claim that he is entitled to a new trial.
A. The County
The county argues Monell precludes the jury’s
finding of § 1983 liability against it. Under Monell, “a
municipality can be found liable under § 1983 only
where the municipality itself causes the constitutional
violation at issue.” City of Canton, Ohio v. Harris, 489
U.S. 378, 385 (1989) (emphasis in original); see also
Connick v. Thompson, 563 U.S. 51, 60 (2011) (“[U]nder
§ 1983, local governments are responsible only for
their own illegal acts.” (emphasis in original)). Thus, a
municipality cannot be held liable under § 1983 solely
because one of its agents or employees may have
violated an individual’s constitutional right. Monell,
436 U.S. at 691, 694 (rejecting § 1983 liability
predicated on theory of respondeat superior). Instead,
a municipality’s own policy or custom must have
caused the constitutional violation. Id.; Glisson v.
Indiana Dep’t of Corr., 849 F.3d 372, 379 (7th Cir.
2017) (en banc) (“The central question is always
whether an official policy … caused the constitutional
violation.”).
To establish municipal liability under Monell, a
plaintiff must prove three things. First is the existence

App-126
of an unconstitutional policy. This can be done by
showing either: (a) an express policy that, when
enforced, causes a constitutional deprivation; (b) a
widespread practice that, although not authorized by
written law or express policy, is so permanent and well
settled as to constitute a custom or usage with the
force of law; or (c) that the constitutional injury was
caused by a person with final decision policymaking
authority. Spiegel v. McClintic, 916 F.3d 611, 617 (7th
Cir. 2019). Second is that the municipality is culpable,
which means the municipality’s policymakers were
deliberately indifferent to a known or obvious risk that
a policy or custom would lead to constitutional
violations. Board of Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397, 407, 410 (1997) (citing Canton, 489 U.S.
at 388). Third, the municipality’s policy must “directly
cause[] a deprivation of federal rights.” Id. at 415. In
other words, the county’s own actions must be the
“moving force” behind plaintiff’s injuries. Id. at 404.
An unconstitutional policy can include implicit
policies, or a gap in expressed policies. Daniel v. Cook
Cty., 833 F.3d 728, 734 (7th Cir. 2016) (citations
omitted). Either way, plaintiffs must prove an actual
policy is at issue, not a random event. See Calhoun v.
Ramsey, 408 F.3d 375, 380 (7th Cir. 2005). Here,
plaintiffs alternate between arguing Christensen’s
violations were the byproduct of an implicit policy,
reflected in the jail’s alleged widespread practice and
custom of “allow[ing] and encourag[ing] inappropriate
sexual behavior,” and purported gaps in the county’s

App-127
express sexual assault policies, reflected in the
absence of PREA measures. 3
At trial, plaintiffs advanced a number of theories
of the county’s liability under Monell. We start with
plaintiffs’ claim that the county was deliberately
indifferent to a known and obvious risk that its
express policies would lead to, and in fact caused,
Christensen’s assaults. Then, we consider whether
plaintiffs’ general allegations against the county
amount to an implicit policy, i.e., a widespread
practice or custom, that permits sexual misconduct by
jail staff; and if so, whether the county’s deliberate
indifference to that policy caused Christensen’s
assaults. Next, we examine plaintiffs’ contention that
the county was deliberately indifferent to the need for
more training and supervision, causing plaintiffs’
injuries. After that, we address whether Christensen’s
constitutional violations were a highly predictable
consequence of the jail’s failure to train its staff
allowing for single-incident liability. Last, we consider
the sufficiency of the evidence in light of the county’s
motion for judgment as a matter of law, which the
district court denied.
The district court concluded Nargis was a policymaking
official. The county challenges this finding. An “official policy” is
the predicate for municipal liability under Monell. See Pembaur
v. City of Cincinnati, 475 U.S. 469, 478 (1986). But even if
Nargis’s acts are said to represent the county’s official policy, the
evidence still fails to show a connection between the assaults and
any county policy, much less any policy attributed to Nargis.
Because it does not affect the outcome of this case, we need not
resolve the question whether Nargis possessed the requisite
policymaking authority to establish an official policy within the
meaning of Monell.
3

App-128
1.

Express policies

The express terms of the jail’s sexual assault
policies (I-100 and C-202, described above) are not
constitutionally suspect, per plaintiffs. Instead, they
challenge alleged gaps or omissions in those policies.
Plaintiffs contend the policies do not provide adequate
measures to prevent and detect sexual assault—
namely, measures suggested by PREA. “[T]he absence
of a policy might reflect a decision to act
unconstitutionally, but the Supreme Court has
repeatedly told us to be cautious about drawing that
inference.” Calhoun, 408 F.3d at 380 (citing Bryan
Cty., 520 U.S. at 409 and Canton, 489 U.S. at 388).
On this theory, the county’s culpability hinges on
whether it was deliberately indifferent to an obvious
need to update or enhance its sexual assault policies.
Liability could be established by showing the county
adhered to a policy that it knew, or should have
known, failed to prevent assaults by jail staff. But
plaintiffs supplied no evidence of policy violations
putting the county on notice of a sexual assault
problem to resolve or act upon. Cf. Woodward v.
Correctional Med. Servs. of Ill., Inc., 368 F.3d 917, 930
(7th Cir. 2004) (affirming judgment under Monell
where evidence showed contractor violated the
defendant’s express policies and repeatedly failed to
act in the face of known violations). Even plaintiffs’
expert, Eiser, conceded the Jorgenson incident did not
downgrade the jail’s good record on this front.
To try to address this lack of evidence, on appeal
plaintiffs interline a proposition in Glisson with
bracketed materials: “the existence of the [PREA]
Guidelines, with which [Nargis] was admittedly

App-129
familiar, is evidence that could persuade a trier of fact
that [Polk County] consciously chose the approach
that it took.” Brief of Plaintiffs-Appellees at 33, J.K.J.
v. Polk Cty., Nos. 18-1498 and 18-2170 (7th Cir. Oct.
3, 2018), quoting Glisson, 849 F.3d at 380. But Glisson
concerned whether a defendant “had a policy to
eschew any way of coordinating [health] care.” Id. at
381. Here, the county enforced, rather than avoided,
written policies prohibiting any form of sexual contact.
Plaintiffs’ Glisson “parallel” ignores that municipal
fault still must be established. Without knowledge of
an obvious risk, plaintiffs’ argument is unavailing.
Plaintiffs fare no better blaming the county for
underuse of PREA. Their argument implies PREA
binds states to implement and enforce its guidelines.
But PREA, a federal statute, imposes no such
obligations on county-run jails. See 34 U.S.C.
§§ 30301-09. Wisconsin law governs the county’s
sexual assault policies, and its prohibition of sexual
contact between guards and inmates is absolute. Wis.
Stat. § 940.225(2)(h); see also Ramos v. Hamblin, 840
F.3d 442, 444 (7th Cir. 2016) (noting Wisconsin DOC
rules corresponding with PREA make the prevention
of prison rape a “priority concern”). Likewise, the
county’s policies prohibit such contact, and the county
showed that its policies fully complied with all
applicable Wisconsin statutes and regulations.
Wisconsin may elect to adopt or fully comply with
PREA standards. See 34 U.S.C. § 30307(e)(2)(A). But
where Wisconsin has not incorporated components of
PREA into its laws and regulations, it is beyond the
role of federal courts to render those components a
constitutional requirement. See Bryan Cty., 520 U.S.
at 415 (admonishing that “[a] failure to apply

App-130
stringent culpability and causation requirements
raises serious federalism concerns” and “risks
constitutionalizing” requirements states have not
chosen to impose).
“[D]eliberate indifference is a stringent standard
of fault,” and not even a showing of heightened
negligence will suffice to establish liability. Bryan
Cty., 520 U.S. at 407, 410. Proof is required that a
county policymaker disregarded a known or obvious
consequence of his action or inaction. Id. at 410; see
also Connick, 563 U.S. at 61 (citation omitted). Here,
PREA might have been relevant to show a conspicuous
flaw in the county’s policies, but the record shows no
evidence of such a flaw. When Christensen assaulted
plaintiffs, the jail had no history of sexual assaults and
operated under zero-tolerance sexual assault policies.
Eiser’s ratification of the jail’s “good record” before the
jail learned of Christensen’s sexual assaults shows
that the jail reasonably relied on the effectiveness of
its express policies. In the absence of other evidence,
we conclude no rational jury could infer that the jail’s
express policies were obviously deficient, that the
county was or should have been aware that jail policies
were inadequate, that assaults were imminent, or that
PREA sets the norm.
As for causation, plaintiffs offered no facts at trial
from which the jury could conclude that a gap in the
county’s express sexual assault policies caused their
injuries. See Bryan Cty., 520 U.S. at 406 (observing
that challenges to a facially valid municipal policy
“present much more difficult problems of proof”). Nor
on appeal do plaintiffs point to any such facts. The
Supreme Court demands that courts “carefully test

App-131
the link between the policymaker’s inadequate
decision and the particular injury alleged.” Id. at 410.
After examining the express policies here, we cannot
conclude the county was culpable for, or its sexual
assault policies caused, Christensen’s assaults.
2.

Implicit policy

The county’s real policy was to ignore its policies,
according to plaintiffs, as shown by Nargis’s admission
of tier talk, the tizzy email, inappropriate staff
comments, and the Jorgenson investigation. Plaintiffs
contend the sum of these improprieties resulted in a
widespread practice of allowing and encouraging
sexual misconduct.
Nargis was a focal point of plaintiffs’ implicit
policy claim, beginning with the allegation that he
promoted a “toxic culture” by participating in tier talk
and acceding to offensive remarks by jail staff. In our
de novo review of the record, however, this allegation
lacks support. The only reference at trial to “tier talk”
occurred during plaintiffs’ examination of Nargis. And
when Nargis admitted to “tier talk,” he did so only
within plaintiffs’ limited definition (“not necessarily
flattering talk”). Plaintiffs failed to include that their
definition encompassed a sexual subtext. Rather,
plaintiffs grafted a sexual connotation onto the term
after trial in response to the county’s appeal. 4 The
record also contains no evidence that Nargis’s tier talk
4 The district court’s order on the county’s Rule 50 motion also
assumes “tier talk” had a sexual implication despite the lack of
any trial evidence or definitional reference that “tier talk”
included a sexual component. See Opinion and Order at 8-9,
J.K.J. v. Polk Cty., No. 15-CV-428 (W.D. Wis. Feb. 5, 2018), ECF
No. 279.

App-132
was sexually explicit, profane, or insensitive. Despite
this evidentiary void, plaintiffs mischaracterize the
record in their response on appeal: “Captain Nargis
routinely engaged in sexually explicit ‘tier talk.’” 5
Our dissenting colleague concludes that a
reasonable jury could find that Nargis’s tier talk was
sexual in nature. But we believe this inference relies
on plaintiffs’ post‐trial rebranding of the phrase.
Although we view the facts in the light most favorable
to the jury’s verdict, we are not required to draw
unreasonable inferences. Tindle v. Pulte Home Corp.,
607 F.3d 494, 496 (7th Cir. 2010). Only reasonable
inferences may be considered. See Hermes v. Hein, 742
F.2d 350, 353 (7th Cir. 1984). At trial, in questioning
other witnesses about indecent remarks, plaintiffs
routinely and frequently used concrete and specific
terms such as “sexual comments,” “inappropriate
comments,” and “sexual harassment.” None of these
defined terms were used when plaintiffs questioned
Nargis about tier talk. We therefore cannot assume
that Nargis’s admission of “not necessarily flattering
talk” means “sexual talk.” Instead, we take plaintiffs
at their word that “tier talk” means what they told
Appellees’ Br. at 14. This was not the only
mischaracterization in that brief. Steven Schaefer testified that
all jail officers were required to attend countywide training on
sexual harassment, which included the jail’s prohibition of sexual
assaults. At times, Schaefer even gave the training. But
plaintiffs’ appeal brief declares: (1) “Sergeant Steven Schaefer
also testified to never receiving any training regarding sexual
assault”; and (2) Manning and Schaefer “unanimously agreed
that they received no training on sexual assault at any time.”
Appellees’ Br. at 13. Counsel for plaintiffs said the same during
closing arguments.
5

App-133
Nargis it means. That Nargis conceded to nondescript
tier talk does not prove that he promoted a “toxic
culture.” Nor does it prove the county ignored relevant
policies.
The claim based on the “tizzy email” that Nargis
mocked and disliked PREA also does not help
plaintiffs. Even if we assume Nargis on one occasion
discredited PREA, this does not constitute a policy of
permitting sexual assaults. Nor can we infer that a
supervisor’s one-time use of a condescending noun
(“tizzy”) establishes a conscious disregard for
measures to prevent sexual assaults.
As for inappropriate remarks by staff, plaintiffs
introduced the following evidence: (1) J.K.J. testified
two officers overheard Christensen making flirtatious
comments to inmates; (2) Christensen testified he
overheard three guards make suggestive remarks to
inmates; and (3) Nargis knew of two inappropriate
remarks made by Christensen over a twelve-year
period. 6 We consider whether this proof reflected an
implicit policy under the applicable law.
Monell claims based on an unconstitutional
implicit policy require proof of a “widespread” practice.
See Bryan Cty., 520 U.S. at 404; see also Monell, 436
U.S. at 692 (defining a widespread practice as one that
is “persistent,” “permanent,” and “well settled”).
“[P]roof of isolated acts of misconduct will not suffice;
a series of violations must be presented to lay the
6 Sergeant Schaefer testified that Jorgenson made one “or
maybe two” inappropriate comments to him over a nine-year
period. Because Schaefer did not believe the comments rose to a
level warranting discipline, however, he neither reported them to
management nor explained the nature of those comments at trial.

App-134
premise of deliberate indifference.” Palmer v. Marion
Cty., 327 F.3d 588, 596 (7th Cir. 2003) (citation
omitted) (“A series of violations is necessary”; two
incidents in one year is not enough). The offensive
comments overheard by J.K.J. and Christensen are
unclear; no evidence was adduced as to exactly what
was said, the context of the remarks, or when they
were said. Nor were these comments reported to
Nargis or any other jail supervisors. These two
allegations of unreported and undefined remarks
(outside of those later learned during the Jorgenson
investigation) here are insufficient to show a
widespread custom or practice. See Doe v. Vigo Cty.,
Indiana, 905 F.3d 1038, 1045 (7th Cir. 2018) (holding
three incidents of sexual contact, two instances of
inappropriate remarks, two allegations of sexual
harassment, and one example of cornering an
employee for sex, taken together, failed to establish a
widespread county practice). 7 Likewise, Nargis’s
On a number of occasions this court has considered the
quantity and frequency of violations required to qualify as a
“widespread” pattern or practice in a correctional facility. See
Pittman ex rel. Hamilton v. Cty. of Madison, Ill., 746 F.3d 766,
780 (7th Cir. 2014) (36 suicide attempts and three successful
suicides in five-year period does not evidence that the jail’s
suicide prevention policies are inadequate); Walker v. Sheahan,
526 F.3d 973, 977 (7th Cir. 2008) (783 excessive force complaints
at jail over a 5-year period, none of which resulted in an
indictment, does not support inference of a widespread practice
of excessive force); Klebanowski v. Sheahan, 540 F.3d 633, 638
(7th Cir. 2008) (the recovery of 14 shanks after two gang attacks,
one of which involved a stabbing by a shank, is insufficient to
establish the existence of a widespread practice of allowing gang
members to keep weapons in their jail cells); Grieveson v.
Anderson, 538 F.3d 763, 774 (7th Cir. 2008) (“One broad, vague
statement about an occurrence affecting other inmates in a
7

App-135
personal knowledge of two inappropriate remarks by
Christensen over twelve years falls short of indicating
a widespread unconstitutional practice. See Palmer,
327 F.3d at 596 (concluding personal knowledge of two
incidents of misconduct by officers in a period of one
year is insufficient to indicate a widespread practice).
Given the law’s requirements, including as to quantity
and to frequency, we do not conclude these suggestive
and inappropriate remarks amounted to a
“widespread practice” so as to constitute an
unconstitutional implicit policy.
Next,
plaintiffs
contend
the
Jorgenson
investigation gave the county sufficient notice that its
sexual assault policies were deficient. The allegations
of Jorgenson’s improper contact—including putting
his arm around an inmate’s waist, and patting her
backside—while on the same spectrum of sexual
harassment and assault as Christensen’s conduct, are
not of the same degree as Christensen’s repeated and
coercive sexual abuse. See Vigo Cty., 905 F.3d at 1045
(distinguishing between sexual harassment and the
trauma of sexual assault).
Nevertheless, the record shows the jail responded
equally to these two incidents. After two
investigations, the jail found it “probably more likely”
Jorgensen engaged in “inappropriate touching,” but it
was unable to confirm the allegations. See id. at 1047
detention facility does not support the inference of a ‘widespread’
custom.”); Estate of Moreland v. Dieter, 395 F.3d 747, 759-60 (7th
Cir. 2005) (“[Three incidents of improper use of pepper spray] do
not amount to ‘a widespread practice’ that is ‘permanent and well
settled’ so as to constitute an unconstitutional custom or policy
about which the sheriff was deliberately indifferent.”).

App-136
(holding no breach of duty to plaintiff where “the
County investigated but could not substantiate one
vague complaint against Gray, and it warned him for
making sexualized comments to a coworker”).
Unverified allegations of inappropriate touching of
and humiliating comments toward one inmate over a
nine-year period 8 falls short of establishing a
widespread practice or custom. See id. at 1046-47 (“A
business is not alerted to the possibility that an
employee might rape a member of the public by having
faced the occasional, but unfortunate, predicament of
employee sexual harassment, including groping.”). We
also note, once more, that plaintiffs’ expert agreed the
jail had a good record on this topic, including when
considering the Jorgenson incident.
The evidence gleaned from Jorgenson’s human
resources investigation runs into the same problems.
The county does not dispute Jorgenson’s comments to
female coworkers were inappropriate. And plaintiffs
do not dispute those comments went unreported until
the N.S. investigation. Even if the county was
somehow responsible for Jorgenson’s boorishness, it
was not deliberately indifferent to whether the
problem continued. When staff notified the county of
Jorgenson’s behavior, an investigation ensued,
showing the county’s diligence, and Jorgenson
resigned. See Vigo Cty., 905 F.3d at 1046 (“[A]ccepting
resignations in lieu of firings [does not] reflect[]the
County’s deliberate indifference.”).

8 Plaintiffs’ expert, Eiser, reviewed the jail’s records from 2008
to the date of plaintiffs’ trial in 2017.

App-137
Our recent decision in Vigo County is instructive
on the quantum of proof necessary to establish a
county’s custom or practice of failing to prevent or
respond to its employees’ sexual misconduct. In that
case, the plaintiff, Doe, volunteered at a park where
Vigo County’s employee, David Gray, worked. Doe
alleged Gray locked her in the park’s restroom area
and forced her to perform oral sex and digitally
penetrated her vagina. Vigo Cty., 905 F.3d at 1041.
Gray was charged with rape, criminal confinement,
and official misconduct, and he was convicted of the
latter two offenses. Id.
Doe sued Vigo County, alleging it failed to take
seriously or to address a risk of sexual violence posed
by its employees. Id. at 1044-45. The record contained
no evidence of any county employee having forced
another to engage in a sexual act or having confined
an individual to harm her. Id. at 1045. Instead, the
record revealed “[s]ome involved sexual misconduct,
but none resulted in coerced sexual activity, nor does
the record suggest that employee misconduct
occasioned impunity.” Id. at 1045. 9 This court held
In Vigo County, this court held the following offenses by
county employees, among others, were “not enough to establish a
custom or practice giving rise to Doeʹs injuries”: (1) a jail guard
was prosecuted for having sexual contact with an inmate at the
county jail; (2) the county recorder pleaded guilty to battery for
groping an employee; (3) a parks mechanic was accused of
inappropriately cornering one coworker, telling another that he
wanted to have sex with her, and placing his hands on the latter’s
breast and down her pants; (4) another parks employee was fired
for treating coworkers poorly and making an “off‐color” comment
to another employee; and (5) a civil complaint was filed accusing
a highway department supervisor of sexual harassment. 905 F.3d
at 1045. Specific to the public park where plaintiff was assaulted,
9

App-138
that “a handful of incidents of misconduct by
employees of Vigo County” over the past 20 years, “is
not enough to establish a custom or practice that gave
rise to Doe’s injuries, nor can it support a finding of
indifference on the part of Vigo County officials.” Id.
Like Vigo County, in this trial plaintiffs failed to
put forth evidence of any jail employee engaging in
criminal acts like Christensen. The other allegations
plaintiffs recount, though contemptible, are different
from the trauma plaintiffs experienced. See id. And
because plaintiffs rely on indirect proof of a
widespread practice, they “must introduce evidence
demonstrating that the unlawful practice was so
pervasive that acquiescence on the part of
policymakers was apparent and amounted to a policy
decision.” Dixon v. Cook Cty., 819 F.3d 343, 348 (7th
Cir. 2016) (citation omitted). Nargis’s tier talk, the
tizzy email, rare and unreported staff comments, and
the Jorgenson investigation do not amount to evidence
of persistent or pervasive sexual misconduct so
obvious as to imply acquiescence of county
evidence showed that her attacker, Gray: (1) acted
inappropriately to a park visitor’s wife; and (2) received a
reprimand for inappropriate comments made to a coworker. Id.
Our dissenting colleague sees these previous incidents
dispersed “throughout the county,” but we see them differently.
Four involved employees from the same county parks
department, and two involved the same park and the same
employee who assaulted the plaintiff in that case. The decision
also references that a parks department employee other than
Gray physically accosted one employee and sexually assaulted
another. Despite all of these incidents, this court held that the
plaintiff failed to show Vigo County’s deliberate indifference
toward sexual misconduct. Id. at 1046.

App-139
policymakers. Above all, plaintiffs offered no evidence
county officials knew or should have known that any
of its practices or customs would allow or encourage—
much less cause—Christensen to commit the
abhorrent acts which happened to plaintiffs.
Because the trial evidence contains no facts that
plausibly suggest a widespread practice of sexual
assaults or acquiescence to sexual conduct at Polk
County Jail, the record does not support a finding that
the county maintained an implicit policy that that
served as the cause of their injuries.
3.

Failure-to-train

Plaintiffs’ third liability theory is that the
county’s training “was entirely deficient and
independently established deliberate indifference.”
This failure-to-train theory runs into difficulties. On
the evidence presented at trial, it allows a jury to
conclude liability outside the correct legal framework,
and it relies on inferences expressly rejected by the
Supreme Court. Further, the trial record does not
show a direct causal link between the alleged failure
to train and their injuries as required by Monell and
its related case law.
On appeal of a jury verdict, we afford a generous
standard of review to avoid supplanting our view of
the credibility or the weight of the evidence for that of
the jury. Massey v. Blue Cross-Blue Shield of Illinois,
226 F.3d 922, 925-26 (7th Cir. 2000) (affirming
judgment as a matter of law overturning verdict in
plaintiff’s favor because evidence failed to support the
jury’s finding of discrimination). But juries are not free
to disregard governing legal standards. On the
question of municipal liability, Monell and its limits

App-140
control the calls juries are allowed to make, including
for failure-to-train claims. See, e.g., Canton, 489 U.S.
at 399 (O’Connor, J., concurring in part and dissenting
in part) (“Allowing an inadequate training claim such
as this one to go to the jury based upon a single
incident would only invite jury nullification of
Monell.”).
A failure-to-train claim fails without a pattern of
similar violations, unless that claim “fall[s] within the
narrow range of ‘single-incident liability’ hypothesized
in Canton.” Connick, 563 U.S. at 71-72 (“[A] pattern of
violations [is] necessary to prove deliberate
indifference in § 1983 actions alleging failure to
train.”); see also Canton, 489 U.S. at 390 n.10. “A
municipality’s culpability for a deprivation of rights is
at its most tenuous where a claim turns on a failure to
train.” Connick, 563 U.S. at 61 (citing Oklahoma City
v. Tuttle, 471 U.S. 808, 822-23 (1985) (plurality
opinion) (“[A] policy of ‘inadequate training’” is “far
more nebulous, and a good deal further removed from
the constitutional violation, than was the policy in
Monell.”). Here, plaintiffs agreed there is no pattern of
similar violations at the jail to establish deliberate
indifference. 10 In so doing, they deny proof of a
fundamental element of failure-to-train liability.

See Appellees’ Br. at 45 n.10 (“Plaintiffs do not argue on
appeal that deliberate indifference is established here due to a
pattern of similar past incidents.”). Also, the district court held
“that plaintiffs failed to put forth sufficient evidence to support
finding a pattern of constitutional violations known to policymakers.” Opinion and Order at 7, J.K.J. v. Polk Cty., No. 15-CV428 (W.D. Wis. Feb. 5, 2018), ECF No. 279.
10

App-141
The degree of culpability in failure-to-train cases
must amount to deliberate indifference. Connick, 563
U.S. at 63. Although plaintiffs do not contend they
proved a pattern of similar violations, they claim
“myriad evidence” of inadequate training supported a
finding of deliberate indifference. See, e.g., id. at 62.
But plaintiffs’ contention here requires reliance on the
same chain of inferences rejected in Connick. In
Connick, the Court analyzed whether failure-to-train
liability could be imposed on a district attorney’s office
for a rogue prosecutor’s deliberate violation of Brady
v. Maryland, 373 U.S. 83 (1963). The Court declined
to conclude four prior Brady violations was a pattern
of similar violations. Connick, 563 U.S. at 54, 62-63.
Without such a pattern, the plaintiff could not prove
that the district attorney had actual or constructive
notice of, and was therefore deliberately indifferent to,
a need for more or different Brady training. Id. at 59,
61-63, 72. As a result, the district court’s $14 million
judgment against the district attorney was
overturned. Id. at 72.
Here, we consider whether failure-to-train
liability may be imposed on the county for a rogue
guard’s deliberate violation of jail policy, county
training, and Wisconsin law. We follow Connick’s
approach, which required incidents “similar to the
violation at issue” to “put [a policymaker] on notice
that specific training was necessary to avoid this
constitutional violation.” Id. at 62. “Without notice
that a course of training is deficient in a particular
respect”—here, the prevention of sexual assaults—
“decisionmakers can hardly be said to have
deliberately chosen a training program that will cause
violations of constitutional rights.” Id. at 62-63.

App-142
Under Connick, we conclude the evidence before
the jury could not, standing alone, have prompted
notice that more or different training was necessary to
prevent similarly appalling violations. Jorgensen’s
alleged actions and behavior were wrong and
degrading. Yet these twice investigated but unverified
allegations, including placing his hands around N.S.’s
waist and touching her backside, along with
Jorgenson’s other reproachable conduct, do not
prompt notice that specific training was necessary to
avoid Christensen’s repeated sexual assaults.
Because the trial evidence contained no instances
or pattern of comparable actions, the county cannot be
said to have adhered to an approach that it knew or
should have known failed to prevent similar
violations. Connick, 563 U.S. at 62; Bryan Cty., 520
U.S. at 409. A failure-to-supervise claim fails for the
same reasons. The record does not establish a
likelihood of the type of harm plaintiffs suffered to
have obligated the county to prevent its occurrence.
See Vigo Cty., 905 F.3d at 1046 (holding same).
The dissent concludes three “primary points”
prompted notice that more training was required: (1)
Nargis’s tier talk; (2) information gleaned from the
Jorgenson investigation; and (3) irregular examples of
inappropriate remarks by certain guards over a
twelve‐year period. But as offensive as they are, none
of these points involved the clandestine and
conscienceshocking repeated sexual assaults of
inmates. To demonstrate deliberate indifference to the
risk of constitutional violations, Connick requires “[a]
pattern of similar constitutional violations by
untrained employees.” Connick, 563 U.S. at 62

App-143
(emphases added). The record shows no pattern of
violations similar to Christensen’s conduct, and
importantly, no dispute that Christensen was trained
that his conduct was illegal. 11 In fact, at trial
Christensen admitted he did not require more training
to know his conduct was a crime. 12 For these reasons,
we respectfully part ways with our dissenting
colleague’s failure-to-train evaluation.
To be sure, “[i]f a program does not prevent
constitutional violations, municipal decisionmakers
may eventually be put on notice that a new program
is called for.” Bryan Cty., 520 U.S. at 407. To show the
county ignored such notice, plaintiffs must produce
evidence “of a series of constitutional violations from
which deliberate indifference can be inferred.” Estate
of Novack ex rel. Turbin v. Cty. of Wood, 226 F.3d 525,
531 (7th Cir. 2000); see also Hahn v. Walsh, 762 F.3d
617, 637 (7th Cir. 2014) (holding plaintiffs failed to
“show[] that there was a ‘series of unconstitutional
acts from which it may be inferred that the [sheriff]
knew [correctional center] officers were violating the
constitutional rights of [correctional center] inmates
and did nothing”) (quoting Estate of Novack, 226 F.3d
at 531). In failure-to-train cases, the constitutional
See Transcript of Jury Trial at 63-64, J.K.J. v. Polk Cty., No.
15-CV-428 (W.D. Wis. Feb. 1, 2017), ECF No. 258 (testimony of
Christensen): “Q: Now, did you tell Chief Deputy Moe, gee, I
didn’t think I did anything wrong because you didn’t train me? A:
No sir.”
11

12 See Transcript of Jury Trial at 64, J.K.J. v. Polk Cty., No. 15CV-428 (W.D. Wis. Feb. 1, 2017), ECF No. 258 (testimony of
Christensen): “Q: You didn’t try to tell the circuit court that you
did it because you didn’t have training and you forgot that it was
a crime. You didn’t use that as a defense, did you sir? A: No, sir.”

App-144
violations must be “similar to the violation at issue,”
Connick, 563 U.S. at 63; here, sexual assaults.
Yet Christensen’s assaults on plaintiffs were both
hidden and unprecedented. Testifying on these facts,
plaintiffs’ prison training expert agreed the county
had a good record—even factoring in Jorgenson’s
misconduct—because of the lack of incidents of sexual
contact between guards and inmates, let alone
coercive assaults like Christensen’s. Cf. Woodward,
368 F.3d at 926 (involving systemic failure to enforce
a jail suicide-prevention program). There was no
series of sexual assaults at the jail from which the
county was aware its sexual assault training was
inadequate, and chose to do nothing in the face of such
knowledge. See Hahn, 762 F.3d at 637 (holding seven
inmate deaths in jail from different causes than
decedent’s “do not show that [sheriff] was aware of any
risk posed by [his] policies or that [sheriff] failed to
take appropriate steps to protect [decedent]”). Nor
does the trial evidence show “continued adherence” to
training resulting in flaws exposed by repeated
wrongdoing. Bryan Cty., 520 U.S. at 407. Connick
presents stringent fault standards for a failure-totrain claim, and admonishes that unless an exception
applies, failure-to-train liability is available only when
“a pattern of similar violations” establishes a “policy of
inaction.” Connick, 563 U.S. at 72. 13
13 The dissent suggests that under Glisson “the key” in
evaluating a failure-to-train claim “is whether there is a
conscious decision not to take action,” irrespective of whether the
record reflected examples of similar constitutional violations. See
Glisson, 849 F.3d at 381. But Glisson involved a failure to enact
a policy, not a failure to train employees. Id. at 382 (holding an
inmate healthcare provider could be liable under § 1983 for

App-145
Even if the trial record showed sufficient evidence
the county failed to train, that record still must
contain proof of causation. When evaluating Monell
claims, the Supreme Court has instructed courts to
adhere to “rigorous” causation requirements. Bryan
Cty., 520 U.S. at 415.
The trial evidence showed that the “moving force,”
id. at 404, behind the assaults on plaintiffs was not a
failure to give jail guards additional training. Rather,
it was a predatory employee—who does not merit the
term “guard”—who furtively abused his power and
preyed upon inmates. From the witness stand,
Christensen confessed his behavior was irrepressible:
he admitted he was trained his actions were criminal
and violated jail policy; he agreed he did not require
more training to know his assaults were a crime; he
knew he was placing plaintiffs at risk; and he operated
under the delusion that his conduct was welcome,
consensual, and a product of “mutual voluntary
attraction.” When juxtaposing these facts with the
absence of any similar violations at the jail,
Christensen—not a failure to train—was the moving
force behind the deprivation of plaintiffs’ federal
rights.
At trial and on appeal, plaintiffs have offered no
more than conclusory assertions that Christensen’s
lack of training caused their injuries. The trial record
also does not reveal an affirmative link between a
failure to train and plaintiffs’ injuries. The dissent
identifies this gap—“[w]hat was missing”— and cites
failing to establish any protocol for the coordinated care of
inmates with chronic illnesses).

App-146
the need for more training on “the inherent
vulnerability” of the confinement setting, as well as
the harm caused by sexual abuse. “But showing
merely that additional training would have been
helpful in making difficult decisions does not establish
municipal liability.” Connick, 563 U.S. at 68. “Proving
that an injury or accident could have been avoided if
an employee had had better or more training,
sufficient to equip him to avoid the particular injurycausing conduct will not suffice.” Id. (internal brackets
and quotation marks omitted). “In virtually every
instance where a person has had his or her
constitutional rights violated by a city employee, a
§ 1983 plaintiff will be able to point to something the
city ‘could have done’ to prevent the unfortunate
incident.” Canton, 489 U.S. at 392 (citing Tuttle, 471
U.S. at 823 (plurality opinion)). Even plaintiffs’ expert
on prison training standards, Eiser, conceded no proof
exists that better or more training could have
dissuaded Christensen from his predatory behavior
and established causation. 14
Our dissenting colleague warns of the risk of
sexual attacks at jails “employing male guards to
supervise female inmates.” But Connick requires more
than “the broader context” of male guards supervising
female inmates to establish causation. It does not
follow that all male guards will “so obviously make
wrong decisions that failing to train them amounts to
‘a decision by the [county] itself to violate the

14 See Transcript of Jury Trial at 47-48, J.K.J. v. Polk Cty.,
No. 15-CV-428 (W.D. Wis. Feb. 1, 2017), ECF No. 264.

App-147
Constitution.’” Connick, 563 U.S. at 71 (quoting
Canton, 489 U.S. at 395). Connick sets the bar higher:
To prove deliberate indifference, Thompson
needed to show that Connick was on notice
that, absent additional specified training, it
was ‘highly predictable’ that the prosecutors
in his office would be confounded by those
gray areas and make incorrect Brady
decisions as a result. In fact, Thompson had
to show that it was so predictable that failing
to train the prosecutors amounted to
conscious disregard for defendants’ Brady
rights.
Connick, 563 U.S. at 71 (citing Bryan Cty., 520 U.S. at
409, and Canton, 489 U.S. at 389) (emphases in
original). This trial evidence does not clear that bar,
and there are no gray areas to the zero-tolerance
policy in question. A finding of liability on a failure-totrain theory here cannot be reconciled with the
reasoning of Connick, and would rest more on good
policy prescriptions than proof of municipal fault and
causation. And whether noteworthy recommendations
for jail training are legal requirements is something
for the people of Wisconsin and their elected officials
to decide, rather than our court in this context.
4.

Single-incident theory

In the absence of a pattern of similar assault
violations, another liability theory is that the county
failed to train its guards in light of foreseeable sexual
assaults. “In limited circumstances, a local
government’s decision not to train certain employees
about their legal duty to avoid violating citizens’ rights
may rise to the level of an official government policy

App-148
for purposes of § 1983.” Connick, 563 U.S. at 61; see
also Canton, 489 U.S. at 390 n.10. Canton left open the
possibility that a plaintiff might succeed in a failureto-train claim without showing a pattern of
constitutional violations. See Connick, 563 U.S. at 63,
71-72 (describing as “single-incident liability”). The
Supreme Court “hypothesized” in Canton that “a
violation of federal rights may be a highly predictable
consequence” for failing to train police officers about
constitutional limits on the use of deadly force. Id. at
63-64, 71-72. In Canton, the Court required that “for
liability to attach in this circumstance the identified
deficiency in a city’s training program must be closely
related to the ultimate injury.” 489 U.S. at 391.
The single-incident theory of liability described in
Canton “assumes … no knowledge at all” of the
required constitutional standards. Connick, 563 U.S.
at 67. Without specific training, explained the Court,
a police officer would not be “equipped with the tools
to interpret and apply legal principles.” Id. at 64. In
Connick, the Court contrasted this hypothetical with
an attorney asked to make a Brady determination. In
that situation, and in the absence of a pattern of
similar Brady violations, a district attorney “is
entitled to rely” on prosecutors’ law school or bar exam
training, ethical obligations, and on-the-job
experience, to deal with Brady decisions. Id. at 66-67
(“A licensed attorney making legal judgments, in his
capacity as a prosecutor, about Brady material simply
does not present the same ‘highly predictable’
constitutional danger as Canton’s untrained officer.”).
“In light of this regime of legal training and
professional responsibility, recurring constitutional
violations are not the ‘obvious consequence’ of failing

App-149
to provide prosecutors with formal in-house training
about how to obey the law.” Id. at 66. Accordingly, the
failure of Connick’s office to alert its prosecutors of all
reasonably conceivable legal duties did not subject it
to failure-to-train liability, even if “additional training
would have been helpful.” Id. at 68.
Here, the proof at trial does not fit within Canton’s
single-incident hypothetical. First, we cannot assume
“no knowledge at all,” because Christensen was
trained and knew that his actions were criminal.
Given this knowledge and training, Christensen’s
assaults—in which he was a lone and surreptitious
actor—were not a “highly predictable consequence”
(Bryan Cty., 520 U.S. at 409) of the county’s sexual
assault policies. Second, unlike the nuanced and
compound legal standards contemplated in Canton
(involving constitutional limits on the use of deadly
force) and Connick (involving evidentiary disclosure
obligations), the legal standard here involved a direct,
non-discretionary rule: no sexual contact with
inmates. Third, the record shows the county’s
guards—including Christensen—were trained on
their legal and professional obligations to avoid the
constitutional violation at issue, sexual relationships
with inmates. Christensen was thus “equipped with
the tools” to obey the law, as Canton requires.
Connick, 563 U.S. at 64. On this record, we decline to
find single‐incident liability.
5.

Sufficiency of the evidence

Judgment as a matter of law should not be
granted unless the evidence, viewed in the light most
favorable to the jury’s verdict, shows that no rational
jury could return a verdict against the moving party.

App-150
Woodward, 368 F.3d at 926. Although the district
court found sufficient evidence to sustain the verdict
in Nargis’s “awareness of tier talk,” facts culled from
the Jorgenson investigation, and the single countysponsored PREA training session, ultimately we
disagree.
In our de novo review, plaintiffs failed to present
enough evidence to support their claims. Houskins,
549 F.3d at 493. The facts do not show Christensen
“was highly likely to inflict the particular injury
suffered by the plaintiff[s].” Bryan Cty., 520 U.S. at
412 (emphasis in original). The trial record offers no
support that the same or similar constitutional
injuries were foreseeable. So far as the record reveals,
the county had no reason to believe, before the events
giving rise to this case, that its training or supervision
of Christensen was inadequate. Besides, there is no
evidence of a pattern of constitutional violations
making it “known or obvious” that additional training
or enhanced policies were necessary. Id. at 407, 410;
see also Connick, 563 U.S. at 61. The trial record does
not contain evidence from which a rational jury could
find the county knew of, but was deliberately
indifferent to, a risk that inmates’ constitutional
rights would be violated.
Even if the record contained evidence of
culpability, plaintiffs needed to show a direct causal
connection between a county policy, practice, or
custom and their injuries. Rice ex rel. Rice v. Corr.
Med. Servs., 675 F.3d 650, 675 (7th Cir. 2012) (“[I]n
other words that the policy or custom was the moving
force behind the constitutional violation.”). Given the
absence of causation evidence, the record can only be

App-151
read that Christensen—not any county policy or
failure to train—was the moving force behind
plaintiffs’ injuries. To hold otherwise under these facts
would pin Christensen’s acts on the county and allow
for vicarious liability, contrary to Monell.
The requirements for imposing liability upon the
county for Christensen’s acts are “rigorous.” Bryan
Cty., 520 U.S. at 406, 415. Although we do not
overturn a jury verdict lightly, we must assure the
jury had a legally sufficient evidentiary basis for its
verdict. Filipovich, 391 F.3d at 863 (reversing verdict
awarding back pay and punitive damages because
employee failed to present legally sufficient evidence
of age discrimination). It is clear to us, see Houskins,
549 F.3d at 493, that the trial evidence fails to satisfy
the necessary elements under Monell, Canton, and
Connick of an imputable policy, culpability, and
causation. In the end, these cases (and their related
authorities) control the calls a jury is allowed to make.
We therefore reverse the verdict against the county
and remand for the entry of judgment as a matter of
law in favor of the county. Because we reverse the
district court’s denial of the county’s Rule 50(b)
motion, we need not reach the county’s Rule 59(a)
motion.
As noted earlier, Christensen waived his appeal
for judgment as a matter of law under Rule 50. So next
we address whether Christensen is entitled to a new
trial under Rule 59.
B. Christensen
Christensen appeals the jury verdict against him
on three grounds. First, he claims plaintiffs failed to
show that he was at fault for his actions. Second, he

App-152
alleges the jury instructions misstated the law by
allowing a finding of liability without proof of harm or
causation. Third, he challenges the jury’s
determination of damages.
1.

Christensen’s fault

To establish an Eighth Amendment violation
against prison officials, “an inmate must show that a
defendant was deliberately indifferent to an excessive
risk to inmate health or safety.” Sinn v. Lemmon, 911
F.3d 412, 419 (7th Cir. 2018) (citations omitted). This
includes two elements: “the harm to which the
prisoner was exposed must be an objectively serious
one”; and judged subjectively, the prison official “must
have actual, and not merely constructive, knowledge
of the risk.” Id. (quoting Gevas v. McLaughlin, 798
F.3d 475, 480 (7th Cir. 2015)). The first element is
easily established here: sexual assault against an
inmate is always serious. The second element requires
the official to “be aware of facts from which the
inference could be drawn that a substantial risk of
serious harm exists, and he must also draw the
inference.” Id. (quoting Farmer v. Brennan, 511 U.S.
825, 837 (1994)). Immunity protects officials who act
at the “hazy border” between the lawful and the
forbidden. Riccardo v. Rausch, 375 F.3d 521, 526 (7th
Cir. 2004) (citation omitted).
Christensen contends he did not know his sexual
relationships posed harm to anyone other than
himself. As Christensen sees it, he was the only person
who stood to lose anything (his job, his family, and his
freedom) because of his behavior. These claims are as
disingenuous as they are unpersuasive. There is no
hazy border of the forbidden here: state law and jail

App-153
policy unequivocally prohibit any sexual contact with
inmates and afford no discretion on the matter.
Christensen testified he knew his conduct violated
county policies, he would be criminally prosecuted if
caught, and his actions were “not positive” for
plaintiffs. These facts support the jury’s finding that
Christensen knew about a substantial risk of harm to
plaintiffs and disregarded that risk.
Rule 59 allows for a new trial if the jury’s verdict
is against the manifest weight of the evidence or if the
trial was in some way unfair to the moving party.
Martinez, 900 F.3d at 844. Christensen quibbles that
he never confessed to knowing his actions were wrong,
but only that his actions were “not positive.” But the
law requires only facts supporting a known inference
of wrongdoing, not an outright confession of
misconduct. Here, a reasonable jury could and did find
that Christensen knew a substantial risk of harm
shadowed his actions and that he deliberately
disregarded that risk. The district court did not abuse
its discretion in refusing to grant a new trial on this
ground.
2.

Jury instructions

Christensen next argues the district court refused
to instruct the jury on causation and harm, which he
believes deprived him of his ability to argue consent as
a defense. Because plaintiffs allegedly consented to his
sexual advances, he contends the jury should have
been instructed to consider whether he actually
caused harm to plaintiffs.
After the second day of trial, the court proposed
the following instruction on harm and consent:

App-154
If you determine that consent has a bearing
on your determination of harm, you may
consider the following in deciding whether
plaintiffs’ sexual contacts with defendant
Christensen were consensual: the power
disparity between prisoners and correctional
officers and how that disparity may create a
coercive environment. Ultimately, the
determination of whether there was consent,
and the broader question of whether there
was harm, is for you to determine.
Order on Jury Instructions at 4-5, J.K.J. v. Polk Cty.,
No. 3:15-CV-428 (W.D. Wis. January 31, 2017), ECF
No. 238.
The next day during the jury instruction
conference for the liability phase, the district court
became skeptical, however, that a harm instruction
was required. When the court questioned how a
reasonable jury could conclude Christensen’s conduct
was not harmful, Christensen’s counsel replied that a
harm instruction “goes to consent and whether this
was something that ultimately caused the harm being
alleged.” Christensen’s counsel also argued the
question of harm “is a close call” and “one for the jury.”
The court was not persuaded and shifted the harm
element from the liability phase to the damages phase;
reasoning this was “a compromise” between its
skepticism and Christensen’s request. Then, after the
jury found Christensen liable to plaintiffs, the court
asked whether Christensen planned to argue that his
conduct was not harmful during the damages phase.
Christensen’s counsel replied: “No, Your Honor.”

App-155
In denying Christensen’s motion for a new trial,
the district court concluded that he had not preserved
his objections to the removal of a harm instruction in
either trial phase. We agree Christensen waived his
right to appeal for a harm instruction during the
damages phase. See United States v. Kirklin, 727 F.3d
711, 716 (7th Cir. 2013) (“[C]ounsel’s affirmative
statement that he had no objection to the proposed
jury instruction constitutes waiver of the ability to
raise this claim on appeal.”) (citation internal brackets
omitted).
But Christensen did not waive his objection
during the liability phase. Twice Christensen
requested a harm instruction during the liability
phase. Twice he explained that a harm instruction
implicates questions of causation and a defense of
consent. These statements sufficiently alerted the
court to his request and his argument, allowing us on
appeal to reach the merits of this claim.
We review Christensen’s challenge to the liability
phase instructions in two steps. In step one, “[w]e
review de novo whether jury instructions accurately
summarize the law, but give the district court
substantial discretion to formulate the instructions
provided that the instructions represent a complete
and correct statement of the law.” United States v.
Daniel, 749 F.3d 608, 613 (7th Cir. 2014) (citation
omitted). If the instructions are legally accurate, in
step two we review the district court’s phrasing of the
instructions for abuse of discretion. Id. We construe
jury instructions “in their entirety and not in artificial
isolation,” reviewing whether the jury “had
understanding of the issues and its duty to determine

App-156
those issues.” Happel v. Walmart Stores, Inc., 602 F.3d
820, 827 (7th Cir. 2010) (citation omitted).
Here, the instructions read:
To succeed on plaintiff’s Eighth and
Fourteenth Amendment Claim against
defendant Christensen, plaintiff must prove
each of the following things by a
preponderance of the evidence:
(1) plaintiff was incarcerated under
conditions that posed a substantial risk
of serious harm to her health or safety;
and
(2) defendant
was
deliberately
indifferent to plaintiff’s health or safety.
With respect to the claim against defendant
Christensen
the
term
“deliberately
indifferent” means that he actually knew of a
substantial risk of harm and that he
consciously disregarded this risk through his
actions.
Closing Instructions at 3, J.K.J. v. Polk Cty., No. 3:15‐
CV‐428 (W.D. Wis. February 2, 2017), ECF No. 243.
These instructions align with our court’s
precedent regarding deliberate indifference liability.
See Sinn, 911 F.3d at 419 (evaluating deliberate
indifference standard as applied to prison guards);
Riccardo, 375 F.3d at 525 (same). Because the
instructions accurately summarize the applicable law,
we look to whether the district court’s phrasing of the
instructions constituted an abuse of discretion. “We
will reverse at this second step only if it appears both
that the jury was misled and that the instructions

App-157
prejudiced the defendant.” United States v. Dickerson,
705 F.3d 683, 688 (7th Cir. 2013) (citation and internal
quotations omitted).
In Christensen’s view, the instructions were
misleading because without an instruction on
causation, harm, and consent, they reflected an
“inadequate understanding of the law.” We disagree.
The instructions listed the essential elements of
deliberate indifference, instructed the jury on
plaintiffs’ burden to prove these elements, and
provided guidance on the meaning of a key term
within these elements. Above all, the phrasing of the
instructions was uncomplicated and substantively
accurate. So Christensen has failed to show abuse of
discretion on this point.
Christensen next contends the instructions were
“seriously prejudicial” because they “resulted in a
finding of liability without any consideration” of
whether he caused plaintiffs any harm. But this
inaccurately conflates causation and consent. Like
any prison guard, Christensen was prohibited from
having sex with inmates; plaintiffs’ constitutional
claims are based on this prohibition. Christensen
admits to committing these offenses. Plaintiffs’
alleged consent does not make Christensen any less of
a cause. To claim otherwise assumes consent voids
causation, which it does not.
For their part, plaintiffs testified they did not
consent to Christensen’s advances. Plaintiffs’ expert
testified as to the serious mental health trauma
plaintiffs suffered, and opined on the amount of
damages from their injuries. Christensen offered no
rebuttal. The jury’s verdict suggests it believed

App-158
plaintiffs and their expert over Christensen, and “[w]e
will not reweigh the evidence, or substitute our
credibility assessments for that of the jury.” Pearson
v. Welborn, 471 F.3d 732, 738 (7th Cir. 2006). Because
the omission of a harm or a causation jury instruction
was neither misleading nor prejudicial, we conclude
the district court did not abuse its discretion on this
point.
3.

Damages

Last, we consider the soundness of the jury’s
determination of damages against Christensen,
beginning with the compensatory damages award.
Christensen argues the district court should have
granted a new trial because the jury awarded identical
compensatory damages to each plaintiff, so the
verdicts “lack a rational relationship with the evidence
contained in the record.”
“We review challenges to the propriety of a
compensatory damages award for abuse of discretion.”
Kapelanski v. Johnson, 390 F.3d 525, 532 (7th Cir.
2004). To support his claim, Christensen invokes
Cygnar v. City of Chicago, 865 F.2d 827 (7th Cir.1989),
in which our court affirmed the district court’s award
of a new trial on the issue of damages (with the option
of remittitur) because the compensatory damages
award did not bear a “reasonable relation to actual
injury sustained.” Id. at 848.
Cygnar does not help Christensen. In that case, a
jury awarded $55,000 to each plaintiff among thirteen
plaintiffs. Id. at 833. Christensen asserts we affirmed
the grant of a new trial in Cygnar solely because the
jury gave identical awards to each plaintiff. Not so: we
affirmed a new trial in Cygnar because the jury gave

App-159
the same award per plaintiff despite the plaintiffs’
“sharp variances” in the amount of economic harm
suffered among them. Id. at 848. In other words,
because the awards in Cygnar did not account for
obvious differences in harm between plaintiffs
individually, we ruled that they did not bear a
reasonable relation to the actual injuries sustained.
In contrast, plaintiffs here relied on expert
testimony to assert identical economic harms
(psychological treatment costs) for the similar
noneconomic harms suffered of repeated sexual
assaults by Christensen. Christensen counters
plaintiffs suffered different pre- and post-assault
mental health concerns, and he engaged in sexual
contact with each plaintiff with varying degrees of
regularity. These “inconsistencies,” Christensen
argues, precluded the jury from awarding an identical
sum to J.K.J and M.J.J.
Christensen fails to explain how plaintiffs’ mental
health issues and the frequency of his assaults, which
plaintiffs endured over years, necessarily translates
into different damages awards. He also fails to show
the jury’s awards were not “in line with other awards
in similar cases,” in support of his position. See
Cygnar, 865 F.2d at 848. So the district court did not
abuse its discretion when it denied a new trial on the
question of compensatory damages.
Christensen also contends the jury’s punitive
damages awards bear no relation to plaintiffs’ harms,
necessitating a new trial. But he only asserts “awards
of punitive damages cannot be unfettered from due
process requirements,” and fails to connect that
proposition to this case.

App-160
We review challenges to punitive damages de
novo when constitutional issues are raised. Gracia v.
SigmaTron Int’l, Inc., 842 F.3d 1010, 1022 (7th Cir.
2016) (citations omitted). If no constitutional issue is
raised, our review of punitive damages is for abuse of
discretion.
Id.
(citation
omitted).
Whether
Christensen challenges the punitive damages award
on constitutional or non-constitutional grounds, the
outcome is the same.
The Supreme Court has set forth three guideposts
to assess a punitive damage award: (1) the degree of
reprehensibility of the defendant’s conduct; (2) the
disparity between the harm suffered by the plaintiff
and the punitive damages award; and (3) the
difference between the award in this case and the
penalties imposed in comparable cases. Id. at 1023
(citing BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 57475 (1996)).
First, we have no difficulty concluding that a
reasonable jury could find Christensen’s behavior was
particularly reprehensible. On guidepost two, “[t]he
constitutional limit on punitive damages depends on
the reprehensibility of the defendant’s conduct and the
ratio between compensatory and punitive damages.”
Beard v. Wexford Health Sources, Inc., 900 F.3d 951,
955 (7th Cir. 2018). “[T]he more reprehensible a
defendant’s conduct and the more easily a defendant
can conceal violations, the higher the punitive
damages.” Id. at 953. These awards show the jury
found Christensen’s conduct to be especially
blameworthy. Even so, the ratio between the punitive
and compensatory damages awards was less than twoto-one, which is less than the four‐to‐one ratio “that

App-161
might be close to the line,” of constitutional
impropriety. BMW of N. Am., 517 U.S. at 581 (citation
omitted). And under guidepost three, Christensen has
not offered any cases as comparators.
The district court applied these measures to the
jury’s verdict and concluded the punitive awards were
reasonable and comported with due process
requirements. We agree and see no reason to disturb
either of the jury awards assessed against
Christensen.
III. CONCLUSION
Based on this reasoning, we REVERSE the jury
verdict against the county and REMAND the case to
the district court to enter judgment as a matter of law
for the county. The district court’s denial of
Christensen’s motion for a new trial is AFFIRMED.

App-162
SCUDDER, Circuit Judge, dissenting in part.
Two realities combine to make this case very
difficult—the respect the law affords jury verdicts and
the demanding standard for municipal liability under
42 U.S.C. § 1983 and Monell v. New York City Dep’t of
Soc. Servs., 436 U.S. 658 (1978). While the majority
opinion marshals the best reasons for reversing the
district court’s judgment against Polk County, I
respectfully dissent from that portion of the opinion.
When viewing the evidence in the light most favorable
to the jury’s verdict, I agree with District Judge Conley
that a reasonable jury could have found that Polk
County acted with deliberate indifference to the need
for more training and monitoring to prevent the sexual
assault of female inmates by male guards and in doing
so caused the injuries suffered by plaintiffs J.K.J. and
M.J.J.
I
Monell unquestionably sets a high bar for
municipal liability. A municipality may be liable
under § 1983 only “if the governmental body itself
‘subjects’ a person to a deprivation of rights or ‘causes’
a person ‘to be subjected’ to such deprivation.” Connick
v. Thompson, 563 U.S. 51, 60 (2011) (quoting Monell,
436 U.S. at 692). The majority is right that the
evidence does not support the imposition of Monell
liability on the view that the county had an express or
implicit policy authorizing the sexual assault of
inmates. Nor is this a case where any sort of county
policy could be found on the basis of a pattern of past
incidents of sexual assaults of female inmates by male
guards.

App-163
But those are not the only avenues available for
Monell liability. The Supreme Court has left room for
liability premised on a municipality’s failure to train
its employees when “in light of the duties assigned to
specific officers or employees the need for more or
different training is so obvious, and the inadequacy so
likely to result in the violation of constitutional rights,
that the policymakers of the [county] can reasonably
be said to have been deliberately indifferent to the
need.” City of Canton, Ohio v. Harris, 489 U.S. 378,
390 (1989); see also Board of Comm’rs of Bryan County
v. Brown, 520 U.S. 397, 407 (1997) (explaining that “a
plaintiff seeking to establish municipal liability on the
theory that a facially lawful municipal action has led
an employee to violate a plaintiff’s rights must
demonstrate that the municipal action was taken with
‘deliberate indifference’ as to its known or obvious
consequences”) (quoting Canton, 489 U.S. at 388).
On these principles, a county’s inaction, including
its failure to provide adequate training, can amount to
“the functional equivalent of a decision by the [county]
itself to violate the Constitution,” when the county has
notice that its program will cause constitutional
violations. Connick, 563 U.S. at 61-62 (quoting
Canton, 489 U.S. at 395 (O’Connor, J., concurring in
part and dissenting in part)); see also Glisson v.
Indiana Dep’t of Corr., 849 F.3d 372, 381 (7th Cir.
2017) (observing that the “key is whether there is a
conscious decision not to take action”). These “rigorous
standards of culpability and causation” safeguard
against a municipality being held liable “solely for the
actions of its employees.” Bryan County, 520 U.S. at
405.

App-164
But rigorous does not mean impossible, and J.K.J.
and M.J.J. sought to carry their burden of proving
Polk County’s deliberate indifference to the need for
more training and monitoring by focusing the jury on
three primary points: the county’s sparse training on
its policies prohibiting the sexual abuse of inmates, a
jail culture that denigrated women, and the county’s
deficient response to the 2012 incident involving
guard Allen Jorgenson and a female inmate. Each
point warrants careful consideration, with the
controlling question being whether any rational jury
could have concluded that the combined evidence
supports a finding of liability against the county.
Setting aside a jury verdict on the basis of insufficient
evidence is serious business. See Woodward v. Corr.
Med. Servs. of Illinois, Inc., 368 F.3d 917, 926 (7th Cir.
2004).
A
Polk County’s Policies and Sexual Assault
Training: All agree that Polk County’s written
policies categorically prohibit sexual contact with
inmates. But so too should everyone agree that
policies cannot exist on paper alone. It is not enough
in this context to print the policy in a handbook,
distribute it to all jail guards, and tell them to follow
it. Training is critical precisely because it reinforces
that strict adherence to the policy is required and
indeed what most matters. And this is especially so in
the context of a county employing male guards to
supervise female inmates—a circumstance that is
perhaps more the norm than the exception around the
country, but which inheres with meaningful risk. It
takes little foresight to envision an instance where a

App-165
guard grows too comfortable, loses his better angels,
and steps over the clear line marked in Polk County’s
written policies.
The trial evidence showed that Polk County’s
training on preventing the sexual harassment and
abuse of inmates was sparing at best. The training
consisted almost exclusively of informing guards of the
easy and obvious—that the jail’s policies prohibited
sexual contact with inmates. What was missing
stands out. The jury heard no evidence of guards being
informed of the inherent vulnerability the
confinement setting presents to female inmates. Nor
was there evidence of the county either explaining the
serious harm that can befall an inmate sexually
abused by a guard or taking steps to train guards to
hold each other accountable to the county’s bright-line
prohibition on any intimate contact with inmates. The
record shows that the only training dedicated to
preventing the sexual assault of inmates by guards
came in a single session on the Prison Rape
Elimination Act in 2014—well after much of Darryl
Christensen’s abuse of J.K.J. and M.J.J. had occurred.
At an even broader level there was no evidence
that the county included the female inmates
themselves in its efforts to prevent sexual abuse. The
jury, for example, heard no account of the county
ensuring or reinforcing that inmates had access to a
safe and confidential channel through which to report
inappropriate sexual conduct by jail guards.
Do not overread these observations as somehow
prescribing what the county had to do to avoid
liability. The observations serve only to show that the
county’s training was so thin that its inadequacy could

App-166
have informed the jury’s ultimate finding of deliberate
indifference.
The Culture of the Polk County Jail: At trial
the jury learned that Captain Scott Nargis was aware
of sexual comments made by male guards about and
towards female inmates. Nargis testified that he
heard Christensen comment on a female’s “rear end,”
while also learning from others that Christensen had
made inappropriate comments about an inmate’s
breasts. Captain Nargis further testified that he
himself occasionally participated in so‐called “tier
talk”—consisting of “not necessarily flattering talk
amongst co‐workers.” While the majority concludes
that the tier talk of which Nargis was aware was not
sexual in nature, there is no way to view the testimony
about tier talk as compelling the jury to reach that
conclusion. Rather, the record shows that Nargis
recalled instances in which the banter among the
guards included sexual comments about females
within the facility, including at least one female
inmate. At the very least, a reasonable jury could have
found that the jail’s administrators did little to
reinforce the dignity and respect owed female (and
indeed all) inmates and instead seemed to enable a
culture that condoned the sexual objectification of
female inmates by male guards. Judge Conley saw the
evidence much the same way in denying the county’s
post‐trial motions for judgment as a matter of law and
a new trial.
Unfortunately, there is more. The record shows
that the jail’s culture extended beyond tier talk, as
evidenced by the allegations and resulting
investigation of another guard, Allen Jorgenson.

App-167
Polk County’s (Non) Response to the
Jorgenson
Incident:
In
early
2012
jail
administrators received a complaint that Jorgenson
had engaged in sexual contact—“inappropriate
touching” to be exact—with a female inmate. The
allegations also included concerns that Jorgenson
used security cameras to fixate on female inmates and
told inmates to expose themselves to him. Captain
Nargis also learned that jail staff, as part of screening
outgoing inmate mail, had reported seeing multiple
references to Jorgenson’s inappropriate behavior
toward female inmates and staff.
Captain Nargis and Chief Deputy Steven Moe
responded by conducting an investigation and
concluding that Jorgenson had violated the jail’s
policies and deserved a written reprimand. The
investigation confirmed that Jorgenson used security
cameras on multiple occasions to focus on female
inmates longer than necessary and flirted with female
inmates generally. Though unable at first to
substantiate that Jorgenson engaged in sexual contact
with the inmate in question (in no small part due to
the inmate’s denial that any sexual contact had
occurred), Nargis and Moe nonetheless found that
Jorgenson pursued an improper personal relationship
with the inmate.
More then came to light when the inmate
submitted a letter recanting her prior denial of sexual
contact with Jorgenson. The incidents described in the
letter were detailed and specific, to say nothing of
disturbing, and served to put Nargis and Moe on
notice of allegations of repeated predatory behavior by
Jorgenson. The inmate recounted much more than

App-168
petty flirtation, reporting that “[t]here are many
things he [Jorgenson] has said and done that have
been inappropriate in a sexual manner towards me,”
including, for example, telling me “he has wanted me
to lift my shirt,” “seeing us in the shower” and calling
it a “nice show,” touching my “back and butt,”
“lean[ing] over the [work] cart to look down my shirt,”
saying “he wants me to ride topless in his boat,” and
instructing me to “keep quiet.”
The letter prompted Nargis and Moe to take a
fresh look at the matter. Sergeant Steven Schaefer
spoke with the inmate to verify her report and
concluded that she may have been telling the truth at
that point. At trial Moe acknowledged that, after the
jail received the letter, he found it “more likely” that
Jorgenson had engaged in inappropriate or even
illegal touching of the inmate. In the end, however, the
county left in place its original reprimand of
Jorgenson, only then to see him resign a short time
later when female coworkers complained that he had
made inappropriate comments towards them.
The majority opinion risks the misimpression that
Jorgenson’s conduct was isolated to putting his arm
around an inmate and patting her backside. The
inmate’s letter put the county on notice of much more,
or at least a reasonable jury could have so concluded.
By its terms, the letter conveyed detailed allegations
of repeated sexual misconduct, including physical
touching, by Jorgenson. While the majority might be
right to observe that the jury heard no direct evidence
demonstrating that Captain Nargis or Chief Deputy
Moe undertook their investigation in bad faith, that
observation answers the wrong question. The jury was

App-169
entitled to conclude that, separate and apart from
whatever discipline was owed Jorgenson, the county
had a plain example of predatory sexual behavior
staring it in the face.
A broader takeaway was available to the jury on
this evidence: apart from reprimanding Jorgenson,
the county took no action to reinforce its sexual
assault policies with all other male guards. The county
did not, for example, seek to learn why its policies
aimed at protecting inmates from sexual assault and
harassment were going unheeded or whether its
culture—including the sexual commentary about and
towards female inmates—contributed to Jorgenson’s
actions. Nor did the county hold a formal training
session, or even a short informal meeting, to remind
guards of the clear and absolute prohibition on any
and all sexual contact with inmates. Indeed, Sergeant
Schaefer testified that, after the Jorgenson incident,
the guards received no training regarding
inappropriate sexual conduct towards inmates. The
jury likewise heard no evidence of the county taking
any steps to monitor its male guards’ compliance with
its policies.
To be sure, Polk County was not required to take
any one of these particular measures. See Glisson, 849
F.3d at 380. And it emphatically is not our place to
instruct a municipality on how to implement its sexual
assault policies. The essential observation—the
conclusion available to the jury—is much more
limited: the Jorgenson incident informed the county
that a guard had engaged in prohibited sexual conduct
towards female inmates. With that information in

App-170
hand, the one option unavailable to Polk County was
the one it chose—doing nothing.
The majority relies extensively on our recent
decision in Doe v. Vigo County, Indiana, 905 F.3d 1038
(7th Cir. 2018) to make the point that notice of a
handful of prior incidents of misconduct by employees
does not support a finding of a municipality’s
deliberate indifference to coerced sexual activity. I see
the cases as light years apart. There the record showed
one incident of sexual assault committed in a public
park by a park maintenance employee against a
female volunteer, as well as notice of past misconduct
by county employees working in a range of largely
dissimilar positions throughout the county, including
as a highway supervisor, county recorder, and jail
guard. Id. at 1041, 1045. This evidence fell well short
of establishing Monell liability against Vigo County.
See id. at 1045-46.
Here, though, the jury confronted the altogether
different setting of a jail and the conduct of male
guards toward female inmates. And here, but not in
Vigo County, the jury heard evidence that Polk
County, before learning of Christensen’s egregious
wrongdoing, received clear notice of serious and
repeated sexual misconduct carried out within the
same jail by an employee in precisely the same
position as Christensen.
The context here matters for yet another reason.
The county’s decision to do nothing in response to the
Jorgenson incident occurred against the backdrop of
its affirmative duty to protect those inmates entrusted
to its custody. See Estate of Perry v. Wenzel, 872 F.3d
439, 453 (7th Cir. 2017) (“[W]hen the State takes a

App-171
person into its custody and holds [her] there against
[her] will, the Constitution imposes upon it a
corresponding duty to assume some responsibility for
[her] safety and general well‐being.”) (quoting
DeShaney v. Winnebago County Dep’t of Soc. Servs.,
489 U.S. 189, 199-200 (1989)). In light of this duty, and
with knowledge that its policies aimed at preventing
the sexual harassment and abuse of female inmates
by guards were being disregarded, Polk County could
not stand still. It was required to ensure that “a well‐
recognized risk for a defined class of prisoners not be
deliberately left to happenstance.” Glisson, 849 F.3d
at 382. A rational jury could have found that the
county fell short of doing so. Even more specifically,
the jury could have concluded that Polk County was
aware that its mere proscriptions on sexual contact
between guards and inmates had proved insufficient
at preventing the sexual exploitation of at least one
female inmate by a male guard. Deciding to do nothing
once it had that information, a rational jury could have
found, reflected deliberate indifference on the county’s
part. See Canton, 489 U.S. at 390.
B
The much harder question is the one that comes
next under Monell—causation and, specifically,
whether Polk County’s deliberate indifference was the
“moving force” behind the repeated and undetected
sexual assault of J.K.J. and M.J.J. by Christensen.
Monell, 436 U.S. at 694. That standard, the Supreme
Court has underscored, is demanding and requires
proof of “a direct causal link between the municipal
action and the deprivation of federal rights.” Brown,
520 U.S. at 404.

App-172
At trial J.K.J. and M.J.J. faced the difficult reality
that Christensen, despite knowing his conduct was a
crime and violated the jail’s policies, repeatedly raped
and sexually assaulted them anyway. And, as the
majority is right to emphasize, Christensen also went
to lengths to conceal his conduct. These facts make it
tempting to view the plaintiffs’ injuries as the result
of a lone bad actor’s knowing decision to disregard the
law and the county’s policies.
The evidence permits another view, though.
Christensen’s actions cannot be separated from the
broader context in which they occurred: J.K.J. and
M.J.J.—female inmates in Polk County’s custody—
faced a very real risk of sexual assault by guards.
Wisconsin law recognizes that risk by making it a
crime for a guard to engage in any sexual contact with
an inmate in any circumstance. See Wis. Stat.
§ 940.225(2)(h). For their part, Polk County jail
administrators likewise recognized the clear risk of
inmates being sexually assaulted. More to the point,
following the Jorgenson investigation, Polk County
knew the risk was far from hypothetical. To the
contrary, the Jorgenson incident showed the county
that the existence of a written policy prohibiting
sexual contact between guards and inmates was
insufficient to prevent the sexual harassment and
abuse of inmates by guards.
And this is precisely where the jury could have
determined the county fell short. It neither conducted
meaningful training aimed at preventing and
detecting sexual assault nor monitored its employees’
compliance with its policies. On this evidence, a
rational jury could have found that the plaintiffs’

App-173
injuries were the “highly predictable consequence” of
the deliberate path of inaction that the county pursued
by not providing more training or monitoring to
prevent the sexual assault of female inmates. Connick,
563 U.S. at 64 (quoting Brown, 520 U.S. at 409).
II
What worries me about today’s decision is that, as
a very practical matter, municipalities may conclude
that there is not much to be done to stop a rogue guard
from engaging in secretive and heinous conduct in
violation of a bright‐line policy prohibiting sexual
contact with inmates. That view would be as mistaken
as it is dangerous, for cities and counties have a
meaningful responsibility and role to play in
preventing the sexual abuse of inmates in their
custody by the guards they employ. That promise
comes from the Eighth Amendment. While not every
incident of abuse will be preventable, a jail’s
decisionmakers are not free to choose—through their
deliberate decisions on enforcement and training
related to the jail’s policies—to leave unaddressed a
known and material risk of sexual assault to inmates
under the jail’s care.
Each of these observations follows from the
evidence before the jury and, in this way, can be seen
as embodied in the jury’s verdict against Polk County.
I would leave that verdict in place and therefore
respectfully dissent from the court’s decision to the
contrary.

App-174
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
Nos. 18-1498, 18-1499, 18-2170 & 18-2177
________________
J.K.J. and M.J.J.,
v.

Plaintiffs-Appellees,

POLK COUNTY AND DARRYL L. CHRISTENSEN,
Defendants-Appellants.
________________
Filed: Sept. 16, 2019
________________
ORDER
________________
The petition for rehearing en banc is GRANTED.
The opinion and judgment entered by the panel are
VACATED. Oral argument will be heard on a date to
be set by further order.

App-175
Appendix D
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF WISCONSIN
________________
Nos. 15-cv-428-wmc, 15-cv-433-wmc
________________
J.K.J.,
v.

Plaintiff,

POLK COUNTY and DARRYL L. CHRISTENSEN,
Defendants.
and
M.J.J.,
v.

Plaintiff,

POLK COUNTY AND DARRYL L. CHRISTENSEN,
Defendants.
________________
Filed: Feb. 5, 2018
________________
OPINION & ORDER
________________
These two cases proceeded to a consolidated jury
trial on plaintiffs J.K.J. and M.J.J.’s respective claims
that a former Polk County Jailer, defendant Darryl L.
Christensen, sexually assaulted them while they were
incarcerated in the Polk County Jail and that
defendant Polk County acted with deliberate
indifference to the serious risk of sexual assault of

App-176
inmates by jail employees, both in violation of the
Eighth Amendment of the United States Constitution.
Plaintiffs also asserted state law negligence claims
against the County. The jury found in plaintiffs’ favor
on all claims (‘428 dkt. #246; ‘433 dkt. #247) and
awarded each plaintiff $2,000,000 in compensatory
damages against both defendants, as well as
$3,750,000 in punitive damages against Christensen
(‘428 dkt. #250; ‘433 dkt. #251).
Before the court are a number of post-trial
motions. The County seeks judgment as a matter of
law under Federal Rule of Civil Procedure 50(b) with
respect to plaintiffs’ state law negligence claims on the
basis of immunity under Wis. Stat. § 893.80. (‘428 dkt.
#245; ‘433 dkt. #246.) In addition, the County and
Christensen each filed motions for judgment as a
matter of law or, in the alternative, for a new trial
under Rule 59 with respect to the jury’s findings of
liability on plaintiffs’ Eighth Amendment claims.
(County’s Mot. (‘428 dkt. #268; ‘433 dkt. #269);
Christensen’s Mot. (‘428 dkt. #272; ‘433 dkt. #273).)
The court agrees with the County that plaintiffs’
negligence claims turn on discretionary duties, for
which the County is immune. Since the jury also found
the County violated plaintiffs’ constitutional rights,
entry of judgment against plaintiffs on their
negligence claims is largely a Pyrrhic victory. Except
for those negligence claims, however, both defendants’
motions will be denied in their entirety for the reasons
that follow. Finally, at the direction of the court,
plaintiffs’ counsel submitted their request for
attorneys’ fees and costs under 42 U.S.C. § 1988, and
defendants offered no opposition to the requested
amount. Finding plaintiffs’ request reasonable and

App-177
well-documented, the court will award the fees and
costs set forth below.
OPINION
This court may grant judgment to a nonprevailing party as a matter of law under Fed. R. Civ.
P. 50(a) where there is no “legally sufficient
evidentiary basis” to uphold the jury’s verdict on that
issue. In reviewing a Rule 50 motion, the court will
“examine the evidence presented, combined with any
reasonably drawn inferences, and determine whether
the combination sufficiently supports the verdict when
viewed in the light most favorable to the non-moving
party”—the plaintiffs. E.E.O.C. v. AutoZone, Inc., 707
F.3d 824, 835 (7th Cir. 2013). Alternatively, although
the difference is a nuanced one, the court may grant
defendants motion for a new trial under Fed. R. Civ.
P. 59(a) “only if the jury’s verdict is against the
manifest weight of the evidence.” King v. Harrington,
447 F.3d 531, 534 (7th Cir. 2006) (citing ABM
Marking, Inc. v. Zanasi Fratelli, S.R.L., 353 F.3d 541,
545 (7th Cir. 2003)). To meet this standard,
defendants must demonstrate that no rational jury
could have rendered a verdict against them. See King,
447 F.3d at 534 (citing Woodward v. Corr. Med. Servs.
of Ill., Inc., 368 F.3d 917, 926 (7th Cir. 2004)). In
making this evaluation, the court must again view the
evidence in a light most favorable to plaintiffs, leaving
issues of credibility and weight of evidence to the jury.
King, 447 F.3d at 534. “The court must sustain the
verdict where a ‘reasonable basis’ exists in the record
to support the outcome.” Id. (quoting Kapelanski v.
Johnson, 390 F.3d 525, 530 (7th Cir. 2004)).

App-178
I.

Defendant Polk County’s Motion for
Judgment as a Matter of Law on State Law
Negligence Claim

Defendant Polk County contends that it is
entitled to immunity on plaintiffs’ state law claims of
negligent training and supervision. Specifically, the
County argues that the conduct underlying these
claims was discretionary in nature, falling within the
immunity provision of Wisconsin Statute § 893.80(4).
That provision provides in pertinent part:
(4) No suit may be brought against
any . . . governmental subdivision or any
agency thereof for the intentional torts of its
officers, officials, agents or employees nor
may any suit be brought against
such . . . subdivision or agency . . . or against
its officers, officials, agents or employees for
acts done in the exercise of legislative, quasilegislative,
judicial
or
quasi-judicial
functions.
Wis. Stat. § 893.80(4).
Courts have generally construed quasi-judicial
and quasi-legislative functions as “activities that
involve the exercise of ‘discretion.’” Scot v. Savers
Prop. & Cas. Ins. Co., 2003 WI 60, ¶ 16, 262 Wis. 2d
127, 663 N.W.2d 715; see also Lodl v. Progressive N.
Ins. Co., 2002 WI 71, ¶ 21, 253 Wis. 2d 323, 646 N.W.
2d 314 (holding generally that Wis. Stat. § 893.80(4)
provides immunity for “any act that involves the
exercise of discretion and judgment”). In contrast to an
act that involves discretion and judgment, a
ministerial duty is a duty that is:

App-179
absolute, certain and imperative, involving
merely the performance of a specific task
when the law imposes, prescribes and defines
the time, mode and occasion for its
performance with such certainty that nothing
remains for judgment or discretion.
Lister v. Bd. of Regents of Univ. Wis. Sys., 72 Wis. 2d
282, 301, 240 N.W.2d 610, 622 (1976).
In opposition to defendant’s motion, plaintiffs
contend that the County is not entitled to immunity
because the “known and compelling danger exception
applies.” (Pl.’s Opp’n (dkt. #267) 2 (citing Cords v.
Anderson, 80 Wis. 2d 525, 259 N.W.2d 672 (1977)).) 1
In Cords, the plaintiffs were injured when they fell
into a deep gorge while hiking at night on a hazardous
portion of a trail in Parfrey’s Glen, a state-owned
nature preserve. After reviewing the facts involved in
plaintiffs’ fall and injuries, the court concluded “that
the duty to either place warning signs or advise
superiors of the conditions is, on the facts here, a duty
so clear and so absolute that it falls within the
definition of a ministerial duty.” Id.at 542, 249 N.W.2d
at 680.
Critically, in Cords, not only was the danger
known and clear, but the required response to that
danger was equally certain. As the Wisconsin
Supreme Court explained in a case cited by plaintiffs,
“[t]o qualify as ministerial, the time, mode, and
occasion for performance of the duty must be so certain
that discretion is essentially eliminated.” Lodl, 2002
1 Unless otherwise noted, the docket entries are to Case No. 15cv-428.

App-180
WI 71, at ¶ 40 (emphasis added) (reversing application
of known and compelling danger exception after
finding decision to control traffic manually was
discretionary); see also Voss ex rel. Harrison v.
Elkhorn Area Sch. Dist., 2006 WI App 234, ¶ 20, 297
Wis. 2d 389, 724 N.W.2d 420 (applying known and
compelling danger exception where “only option was
to put an end to” student exercise of wearing “fatal
vision goggles”); Pries v. McMillon, 2010 WI 63, ¶ 34,
326 Wis. 2d 37 784 N.W.2d 648 (applying ministerial
duty exception to Wis. Stat. § 893.80(4) where the
“language in the written instructions . . . has the
requisite specificity and definition of the time, mode
and occasion for its performance with such certainty
that nothing remains for judgment or discretion”).
In finding a constitutional violation by the County
here, the jury necessarily determined that “one or
more of [the County’s] policy-making officials knew of
a substantial risk of harm, and that the official or
officials consciously disregarded this risk by failing to
take reasonable measures to deal with it.” (Closing
Instr. (dkt. #243) 4.) However, the appropriate
response to that danger still required the exercise of
discretion, thus bringing it within the scope of
§ 893.80(4) and outside of the boundaries of the known
and compelling danger exception. In their opposition
brief, plaintiffs contend that the need for different and
additional training was clear, but the concept of
“different and additional” training, unlike the
requirement to train at all -- or to erect warning signs
or stop a discrete, dangerous activity or follow explicit
instructions—necessarily required the exercise of
discretion. For this reason, the court will grant the
County’s motion for judgment as a matter of law,

App-181
finding the County entitled to immunity for plaintiffs’
negligence claims under Wis. Stat. § 893.80(4). 2
II. Defendants’ Motions for Judgment as a
Matter of Law on Eighth Amendment Claims
Defendants filed separate motions for judgment
as a matter of law or for a new trial on plaintiffs’
Eighth Amendment claims, although their motions
raise overlapping arguments. As such, the court will
address the motions together, addressing each
argument separately.
A. County’s Deliberate Indifference
In challenging the jury’s finding of deliberate
indifference, the County first argues that plaintiffs
failed to show that it had the requisite knowledge.
Specifically, the County argues that plaintiffs failed to
offer proof of a pattern of prior constitutional
violations. As plaintiffs point out in response, the
court agreed with defendants that plaintiffs failed to
put forth sufficient evidence to support finding a
pattern of constitutional violations known to policymakers, and as a result, the court both precluded
plaintiffs from so arguing and excluded this basis of
liability from the jury instructions, leaving plaintiffs
to argue only that the “risk of the inadequacy of the
training, supervision, and/or adoption of policies [was]
Of course, as evidence mounts of the substantial risks of these
assaults in jail and prison settings, and a consensus builds as to
the minimum training and supervision necessary to manage
those risks, government entities may eventually lose this
immunity. Moreover, as noted earlier, the practical effect of this
holding is immaterial in light of the jury’s award of damages to
plaintiffs for the same injuries based on the County’s violation of
their constitutional rights.
2

App-182
plainly obvious.” (Trial Tr. (dkt. #259) 5-9 (final jury
instruction conference, explaining change, removing
pattern language); Closing Instr. (dkt. #243) 4-5
(describing knowledge of risk component of deliberate
indifference claim).)
Second, in a challenge more rooted in the actual
record, the County argues that plaintiffs failed to
prove that the substantial risk of harm and the
inadequacy of the training, supervision and/or
adoption of policies were “plainly obvious.” The jury
was instructed that to find deliberate indifference,
plaintiffs must prove that a substantial risk of harm
from inadequate training, supervisor or policies was
plainly obvious to one or more of the County’s policymaking officials. (Closing Instr. (dkt. #243) 4-5.)
Plaintiffs submitted evidence consistent with that
burden at summary judgment and again at trial by
showing that Jail Captain Scott Nargis was aware of
sexual comments by correctional officers to inmates
and other female employees as a result of
investigating Christensen as far back as 2002 and
investigating another former correctional officer Art
Jorgensen in 2012. Plaintiffs argued, and the jury
apparently found, this knowledge placed Nargis on
notice as to the need for further or different training,
as well as for implementation of PREA-like training,
notice and supervision policies. Moreover, Nargis
generally acknowledged his awareness of “tier talk,”
from which a reasonable jury could conclude that the
jail officials turned a blind eye, and perhaps even
fostered, a culture where inappropriate sexual
comments were accepted as the norm. Finally, the jury
heard testimony and received evidence about the Jail’s
February 2014 PREA training—the only PREA

App-183
specific training offered to jail employees—from which
the jury reasonably could conclude that the
administration downplayed the importance of
preventing sexual assault and harassment within the
jail. Although not overwhelming evidence, this
circumstantial evidence forms a legally sufficient
evidentiary basis for the jury’s finding it was more
probable than not that Nargis and others within the
County Jail administration had knowledge of the
substantial risks of sexual assaults of jailers on
inmates, but acted with deliberate indifference to the
need for better training, supervision and policies.
Third, the County challenges the jury’s finding
that its deliberate indifference caused plaintiffs’
injuries. Here, too, the court finds that there was a
legally sufficient evidence basis to support the jury’s
finding it more probable than not that if the County
had provided adequate notice and training to
correctional officers and inmates on what constitutes
sexual harassment and abuse, and how to report it,
plaintiffs may not have been sexually assaulted and
harassed, or at minimum that adequate supervision
policies would have prevented Christensen from
feeling emboldened enough to repeatedly make lewd
comments over the jail intercom about female inmate’s
attire, much less leave his post in the jail’s bubble to
assault inmates sexually. Furthermore, the jury
reasonably could have concluded that increased or
different
supervision
may
have
thwarted
Christensen’s rampant acts of sexual abuse. Indeed,
as described by the victims, it seems quite likely that
the sheer audacity of Christensen’s repeated acts,
done with actual power over their daily lives and with
apparent impunity, would have overcome any hope

App-184
that filing a complaint would have produced a positive
outcome.
Fourth and finally, the County complains that the
jury verdict “turns Monell into a standard of
respondeat superior liability.” (County’s Opening Br.
(dkt. #269) 23.) To the contrary, the jury instructions
on plaintiffs’ claims of liability against the County
were entirely consistent with the standard under
Monell. Because the court finds a legally sufficient
evidentiary basis for the jury’s findings as to each of
the deliberate indifference and Monell elements, the
court rejects any suggestion that the jurors applied a
less rigorous standard in rendering their verdict.
B. Christensen’s Deliberate Indifference
Defendant Christensen also challenges the jury’s
finding of liability on plaintiffs’ deliberate indifference
claims asserted against him based on a lack of
evidence to support the subjective prong of that claim.
Specifically, Christensen contends that there was
insufficient evidence from which a reasonable jury
could find that he was subjectively aware of the
substantial risk of harm to plaintiffs. Consistent with
the law, the jury was instructed that to find that
Christensen was “deliberately indifferent,” they must
find that “he actually knew of a substantial risk of
harm and that he consciously disregarded this risk
through his actions.” (Closing Instr. (dkt. #243) 3.) See
also Perez v. Fenoglio, 792 F.3d 768, 777 (7th Cir.
2015) (“The deliberate indifference standard reflects a
mental state somewhere between the culpability poles
of negligence and purpose, and is thus properly
equated with reckless disregard.”).

App-185
In support of his motion, Christensen contends
that the following trial testimony falls short of
admitting this element of the claim:
Q. You knew, sir, didn’t you, that you were
putting both [plaintiffs] at risk by doing this,
didn’t you?
A. Yes, sir.
Q. And the risk of harm, correct?
A. I don’t—what are you referring to as harm?
Q. That it was not positive for them, correct?
A. Correct.
(Trial Tr. (dkt. #258) 51-52.)
The problems with this argument are myriad. As
an initial matter, a reasonable jury would have
construed
these
concessions
as
admissions,
particularly after judging Christensen’s credibility on
the stand. Even more important, plaintiffs were not
obligated to elicit an unqualified admission by
Christensen for the jury to find the subjective element
satisfied. Indeed, such an admission—even the
concession quoted above—is sadly rare. Regardless,
along with conceding that his actions were “not
positive” for plaintiffs, he further acknowledged that
his sexual contacts with inmates were for his own
personal gratification and while having unsupervised
power over the victims as their jailer. (Id. at 63; see
also Trial Tr. (dkt. #262) 40-43.) Most importantly,
plaintiffs themselves testified that they did not consent
or welcome Christensen’s sexual contact, thus
providing additional support for a finding that
Christensen knew of the harm his actions could cause.
(Trial Tr. (dkt. #262) 75-78, 139-48.) As courts have

App-186
explained, “[w]here no legitimate law enforcement or
penological purpose can be inferred from the
defendant’s alleged conduct, the abuse itself may, in
some circumstances, be sufficient evidence of a
culpable state of mind.” Boddie v. Schnieder, 105 F.3d
857, 861 (2d Cir. 1997). Here, the court finds much
more was put into evidence to support the jury’s
finding that Christensen actually knew of a
substantial risk of harm posed by his actions. 3
C. Treatment of Injury Requirement
Both defendants challenge the court’s decision to
find as a matter of law that Christensen’s sexual
assaults caused plaintiffs’ injury. To begin, this
challenge disregards the fact that all parties largely
ignored the issue of injury, and the related question of
consent, in their respective pretrial filings despite the
court’s raising its concern both before and during trial.
In particular, during the final conference on the
instructions in the first phase of trial, the court
pressed this very issue with counsel for Christensen,
asking “whether there is really any reasonable
argument about harm with respect to the claim
against Mr. Christensen.” (Trial Tr. (dkt. #264) 119.)
In response, his counsel argued that this “is still is a
close call and I think it’s one for the jury,” noting that
Defendants’ reference to one of the victims having engaged in
“voluntary” sexual acts with Christensen after being released
from jail as evidence that the contacts between that victim and
Christensen while she was an inmate and he a jailer fails to
acknowledge what both their testimony proved was by then a
complicated relationship at best, and at worst a twisted one.
Regardless, the jury had ample evidence to weigh the importance
of these later encounters on whether Christensen knew of the
risk of harm his actions as jailer were having on his victims.
3

App-187
the injury element relates to the issue of consent. (Id.
at 123.) As a compromise, the court opted to remove
the element from the first phase of trial, and include
the requirement in the second phase should the jury
answer the other liability special verdict questions in
plaintiffs’ favor. (Id.) Neither party objected to the
court’s decision to move this injury element to the
second phase of trial.
After considering the jury’s verdict on the first
phase of trial and the trial plan for the second phase
of trial, the court directly asked whether either
defendant was planning on pursuing an argument
based on a lack of injury or harm:
THE COURT: . . . And that brings me to my
second concern and that is I just want to
confirm, is the County going to actually argue
that there was no harm here by Mr.
Christensen’s conduct?
MR. CRANLEY [Counsel for County]: I don’t
think so, no.
THE COURT: Is that really something you
want to argue to this jury at this stage?
MS. MILLS [Counsel for Christensen]: No,
Your Honor.
THE COURT: All right. So I’m not going to
give the harm instruction. It just seems
pointless. And I appreciate the defense
counsels’ candor. By virtue of their verdict it’s
clear they found harm, even though that was
not expressly asked as to the constitutional
claim against Mr. Christensen, which brings
me then to the two instructions.

App-188
(Trial Tr. (‘428 dkt. #265) 10-11.)
In short, neither defendant preserved an objection
to the removal of the injury element from the jury
instructions in the first phase of the trial, nor to the
court’s ultimate removal of that element from the
second phase, and for an obvious reason: there was
never any real argument that the victims here were
injured by Christensen’s sexual assaults or by the
County’s deliberate indifference to their substantial
risk of harm, assuming the jury found that both the
assaults and the indifference had been proven.
Moreover, defendants’ counsel were savvy enough to
realize that arguing otherwise might so inflame the
jury that is could impact the size of its damage award.
Regardless, defendants both consented to the court’s
proposal to move the injury element in the claims
against them to the second phase of trial and to the
ultimate decision to take that issue away from the jury
altogether. 4

Even if the objection had been preserved, the court reasonably
concluded that no reasonable jury could find that plaintiffs were
not injured given plaintiffs’ testimony about the harm caused by
Christensen’s actions, and the jury’s earlier finding that
Christensen and the County acted with deliberate indifference to
the substantial risk of that harm as confirmed by the jury’s
sizable compensatory jury award, largely based on evidence of
their own need for ongoing mental health treatment. See
Washington v. Hively, 695 F.3d 641, 643 (7th Cir. 2012) (“Sexual
offenses forcible or not are unlikely to cause so little harm as to
be adjudged de minimis, that is, too trivial to justify the provision
of a legal remedy. They tend rather to cause significant distress
and often lasting psychological harm.”).
4

App-189
D. PREA Focus
As it did in its summary judgment and other
pretrial submissions, the County again challenges the
court’s treatment of the Prison Rape Elimination Act,
42 U.S.C. § 15601 et seq. While there is no private
right of action under PREA, as the court explained in
its opinion and order denying defendant’s motion in
limine, “PREA is still relevant in establishing a
recognized standard for the prevention of sexual
assaults in the correctional setting, or at least
plaintiffs are free to provide expert testimony to that
effect and so argue.” (1/20/17 Op. & Order (dkt. #210)
19.) In so ruling, moreover, the court expressly invited
the County to offer a jury instruction “explaining what
PREA is, that it is not mandatory and that a violation
of PREA is not sufficient to prove liability against the
County, as well as the possible relevance of PREA
standards to the issues before them.” (Id.) Consistent
with this ruling, the court ultimately instructed the
jury:
Finally, you have heard evidence about
whether the County’s conduct was consistent
with various standards including Wisconsin
Regulations of County Jails and the Prison
Rape Elimination Act or “PREA”. While you
may consider any of these standards in your
deliberations, keep in mind that the question
you are being asked to decide is whether the
County was deliberately indifferent to
plaintiffs’ constitutional rights, not whether
the County failed to comply with Wisconsin
regulations, PREA or any other set of
standards. In particular, PREA standards,

App-190
adopted in 2012, are not mandatory for
county jails, nor is the failure to comply by
itself a basis to find the County liable.
(Trial Tr. (dkt. #259) 19-20.) The court sees no error in
the instruction or in the jury’s possible consideration
of the County’s failure to embrace PREA in the face of
known risks in deciding whether it acted with
deliberate indifference to plaintiffs’ constitutional
rights, any more than there was error in allowing the
County to argue that its reliance on compliance with
other Wisconsin County standards or initial,
statewide training of jailers undermined plaintiffs’
claims that the County’s administrators acted with
deliberate indifference of the risk of rogue jailers to
inmate’s under their supervision.
E. Jorgenson Evidence
The County next contends that the court erred in
allowing testimony and other evidence of alleged
sexual misconduct by another officer Art Jorgenson.
While the court agreed with the County that there was
insufficient evidence of a pattern of constitutional
violations—and the court removed that language from
the notice instruction as described above (see infra
Opinion § II.A)—evidence of Jorgenson’s misconduct
(coupled with other evidence of the use of sexually
explicit language on the part of officers and other jail
personnel with and about inmates) was nonetheless
relevant to whether the risk of substantial harm was
so obvious as to place the County on notice for
purposes of plaintiffs’ Monell claim, or at least a
reasonable jury could so find. Contrary to the County’s
argument, Jorgenson need not have engaged in the
same conduct as Christensen for this evidence to be

App-191
relevant. Specifically, evidence that he touched
inmates in a sexual nature, including touching an
inmate on the bottom, was relevant to whether there
was a sexualized culture in the jail, as well as the
larger question of the County’s awareness of a
substantial risk of harm. Finally, even if this evidence
was somehow unfairly prejudicial, the County has not
articulated—and the court cannot find—a reason to
hold that the probative value of Jorgenson’s past
misconduct is “substantially outweighed” by unfair
prejudice as required for exclusion under Federal Rule
of Evidence 403. See United States v. Boros, 668 F.3d
901, 909 (7th Cir. 2012) (“Recognizing that most
relevant evidence is, by its very nature, prejudicial, we
have emphasized that evidence must be unfairly
prejudicial to require exclusion.” (internal citations
and quotation marks omitted)).
III. DAMAGE CHALLENGES
A. Compensatory Award
Defendants raise two challenges with respect to
the jury’s award of compensatory damages. First, the
County contends that the court erred in not posing two
special verdict questions on compensatory damages
and not requiring some sort of allocation of damages
between Christensen and the County. As the court
previously explained, this challenge flies in the face of
the Seventh Circuit’s guidance in Thomas v. Cook
County Sheriff’s Department, 604 F.3d 293 (7th Cir.
2010). (See Trial Tr. (dkt. #266) 17-20.) In Thomas, the
court found error with a special verdict form that
asked the jury to “enter damages for both denial of
medical care (against the individual defendants) and
policy and practice (against the County and the

App-192
Sheriff), both of which resulted in the same injury.” Id.
at 311. As the Thomas court explained, “because the
defendants were jointly and severally liable, []
allocating damages between the parties for the single
indivisible injury alleged in this case was improper.”
Id. (citing Transcraft, Inc. v. Galvin, Stalmack,
Kirschner & Clark, 39 F.3d 812, 821 (7th Cir.1994).
The County’s attempt to distinguish its request from
that at issue in Thomas is entirely unpersuasive.
Here, the County sought a special verdict form asking
for separate damages awards for the same injury, just
as in Thomas. Having failed both at trial and in its
post-trial submissions to point to any evidence that
would differentiate injuries caused by Christensen
with those caused by the County’s failure to stop them,
the County’s request for the submission of a special
verdict form asking for separate compensation
damage awards against each defendant has no more
merit than it did at trial.
Second, Christensen argues that the award of
identical compensatory damages to each plaintiff “lack
a rational relationship with the evidence contained in
the record.” (Christensen’s Opening Br. (dkt. #273)
21.) In support of this argument, Christensen directs
the court to Cygnar v. City of Chicago, 865 F.2d 827,
848 (7th Cir. 1989), in which the Seventh Circuit
affirmed the district court’s award of a new trial on the
issue of damages with the option of remittitur, finding
that the compensatory damages award did not bear a
“reasonable relation to actual injury sustained.” Id. at
848. In Cygnar, as here, the jury awarded the same
amount of compensatory damages to each of the
plaintiffs, but the Seventh Circuit did not rely on that
fact in granting a new trial. Rather, as the district

App-193
court explained, the “sharp variances among [the
plaintiffs] in any asserted economic harm” suggests
the jury awarded the same damages because the
“entire award must have been based on ‘intangible’
harm.” Id. In other words, as the Seventh Circuit
agreed, there was nothing inherently suspect about
the jury’s award of the same damages amount to each
of the plaintiffs.
Still, Christensen presses that “[b]ecause the
amount awarded to each Plaintiff as compensatory
damages is identical, despite the distinct and unique
facts each Plaintiff’s claim and alleged damages,”
identical awards here lack a rational explanation.
(Christensen’s Opening Br. (dkt. #273) 21.) While
Christensen provides a meandering and lengthy
overview of each plaintiffs’ testimony of their personal
history, defendant fails to explain why those
differences would necessarily translate into different
damages awards. Indeed, the plaintiffs’ own testimony
and that of their expert provides a legally sufficient
evidentiary basis for the jury’s identical awards, and
like the plaintiffs in Cygnar, is best explained by the
jury having to undertake the difficult task of assigning
a monetary value to psychological damages that, as
was testified, will likely require both plaintiffs to
undergo years of mental health therapy. As such, the
court rejects this basis for a new trial as well.
B. Punitive Award
The jury similarly awarded both plaintiffs
punitive damages against defendant Christensen on
the basis that the evidence does not support a finding
of an “evil motive,” and the awards lack a “reasonable
relationship” to the harm suffered. (Christensen’s

App-194
Opening Br. (dkt. #273) 23-29.) As for the first
argument, there was more than ample evidence to find
an evil intent and motive on Christensen’s part, but
such a finding is not required for an award of punitive
damages. Rather, as the jury was instructed, a finding
of “reckless disregard of plaintiff’s rights” forms a
sufficient basis for an award:
You may assess punitive damages only if you
find that his conduct was malicious or in
reckless disregard of plaintiff’s rights.
Conduct is malicious if it is accompanied by
ill will or spite, or is done for the purpose of
injuring plaintiff. Conduct is in reckless
disregard of plaintiff’s rights if, under the
circumstances,
it
reflects
complete
indifference to plaintiff’s safety or rights.
(Damages Instr. (dkt. #248) 2.) See also Erwin v. Cty.
of Manitowoc, 872 F.2d 1292, 1299 (7th Cir. 1989) (“A
jury may award punitive damages against persons in
§ 1983 actions when it finds conduct motivated by evil
intent or involving reckless or callous indifference to
the federally-protected rights of others.” (citing Smith
v. Wade, 461 U.S. 30, 45-49 (1983)).
Here, the same evidence supporting the jury’s
finding of deliberate indifference on the part of
Christensen provides ample support for a finding of
reckless disregard of plaintiffs’ rights. In fact, the
evidence was overwhelming that Christensen took
advantage of his disproportionate position of power as
a jailer and plaintiffs’ position as prisoners to sexually
assault them for his own gratification. A reasonable
jury could—and, indeed, did—credit plaintiffs’
testimony that they neither consented nor otherwise

App-195
welcomed Christensen’s sexual conduct. As such, the
court finds a legally sufficient evidentiary basis for the
jury’s decision to award punitive damages.
Christensen’s second challenge has even less
merit. In reviewing the reasonableness of the amount
of the punitive damages award, the court is directed to
consider the following three guideposts:
(1) the degree of reprehensibility of the
defendant’s misconduct; (2) the disparity
between the actual or potential harm suffered
by the plaintiff and the punitive damages
award; and (3) the difference between the
punitive damages awarded by the jury and
the civil penalties authorized or imposed in
comparable cases.
State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408, 418 (2003) (citing BMW of N. Am., Inc. v. Gore,
517 U.S. 559, 575 (1996)). As described above, a
reasonable jury could find that Christensen’s conduct
was exceptionally reprehensible, having engaged in
repeated sexual assaults of plaintiffs over a significant
period of time, without any apparent recognition of the
power dynamic at play or their lack of consent, all for
his own personal gratification.
As for the second guidepost, the ratio between the
punitive damages award and the compensatory
damages award is less than 2 to 1. While “few awards
exceeding a single-digit ration between punitive and
compensatory damages will satisfy due process,” State
Farm, 538 U.S. at 425, the 2:1 ratio here certainly
supports a finding of a reasonable relationship
between the punitive and compensatory awards. See
BMW, 517 U.S. at 581 (“[E]ven though a punitive

App-196
damages award of more than 4 times the amount of
compensatory damages might be close to the line, it
did not cross the line into the area of constitutional
impropriety.”) (internal citations and quotation marks
omitted).
Finally, with respect to the third guidepost—
considering awards in similar cases—Christensen
fails to direct the court to any cases reflecting punitive
damages award significantly less than that awarded
here. The court’s own review reveals that the award is
at least comparable to those recently awarded by a
jury in a similar sexual assault cases under § 1983.
See Martin v. Cty. of Milwaukee, No. 14-CV-200-JPS,
2017 WL 4326512, at *4 (E.D. Wis. Sept. 28, 2017)
(denying defendant’s Rule 59 motion challenging
punitive damages of $5 million). Accordingly, the
jury’s awards were reasonable and comport with due
process requirements.
IV. Award of Attorneys’ Fees and Costs
Finally, following the jury’s verdict in plaintiffs’
favor, the court directed plaintiffs’ counsel to submit
its request for an award of attorneys’ fees and costs
pursuant to 42 U.S.C. § 1988(b), which they did.
Plaintiffs seek reimbursement of actual fees totaling
$470,695.00 and costs totaling $69,127.62. (Bannink
Decl. (dkt. #261) ¶¶ 6, 7.) Plaintiffs’ request is welldocumented. The submitted time entries are detailed
and reflect reasonable amounts of time for caserelated activities. (Id., Ex. C (dkt. #261-3). Moreover,
the hourly rates reflect counsel’s market rates,
ranging from $100 to $325, and also appear to be
reasonable. (Id., Exs. F, G (dkt. ##261-6, 261-7).)
Plaintiffs’ costs are also all related to these cases and

App-197
again appear reasonable. (Id., Ex. D (dkt. #261-4).)
While the court invited defendants’ response to
plaintiffs’ counsel’s request (2/3/17 Order (dkt. #249)),
neither defendants submitted a response, apparently
conceding the reasonableness of plaintiffs’ requests.
For all these reasons, the court will award plaintiffs
attorneys’ fees and costs in the amount of $539,822.62.
ORDER
IS IT ORDERED that:
1)

Defendant Polk County’s motion for judgment as
a matter of law on plaintiffs’ state law negligence
claim on basis of governmental immunity (‘428
dkt. #245; ‘433 dkt. #246) is GRANTED.
Judgment is entered in Polk County’s favor on
plaintiffs’ state law negligence claims.

2)

Defendant Polk County’s motion for judgment as
a matter of law or in the alternative for a new trial
(‘428 dkt. #268; ‘433 dkt. #269) is DENIED.

3)

Defendant Darryl L. Christensen’s motion for new
trial (‘428 dkt. #272; ‘433 dkt. #273) is DENIED.

4)

Plaintiffs are awarded collectively $539,822.62 in
total attorneys’ fees and costs for both cases
pursuant to 42 U.S.C. § 1988(b) to be allocated
equitably as plaintiffs and their counsel shall
agree.

App-198
5)

The clerk of court is directed to enter judgments
in each case consistent with this order and the
jury’s verdicts.

Entered this 5th day of February, 2018.
BY THE COURT:
/s/
_________________________
WILLIAM M. CONLEY
District Judge

App-199
Appendix E
RELEVANT STATUTES
Wis. Stat. § 940.225
1) First degree sexual assault. Whoever does any
of the following is guilty of a Class B felony:
(a) Has sexual contact or sexual intercourse with
another person without consent of that person
and causes pregnancy or great bodily harm to that
person.
(b) Has sexual contact or sexual intercourse with
another person without consent of that person by
use or threat of use of a dangerous weapon or any
article used or fashioned in a manner to lead the
victim reasonably to believe it to be a dangerous
weapon.
(c) Is aided or abetted by one or more other
persons and has sexual contact or sexual
intercourse with another person without consent
of that person by use or threat of force or violence.
(2) Second degree sexual assault. Whoever does
any of the following is guilty of a Class C felony:
(a) Has sexual contact or sexual intercourse with
another person without consent of that person by
use or threat of force or violence.
(b) Has sexual contact or sexual intercourse with
another person without consent of that person
and causes injury, illness, disease or impairment
of a sexual or reproductive organ, or mental
anguish requiring psychiatric care for the victim.
(c) Has sexual contact or sexual intercourse with
a person who suffers from a mental illness or

App-200
deficiency which renders that person temporarily
or permanently incapable of appraising the
person's conduct, and the defendant knows of
such condition.
(cm)
Has sexual contact or sexual intercourse
with a person who is under the influence of an
intoxicant to a degree which renders that person
incapable of giving consent if the defendant has
actual knowledge that the person is incapable of
giving consent and the defendant has the purpose
to have sexual contact or sexual intercourse with
the person while the person is incapable of giving
consent.
(d) Has sexual contact or sexual intercourse with
a person who the defendant knows is unconscious.
(f) Is aided or abetted by one or more other
persons and has sexual contact or sexual
intercourse with another person without the
consent of that person.
(g) Is an employee of a facility or program under
s. 940.295(2)(b), (c), (h) or (k) and has sexual
contact or sexual intercourse with a person who is
a patient or resident of the facility or program.
(h) Has sexual contact or sexual intercourse with
an individual who is confined in a correctional
institution if the actor is a correctional staff
member. This paragraph does not apply if the
individual with whom the actor has sexual contact
or sexual intercourse is subject to prosecution for
the sexual contact or sexual intercourse under
this section.

App-201
(i) Has sexual contact or sexual intercourse with
an individual who is on probation, parole, or
extended supervision if the actor is a probation,
parole, or extended supervision agent who
supervises the individual, either directly or
through a subordinate, in his or her capacity as a
probation, parole, or extended supervision agent
or who has influenced or has attempted to
influence another probation, parole, or extended
supervision agent's supervision of the individual.
This paragraph does not apply if the individual
with whom the actor has sexual contact or sexual
intercourse is subject to prosecution for the sexual
contact or sexual intercourse under this section.
(j) Is a licensee, employee, or nonclient resident
of an entity, as defined in s. 48.685(1)(b) or
50.065(1)(c), and has sexual contact or sexual
intercourse with a client of the entity.
(3) Third degree sexual assault.
(a) Whoever has sexual intercourse with a
person without the consent of that person is guilty
of a Class G felony.
(b) Whoever has sexual contact in the manner
described in sub. (5)(b)2. or 3. with a person
without the consent of that person is guilty of a
Class G felony.
(3m) Fourth degree sexual assault. Except as
provided in sub. (3), whoever has sexual contact with
a person without the consent of that person is guilty of
a Class A misdemeanor.
(4) Consent.“Consent", as used in this section,
means words or overt actions by a person who is

App-202
competent to give informed consent indicating a freely
given agreement to have sexual intercourse or sexual
contact. Consent is not an issue in alleged violations
of sub. (2)(c), (cm), (d), (g), (h), and (i). The following
persons are presumed incapable of consent but the
presumption may be rebutted by competent evidence,
subject to the provisions of s. 972.11(2):
(b) A person suffering from a mental illness or
defect which impairs capacity to appraise
personal conduct.
(c) A person who is unconscious or for any other
reason is physically unable to communicate
unwillingness to an act.
(5) Definitions. In this section:
(abm) “Client" means an individual who
receives direct care or treatment services from an
entity.
(acm) “Correctional institution" means a jail or
correctional facility, as defined in s. 961.01(12m),
a juvenile correctional facility, as defined in
s. 938.02(10p), or a juvenile detention facility, as
defined in s. 938.02(10r).
(ad)
“Correctional staff member" means an
individual who works at a correctional institution,
including a volunteer.
(ag)
“Inpatient facility" has the meaning
designated in s. 51.01(10).
(ai)
“Intoxicant" means any alcohol beverage,
hazardous inhalant, controlled substance,
controlled substance analog, or other drug, or any
combination thereof.

App-203
(ak)
“Nonclient resident" means an individual
who resides, or is expected to reside, at an entity,
who is not a client of the entity, and who has, or
is expected to have, regular, direct contact with
the clients of the entity.
(am)
“Patient" means any person who does
any of the following:
1. Receives care or treatment from a facility
or program under s. 940.295(2)(b), (c), (h) or
(k), from an employee of a facility or program
or from a person providing services under
contract with a facility or program.
2. Arrives at a facility or program under s.
940.295(2)(b), (c), (h) or (k) for the purpose of
receiving care or treatment from a facility or
program under s. 940.295(2)(b), (c), (h) or (k),
from an employee of a facility or program
under s. 940.295(2)(b), (c), (h) or (k), or from a
person providing services under contract with
a facility or program under s. 940.295(2)(b),
(c), (h) or (k).
(ar) “Resident" means any person who resides in
a facility under s. 940.295(2)(b), (c), (h) or (k).
(b) “Sexual contact" means any of the following:
1. Any of the following types of intentional
touching, whether direct or through clothing,
if that intentional touching is either for the
purpose of sexually degrading; or for the
purpose of sexually humiliating the
complainant or sexually arousing or
gratifying the defendant or if the touching

App-204
contains the elements of actual or attempted
battery under s. 940.19(1):
a. Intentional
touching
by
the
defendant or, upon the defendant's
instruction, by another person, by the use
of any body part or object, of the
complainant's intimate parts.
b. Intentional
touching
by
the
complainant, by the use of any body part
or object, of the defendant's intimate
parts or, if done upon the defendant's
instructions, the intimate parts of
another person.
2. Intentional
penile
ejaculation
of
ejaculate or intentional emission of urine or
feces by the defendant or, upon the
defendant's instruction, by another person
upon any part of the body clothed or
unclothed of the complainant if that
ejaculation or emission is either for the
purpose of sexually degrading or sexually
humiliating the complainant or for the
purpose of sexually arousing or gratifying the
defendant.
3. For the purpose of sexually degrading or
humiliating the complainant or sexually
arousing or gratifying the defendant,
intentionally causing the complainant to
ejaculate or emit urine or feces on any part of
the defendant's body, whether clothed or
unclothed.
(c) “Sexual intercourse" includes the meaning
assigned under s. 939.22(36) as well as

App-205
cunnilingus, fellatio or anal intercourse between
persons or any other intrusion, however slight, of
any part of a person's body or of any object into
the genital or anal opening either by the
defendant or upon the defendant's instruction.
The emission of semen is not required.
(d) “State treatment facility" has the meaning
designated in s. 51.01(15).
(6) Marriage not a bar to prosecution. A
defendant shall not be presumed to be incapable of
violating this section because of marriage to the
complainant.
(7) Death of victim. This section applies whether a
victim is dead or alive at the time of the sexual contact
or sexual intercourse.

